<html>
<title> - FIXING NO CHILD LEFT BEHIND: TESTING AND ACCOUNTABILITY</title>
<body><pre>[Senate Hearing 114-512]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-512
 
                      FIXING NO CHILD LEFT BEHIND:
                       TESTING AND ACCOUNTABILITY

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

          EXAMINING NO CHILD LEFT BEHIND, FOCUSING ON TESTING 
                           AND ACCOUNTABILITY

                               __________

                            JANUARY 21, 2015

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
      
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 93-025 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001         
      
      
      
      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming                  PATTY MURRAY, Washington
RICHARD BURR, North Carolina              BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia                   BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky                       ROBERT P. CASEY, JR., Pennsylvania
SUSAN M. COLLINS, Maine                   AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska                    MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois                       SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina                 TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah                      CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas                       ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana

                          

               David P. Cleary, Republican Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

                                  (ii)

  


                                CONTENTS

                              ----------                              

                               STATEMENTS

                      WEDNESDAY, JANUARY 21, 2015

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     5
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................     8
Collins, Hon. Susan, a U.S. Senator from the State of Maine......    55
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    58
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    60
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................    64
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    66
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    68
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    70
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    72
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    74
Murphy, Hon. Christopher S., a U.S. Senator from the State of 
  Connecticut....................................................    75

                               Witnesses

West, Martin R., Ph.D., Associate Professor of Education, Harvard 
  Graduate School of Education; Deputy Director, Program on 
  Education Policy and Governance, Harvard Kennedy School; and 
  Non-Resident Senior Fellow, Brookings Institution, Cambridge, 
  MA.............................................................     9
    Prepared statement...........................................    11
Leather, Paul, Deputy Commissioner, New Hampshire Department of 
  Education, Concord, NH.........................................    17
    Prepared statement...........................................    19
Boasberg, Tom, Superintendent, Denver Public Schools, Denver, CO.    23
    Prepared statement...........................................    25
Henderson, Wade J., President and CEO, Leadership Conference on 
  Civil and Human Rights and the Leadership Conference Education 
  Fund, Washington, DC...........................................    29
    Prepared statement...........................................    31
Lee, Jia, Fourth and Fifth Grade Special Education Teacher, Earth 
  School, New York, NY...........................................    40
    Prepared statement...........................................    41
Lazar, Stephen, Eleventh Grade U.S. History and English Teacher, 
  Harvest Collegiate High School, New York, NY...................    44
    Prepared statement...........................................    45

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response by Martin R. West, Ph.D. to questioms of:
        Senator Murkowski........................................    79

                                 (iii)
        Senator Bennet...........................................    80
        Senator Whitehouse.......................................    81
    Response by Paul Leather to questioms of:
        Senator Murkowski........................................    82
        Senator Baldwin..........................................    83
        Senator Bennet...........................................    83
        Senator Whitehouse.......................................    87
    Response by Wade J. Henderson to questioms of:
        Senator Bennet...........................................    91
        Senator Whitehouse.......................................    93
    Response by Jia Lee to questioms of Senator Baldwin              94
    Response by Stephen Lazar to questioms of:
        Senator Baldwin..........................................    95
        Senator Whitehouse.......................................    96



  


                      FIXING NO CHILD LEFT BEHIND:



                       TESTING AND ACCOUNTABILITY

                              ----------                              


                      WEDNESDAY, JANUARY 21, 2015

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander, chairman of the committee, presiding.
    Present: Senators Alexander, Murray, Burr, Isakson, 
Collins, Murkowski, Scott, Roberts, Cassidy, Casey, Franken, 
Bennet, Whitehouse, Baldwin, Murphy, and Warren.

                 Opening Statement of Senator Alexander

    The Chairman. I'm the chairman, and Patty reminded me she's 
the teacher, so we're going to start on time. Welcome.
    The Senate Committee on Health, Education, Labor, and 
Pensions will please come to order. This morning we'll have a 
hearing on Fixing No Child Left Behind: Testing and 
Accountability. There's a lot of interest in this hearing. 
We've heard from people around the country ever since last week 
when we put a draft working paper up on the website, and we 
have a lot of people in the hall.
    I would say to those in the hall who are not able to get in 
the room that we have an overflow room, which is Room 538, and 
you'll be able to listen to all of the proceedings. If someone 
would let those outside know that, then they'll have a chance 
to hear the witness testimony and the questions. We welcome 
them and we welcome everyone who is here.
    Ranking Member Murray and I will each have an opening 
statement. Then we'll introduce our panel of witnesses. Then 
we'll have a round of questions. We'll ask our witnesses to 
summarize their testimony, please, in 5 minutes each, because 
the Senators will have lots of questions. I'll call on the 
Senators in order of seniority who were here at the time the 
gavel went down, and then after that, they'll go on the order 
of first come, first serve. We will conclude the hearing at 
noon or before if we get through earlier.
    My opening remarks are going to take a little longer than 
normal since this is the first meeting of the committee in this 
Congress. I'll promise my colleagues I won't make a habit of 
that, and I'll keep my questions to the same 5 minutes that 
everyone else has.
    First, some preliminary remarks about the committee itself. 
This committee touches almost every American. No committee is 
more ideologically diverse and none is more productive than 
this committee. In the last Congress, 25 bills that came 
through this committee were signed by the president and became 
law--some very important. That's because Chairman Harkin and I 
worked to find areas of agreement.
    I look forward to working in the same way with Senator 
Murray. She is direct. She is very well respected by her 
colleagues on both sides of the aisle. She cares about people. 
She's a member of the Democratic leadership, and she is result 
oriented. I look forward to that working relationship.
    We're going to have an open process, which means, for me, 
every Senator, regardless of their party affiliation, will have 
a chance to participate, a full opportunity for discussion and 
amendment, not just in committee but on the floor. Our bills in 
the last Congresses never got brought up on the floor.
    But this year, we want a result, and that means go to the 
floor, and that means further amendments, further discussion. 
That means 60 votes to get off the floor, so it will be a 
bipartisan bill. If it goes to conference, we know the 
President will be involved. We want his signature on our bills. 
All the way through, we're going to do our best to have input 
from everyone so we can get a result.
    Now, the schedule. The schedule of the committee generally 
will start with unfinished business--first, fixing No Child 
Left Behind. This is way overdue. It expired more than 7 years 
ago. We posted a working draft last week on the website. We're 
getting a lot of feedback. Staffs are meeting, exchanging 
ideas. We'll have more weeks of hearings and meetings.
    But we've been working on this 6 years. We've had 24 
hearings over the last three Congresses on K through 12 or 
fixing No Child Left Behind. Almost all of the members of the 
committee this year were members last year. We hope to finish 
our work by the end of February and have it on the floor.
    I would say to my colleagues it's important to do that so 
we can get floor time. It'll take a couple of weeks. No Child 
Left Behind took 6 or 7 weeks when it was passed in 2001, and 
we would like to have a full opportunity for debate and 
amendment.
    Second is reauthorizing higher education. We've already 
done a lot of work on that in the last Congress. This is, for 
me, about deregulating higher education, making rules simpler 
and more effective, for example, the student aid loan form, so 
more students can go to college. We can finish the work that we 
started in 2013 on student loans. We can look at accreditation, 
and we can look at deregulation. The task force that Senators 
Mikulski, Burr, Bennet, and I formed on deregulation will be 
the subject of our hearing on February 24th.
    As rapidly and responsibly as we can, we want to repair the 
damage of Obamacare and provide more Americans with health 
insurance that fits their budgets. Now, on this issue, we don't 
agree on party lines. Our first hearing is on a bipartisan bill 
on the 30 to 40 hour work week. Senators Collins, Murkowski, 
Manchin, and Donnelly have offered that. We will have a hearing 
tomorrow on that and will report our opinions to the Finance 
Committee.
    Then some new business. Let's call it 21st Century Cures. 
That's what the House calls it, as it finishes its work this 
spring on that issue. The president talked about it last night. 
He's also interested. I've talked to him about it.
    In fact, he's interested in all three of these subjects 
that we talked about--fixing No Child Left Behind, finishing 
our work on higher education, and 21st Century Cures. I like 
that, because I like to find those areas of agreement, and we 
hope we can have a legislative proposal that he will be glad to 
sign. What we're talking about here is getting more medicines, 
devices, and treatments through the Food and Drug 
Administration more rapidly to help millions of Americans.
    There will be more on labor, pensions, education, and 
health. These are major priorities, and that's how we will 
start.
    The President has made major proposals on community 
colleges and on early childhood education. These are certainly 
related to elementary and secondary education, but we've always 
handled them separately. We can deal with the community college 
proposal as we deal with higher education. We'll have to talk 
about how we deal with early childhood education, because to do 
that in any kind of comprehensive way involves getting into 
Head Start and into the Child Care Development Block Grant that 
we dealt with in the last Congress.
    As more of my colleagues are here today, I said I would not 
be as long in my opening statement in future meetings, but this 
is the first one.
    Last week, Secretary Duncan called for the law to be 
fixed--No Child Left Behind. Almost everyone now seems to agree 
with him. It's more than 7 years overdue. We've been working on 
it for more than 6 years. When we started working on it--and we 
did this--Republicans and Democrats, Secretary Duncan--6 years 
ago, former Representative George Miller said, ``Let's identify 
the problems. Let's pass a lean bill and fix No Child Left 
Behind.''
    Since then, we've had 24 hearings on K through 12 or fixing 
No Child Left Behind. In each of the last two Congresses, we've 
reported bills out of committee. I would say to my colleagues 
that Congress before last, it was mainly what one might call a 
Democratic bill, but I, Senator Enzi, and Senator Kirk all 
voted for it so we could get it to the floor and continue to 
amend it.
    Twenty of the twenty-two of us on this committee were 
members in the last Congress when we reported a bill. Sixteen 
of the 22 of us who are members of this committee were in the 
previous Congress when we reported a bill, so we ought to know 
the issues pretty well.
    One reason No Child Left Behind needs to be fixed is that 
it has become unworkable. Under its original provisions, almost 
all of America's 100,000 public schools would be labeled a 
failing school. To avoid this unintended result, the U.S. 
Education Secretary has granted waivers from the law's 
provisions to 43 States, including Washington, which has since 
had its waiver revoked, as well as the District of Columbia and 
Puerto Rico.
    This has created a second unintended result, at least 
unintended by Congress, which had stated in law that no Federal 
official should, quote, ``exercise any direction, supervision, 
or control over curriculum, program or instruction or 
administration of any educational program.'' That's the law 
today.
    Nevertheless, in exchange for the waivers, the Secretary 
has told States what their academic standards should be, how 
States should measure the progress of students toward those 
standards, what constitutes failure for schools and what the 
consequences of failure are, how to fix low performing schools, 
and how to evaluate teachers. The Department has, in effect, 
become a national school board. Or, as one teacher told me, it 
has become a national Human Resources Department for 100,000 
public schools.
    At the center of the debate about how to fix No Child Left 
Behind is what to do about the Federal requirement that states, 
each year, administer 17 standardized tests with high stakes 
consequences. Educators call this an accountability system.
    Are there too many tests? Are they the right tests? Are the 
stakes for failing them too high? What should Washington, DC, 
have to do with all this? Many States and school districts 
require schools to administer additional tests. Now, this is 
called a hearing for a reason. I have come to listen.
    Our working draft includes two options on testing. Option 1 
gives flexibility to States to decide what to do about testing. 
Option 2 maintains current law regarding testing. Both options 
would continue to require annual reporting of student 
achievement, disaggregated by subgroups of children.
    Washington sometimes forgets--but Governors never do--that 
the Federal Government has limited involvement in elementary 
and secondary education, contributing only 10 percent of the 
bill. For 30 years, the real action has been in the States. I 
have seen this first hand.
    If you'll forgive me for pointing it out, I was Governor in 
1983 when President Reagan's Education Secretary issued ``A 
Nation at Risk,'' saying, ``If an unfriendly foreign power had 
attempted to impose on America the mediocre educational 
performance that exists today, we might well have viewed it as 
an act of war.'' Then the next year, Tennessee, after a long 
battle with the National Education Association, became the 
first State to pay teachers more for teaching well.
    Then the next 2 years, 1985 and 1986, every Governor spent 
the entire year focusing on education--first time that ever 
happened in the National Governors Association. I was chairman 
of it then. Bill Clinton was the vice chairman. In 1989, the 
first President Bush convened a meeting of Governors in 
Charlottesville and established voluntary national education 
goals.
    Then in 1991 and 1992, President Bush announced America 
2000 to move the Nation voluntarily toward those goals, State 
by State, community by community. I was the Education Secretary 
then. Since then, States have worked together voluntarily to 
develop academic standards, develop tests, to create their own 
accountability systems, find fair ways to evaluate teacher 
performance, and have then adopted those that fit their States.
    I know members of this committee must be tired of me 
talking until I am blue in the face about a national school 
board. I know that it is tempting to try to fix classrooms from 
Washington. I also hear from Governors and school 
superintendents who say this:
          ``If Washington doesn't make us do it, the teachers 
        union and opponents from the right will make it 
        impossible for us to have higher standards and better 
        teachers.''

    I understand that there can be short-term gains from 
Washington's orders, but my experience is that long-term 
success can't come that way. In fact, Washington's involvement, 
in effect, mandating Common Core and certain types of teacher 
evaluation, is creating a backlash, making it harder for States 
to set higher standards and evaluate teaching. As one former 
Democratic Governor told me recently, ``We were doing pretty 
well until Washington got involved, and if they'll get out of 
the way, we'll get back on track.''
    So rather than turn blue in the face one more time in front 
of my colleagues, let me conclude with the remarks of Carol 
Burris, New York's High School Principal of the Year. She 
responded last week to our committee draft in the following 
way:

          ``I ask that your committee remember that the 
        American public school system was built on the belief 
        that local communities cherish their children and have 
        the right and responsibility within sensible limits to 
        determine how they are schooled.
          ``While the Federal Government has a very special 
        role in ensuring that our students do not experience 
        discrimination based on who they are or what their 
        disability might be, Congress is not a national school 
        board. Although our locally elected school boards may 
        not be perfect, they represent one of the purest forms 
        of democracy that we have.
          ``Bad ideas in the small do damage in the small and 
        are easily corrected. Bad ideas at the Federal level 
        result in massive failure and are harder to fix.''

This is Carol Burris, New York's High School Principal of the 
Year.
    She concludes with this:

          ``Please understand that I do not dismiss the need to 
        hold schools accountable. The use and disaggregation of 
        data has been an important tool that I use regularly as 
        a principal to improve my own school. However, the 
        unintended, negative consequences that have arisen from 
        mandated, annual testing and its high stakes uses have 
        proven testing not only to be an ineffective tool, but 
        a destructive one as well.''

    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you very much, Chairman Alexander, 
for holding this hearing today. I especially want to thank all 
of our witnesses who are here with us.
    This is my first committee meeting as Ranking Member of the 
HELP Committee, so I want to start just by acknowledging our 
former chair, Senator Tom Harkin, and commend his many years of 
service on this committee that really is a committee that 
touches every American life. He was a tireless advocate for 
those without a voice, and he is going to be missed, as we all 
know.
    I also want to acknowledge and congratulate our new 
chairman, Senator Alexander. I look forward to working with you 
as well. We've had a number of conversations, and as we both 
adjust to our new roles, I think we do have one belief that we 
mention every time we talk, and that is we think working 
together, this committee can really get some exciting work done 
in the coming 2 years. Talking to our colleagues on this dais, 
I'm very excited about what we can all do together in the 
coming weeks and months.
    I am ready to get to work, especially on an issue as 
important as the topic of this committee hearing: education. In 
fact, this is the issue that got me into politics in the very 
first place. Throughout my career, first as a preschool 
teacher, and then on a school board, in my own State senate in 
Washington, and here in the U.S. Senate, I have been committed 
to making sure that every child, every child, has someone 
fighting for them and their future.
    Serving on this committee, I am looking forward to making 
college more affordable and reducing the overwhelming burden of 
student loans, expanding access to early learning, and making 
sure the voices of students and parents are heard in the 
policymaking process. Of course, in the coming weeks and 
months, I will be especially focused on working to fix the 
broken No Child Left Behind law, and that, of course, is what 
we're talking about today.
    Nearly everyone agrees that we need to fix No Child Left 
Behind. The law set unrealistic goals for schools across the 
country and then failed to give them the resources they needed 
to succeed. We can't turn our back in the process on measuring 
students' progress or simply let schools and States off the 
hook for failing to provide a quality education to all of their 
students, especially because we have seen some successes since 
2001 when Congress enacted No Child Left Behind.
    Our graduation rate has increased by 10 points. Among 
students with disabilities, regular diploma graduation rates 
have increased by more than 12 percent, and dropout rates have 
decreased by more than 17 percent. Achievement gaps have 
declined among African-American and Latino students. The 
Federal Government does have an important role and a productive 
role to play in making sure that assessments and accountability 
work for our kids.
    Assessments also help parents and communities hold their 
schools accountable. If a school is failing students year after 
year, parents and communities deserve to have that information 
and be assured that the school will get the resources it needs 
to improve. I know there are a number of parents here in this 
audience today and out in the hall who would agree with that.
    When it comes to our Nation's largest Federal investment in 
K through 12 education, it would be irresponsible to spend 
billions in Federal taxpayer dollars without knowing if the law 
is making a difference in student lives. Many of my colleagues 
demand evidence and accountability in other Federal programs 
and I hope they agree that we need it with education as well.
    For those reasons, I would be very concerned about any 
attempt to eliminate annual statewide assessments, just as I 
would be very concerned about any attempt to roll back 
accountability to make sure we're delivering on our promise of 
a quality education for all.
    Now, 13 years after Congress passed this law, we should use 
the research and the best practices and the lessons we've 
learned to fix No Child Left Behind. I've heard from so many 
parents and teachers, as well as community members, in my home 
State of Washington about the ways the current system doesn't 
work when it comes to testing. We can and should encourage 
States and districts to reduce redundant and low quality tests.
    Because we have a national interest in making sure all 
students get an excellent education, we do need Federal 
oversight to make sure our system is working for every child. 
That means offering the resources for improving professional 
development and for expanding access to high-quality learning 
opportunities to help our struggling schools so we don't 
consign some kids to subpar education. While we carefully 
consider changes to assessments and accountability to give 
States and districts the flexibility they do need, we can't 
forget our obligations to the kids who too often fall through 
the cracks.
    I've laid out my priorities for fixing this broken law, and 
I know Chairman Alexander has put his priorities out in the 
discussion draft. I hope we can now begin conversations about a 
truly bipartisan approach in the HELP Committee to fix this 
broken law. I know the members on my side are very anxious to 
begin work and continue the long tradition of this committee in 
tackling tough problems in a bipartisan fashion.
    Fixing No Child Left Behind should not be a partisan issue. 
It should be one that we work on hand-in-hand, not as Democrats 
and Republicans, but as Americans. This is an issue that is not 
about politics. It's about what is best for our kids. In our 
country, we do believe that every student should have access to 
a quality public education regardless of where they live or how 
they learn or how much money their parents make. That vision is 
a big part of what we mean when we talk about America, what 
makes our country great.
    Other countries in the world are investing in education. 
They are working every day to get it right for their students. 
China, India, and others--they think they can beat us in the 
classroom. We know better. We know we can win this, and we know 
that we have to for students back in my home State of 
Washington, for our economic future, and for our shared vision 
of an American dream.
    We can't afford to turn back the clock on the promise of 
quality education for all. We cannot be the generation that 
drops the ball on that noble goal, and I will continue to fight 
to bring quality education to all of our students.
    Thank you, Mr. Chairman, and I look forward to the panel 
discussion.
    The Chairman. Thanks, Senator Murray. As we will always try 
to do, we'll try to have a bipartisan agreement on witnesses. 
We were able to do that today, and we'll ask Senator Warren and 
Senator Bennet to introduce two of the witnesses, and I'll 
introduce the other four.
    Senator Warren. Thank you, Mr. Chairman. I am pleased to 
introduce Dr. Marty West, an Associate Professor of Education 
at the Harvard Graduate School of Education and Deputy Director 
of the Harvard Kennedy School's Program on Education Policy and 
Governance. Dr. West studies education policy and reform and 
its impact on student learning and development. He has authored 
many articles on the subject, including many pieces on No Child 
Left Behind.
    Last year, Dr. West worked for this committee as Senior 
Education Policy Advisor to Chairman Alexander. I know there 
are areas where we agree and areas where we disagree, but I'm 
always very happy to welcome witnesses from Massachusetts to 
testify before this committee.
    Thank you, Dr. West, for being here today.
    The Chairman. Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. I want to thank 
you and the Ranking Member for holding this hearing. I've often 
said that if we had a rally to keep No Child Left Behind the 
same on the Capitol steps, there's not a single person in the 
country that would come to that. We are 8 years overdue. We are 
long overdue.
    I'm honored this morning to introduce my friend, Tom 
Boasberg, the Superintendent of the Denver Public Schools. Tom 
joined DPS as the Chief Operations Officer in 2007 while I was 
superintendent, and then was unanimously appointed 
superintendent in 2009 by a grateful school board who no longer 
had to deal with me. Before joining DPS, Tom served as group 
vice president of Level 3 Communications, where he was 
responsible for the company's mergers and acquisitions and 
strategic partnerships.
    Prior to Level 3, he was a legal advisor to Reed Hundt, 
Chairman of the Federal Communications Commission. At the FCC, 
he helped establish the E-Rate program. Tom began his career as 
a junior high school English teacher in Hong Kong's public 
schools. He claims to speak fluent Mandarin and Cantonese, and 
since I can't speak either, I have no idea whether that's 
actually true or not.
    [Laughter.]
    Today, Tom oversees the largest school district in Colorado 
with 185 schools with an enrollment of more than 90,000 
students and 13,000 employees. When I left Denver Public 
Schools to come to the Senate in 2009, I said that if I've done 
a decent job, Tom will do an even better job, and there's no 
doubt that has been the case.
    Under Tom, Denver Public Schools has ranked at the top of 
the State's largest districts in student growth for 3 
consecutive years. In 2005, Denver was dead last.
    Just last year, Denver Public School students eligible for 
free and reduced lunch had stronger academic growth than non-
free and reduced lunch students statewide in math and writing. 
DPS's non-free and reduced lunch students showed more growth 
than their State counterparts in math by eight points. On top 
of that, Denver's English language learners have outperformed 
the States. Tom also happens to be responsible for educating my 
three daughters.
    As we begin to talk about reauthorizing ESEA, we need to 
hear the voices of those who are fighting every day to improve 
our kids' education. Tom Boasberg, in my view, is at the top of 
that list.
    Tom, thank you for being here today, and we're all looking 
forward to hearing your testimony.
    Mr. Chairman, thank you for including me in this.
    The Chairman. Thank you, Senator Bennet. I think that boils 
down to he cleaned up after you left. Is that how that----
    [Laughter.]
    Senator Bennet. You can't even know half of the truth.
    The Chairman. We're delighted to have you.
    Now, let me just mention the other witnesses, and then 
we'll turn to them. Mr. Paul Leather is here. He is deputy 
commissioner of education in New Hampshire. Mr. Wade Henderson 
is here, who has testified before this committee before. He is 
chief executive officer of the Leadership Conference on Civil 
and Human Rights and the Leadership Conference Education Fund.
    Ms. Jia Lee, fourth and fifth grade special education 
teacher of the Earth School, New York City. Mr. Stephen Lazar, 
social studies and English teacher, Harvest Collegiate High 
School in New York City.
    We have your testimony, and we've read them. At least, I 
have. We ask you to summarize your testimony in 5 minutes, 
because we have a lot of interested Senators who would like to 
ask you questions. If you don't mind, there's a clock that will 
show you when 5 minutes is up, and I'll use the gavel.
    Why don't we start with you, Dr. West, and go right down 
the line? Then we'll go to questions from the Senators.

  STATEMENT OF MARTIN R. WEST, Ph.D., ASSOCIATE PROFESSOR OF 
    EDUCATION, HARVARD GRADUATE SCHOOL OF EDUCATION; DEPUTY 
 DIRECTOR, PROGRAM ON EDUCATION POLICY AND GOVERNANCE, HARVARD 
   KENNEDY SCHOOL; AND NON-RESIDENT SENIOR FELLOW, BROOKINGS 
                   INSTITUTION, CAMBRIDGE, MA

    Mr. West. Thank you. Chairman Alexander, Senator Murray, 
members of the committee, thank you for the opportunity to 
appear before you today. I'd like to begin by congratulating 
the committee on putting the reauthorization of the Elementary 
and Secondary Education Act at the very top of its legislative 
agenda for the 114th Congress.
    Nothing is more important to our Nation's future than 
ensuring that we provide all children with the opportunity to 
reach their full academic potential. Congress can't do that on 
its own, but it can help by addressing the very real 
shortcomings of the most recent reauthorization, No Child Left 
Behind, and restoring the predictability with respect to 
Federal education policy that State and local officials need to 
carry out their work.
    As you move forward with this important work, however, I 
would urge you not to lose sight of the positive aspects of No 
Child Left Behind. Above all, the law's requirement that 
students be tested annually in reading and math in grades three 
through eight and once in high school has provided parents, 
teachers, and other citizens with detailed information about 
students' performance in these foundational subjects and, 
therefore, the extent to which they have mastered skills that 
are prerequisites for other educational goals.
    This information has called attention to achievement gaps 
along lines of race, ethnicity, and class across entire States 
and within specific schools. It has ushered in a new era in 
education research, and it has made it possible to develop new 
indicators of schools' performance based on their contribution 
to student learning.
    Research confirms that by requiring States that had 
previously not implemented school accountability systems to do 
so, No Child Left Behind worked to generate modest improvements 
in student learning, concentrated in math and among the lowest 
performing students, precisely those on whom the law was 
focused. I say worked in the past tense, however, as the days 
when No Child Left Behind worked are behind us.
    As the law's 2014 deadline for all students to be 
performing at grade level approached, its accountability system 
became unworkable. Far too many schools were identified as 
underperforming and the system lost its most critical asset, 
its credibility.
    Recent concerns have also been raised about the amount of 
time students now spend taking standardized tests. We lack 
systematic data on the amount of time students nationwide spend 
taking those tests, nor do we know how much would be optimal. A 
handful of recent State and district level audits suggest that 
students spend about 1 percent to 3 percent of the year taking 
standardized tests, a figure that sounds appropriate given the 
value of the information they provide.
    But we also know that some schools test far more than this 
and that too many schools devote excessive time to narrow test 
preparation activities in an attempt to avoid federally 
mandated sanctions. The concerns voiced by parents and 
educators in these schools are legitimate.
    But eliminating annual testing requirements is not 
necessary to address these concerns. Indeed, it would only make 
them harder to do so. It is not necessary because federally 
mandated annual State tests generally account for less than 
half of test-taking time, just 32 percent in a recent Ohio 
study. The rest of test-taking time in Ohio is devoted to State 
and district mandated tests and to new tests developed to 
implement the teacher evaluation system the State was forced to 
adopt under the Obama administration's ESEA waiver program.
    It would make matters more difficult because the most 
important flaw of the No Child Left Behind accountability 
system is its reliance on the level at which students are 
performing at a single point in time as a measure of school 
performance. Achievement levels are a poor indicator of school 
quality as they are heavily influenced by factors outside of a 
school's control.
    This approach, which is all that is possible under a grade 
span testing regime, judges schools based on the students they 
serve, not on how well they serve them. Performance measures 
based on growth and student achievement over time, which are 
only possible with annual testing, provide a fair, more 
accurate picture of schools' contribution to student learning.
    Why did Congress design such a system back in 2002? One key 
reason was that many States did not test students annually, and 
those that did were often unable to track the performance of 
individual students over time. That situation has now changed, 
thanks to No Child Left Behind and related Federal investments 
in State data systems. It would be ironic and, in my view, 
unfortunate if in seeking to fix No Child Left Behind Congress 
were to recreate the conditions that led to the adoption of an 
ill-designed accountability system in the first place.
    Eliminating annual testing would have other negative 
consequences. It would all but eliminate school level 
information about the learning of student subgroups. It would 
sharply limit the information available to parents making 
choices about the school their child attends, whether through 
open enrollment or charter school programs. Third, it would 
prevent policymakers and researchers from evaluating the 
effectiveness of new education programs when, as is typically 
the case, the appropriate research design depends on knowledge 
of students' recent achievement.
    My main recommendation, therefore, is to maintain the law's 
current annual testing requirements while restoring to States 
virtually all decisions about the design of their 
accountability systems, including how schools and teachers are 
identified as underperforming and what should be done to 
improve their performance. The Federal Government has a 
critical role to play in ensuring that parents and citizens 
have good information about their schools' performance.
    At the same time, the Federal Government lacks the capacity 
to design an accountability system that is appropriate to the 
needs of each State and has a poor record of attempting to 
dictate the required elements of efforts to improve 
underperforming schools. By focusing on improving the 
transparency of information about school performance and 
resources, Congress can build on the successes of No Child Left 
Behind while learning from its failures.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. West follows:]
              prepared statement of martin r. west, ph.d.
    Chairman Alexander, Senator Murray, members of the committee, thank 
you for the opportunity to appear before you today. My name is Martin 
West. I am an associate professor of education at the Harvard Graduate 
School of Education and a non-resident senior fellow at the Brookings 
Institution. Over the past 15 years, I have conducted my own research 
on test-based accountability systems, reviewed the research of others 
working in this area, and consulted with State and Federal policymakers 
on the design of accountability policies.
    I would like to begin by congratulating the committee on its 
decision to put the reauthorization of the Elementary and Secondary 
Education Act at the top of its legislative agenda for the 114th 
Congress. Nothing is more important to our Nation's future than 
ensuring that all American children have the opportunity to reach their 
full academic potential. Congress cannot do that on its own, but it can 
help by addressing the very real shortcomings of the most recent 
reauthorization, No Child Left Behind (NCLB), and restoring the 
predictability with respect to Federal policy that State and local 
officials need to carry out their work.
    My testimony aims to inform this effort by providing information 
on:

    1. The validity of test scores as measures of student learning;
    2. The effects of NCLB's testing and accountability requirements, 
both overall and in schools identified as in need of improvement; and
    3. The implications of eliminating the law's annual testing 
requirements.

    I conclude with recommendations on how to address NCLB's most 
serious flaws while building on its most important contribution: the 
provision of far greater transparency about the academic achievement of 
American students. The law's requirement that students be tested 
annually in math and reading in grades 3-8 and once in high school, and 
that the results be reported by school and disaggregated by student 
subgroup, has provided parents, teachers, and other citizens with 
essential information about students' performance in these foundational 
subjects--and therefore the extent to which they have mastered skills 
that are prerequisites for other educational goals. This information 
has called attention to gaps in achievement along lines of race, 
ethnicity, and class across entire States and within specific schools; 
it has ushered in a new era in education research; and it has made it 
possible to develop new indicators of schools' performance based on 
their contribution to student learning.
    My principal recommendation is therefore to maintain the law's 
current requirement that States test students annually in math and 
reading in grades 3-8 and at least once in high school, while restoring 
to States virtually all decisions about the design of their 
accountability systems, including how schools and teachers are 
identified as under-performing and what should be done to improve their 
performance.\1\
---------------------------------------------------------------------------
    \1\ My testimony draws in part on research conducted jointly with 
Matthew Chingos, Mark Dynarski, and Russ Whitehurst of the Brookings 
Institution and published in Chingos and West (2015) and Whitehurst, et 
al. (2015).
---------------------------------------------------------------------------
      the validity of test scores as measures of student learning
    Test-based accountability is premised on the notion that student 
test scores in core academic subjects are valid indicators of student 
learning that matters for valued long-term outcomes. That is, 
policymakers are generally not interested in boosting math and reading 
test scores per se, but only insofar as those test scores predict 
outcomes such as post-secondary success and adult earnings. It has long 
been known that student performance on low-stakes tests are strong 
predictors of individual labor-market success and, in the aggregate, of 
national economic growth rates (see, e.g. Johnson and Neal 1996; 
Hanushek and Woessmann 2008). Only recently, however, have researchers 
been able to examine the predictive power of the kinds of tests 
administered by States and school districts in low-and high-stakes 
settings. Two new studies in this area are particularly instructive.
    Chetty, Friedman, and Rockoff (2014) link math and reading test 
scores from New York City students in grades 3-8 to Internal Revenue 
Service records for the same students as they became adults. The tests 
were administered on an annual basis to all New York City students but 
were not at the time used to hold teachers or schools accountable for 
their performance. The study shows that being assigned to a more 
effective teacher, as defined by her past impact on other students' 
test scores, has a positive impact on the likelihood that students will 
attend college and on their earnings at age 28, as well as on other 
variables such as the likelihood of avoiding teenage pregnancy (for 
girls) and whether the student is saving for retirement. The magnitude 
of these relationships is impressive. For example, being assigned to a 
teacher in the top-5 percent in terms of her success in raising student 
test scores, as opposed to an average teacher, increases a child's 
lifetime income by roughly $80,000. These results clearly highlight the 
importance of teacher effectiveness in shaping student outcomes. As 
important, they confirm that a teacher's impact on test scores 
accurately predicts her impact on more distant outcomes, at least when 
those tests are low-stakes.
    Deming, et al. (2014), in turn, use data from Texas to examine the 
predictive validity of gains in test scores induced by the State's 
high-stakes school accountability system. They find that high schools 
responded to the threat of being assigned a very low rating by 
increasing their students' achievement on high-stakes tests. At age 25, 
these same students were more likely to have completed a 4-year degree 
and have higher earnings. Deming, et al. also find that schools 
pressured to earn a higher rating responded not by improving 
achievement, but by classifying more low-scoring students as students 
with disabilities in order to exempt them from the accountability 
system; these same students suffered large declines in their post-
secondary attainment and earnings. Overall, their results therefore 
illustrate not only the predictive validity of accountability-induced 
gains in student test scores, but also the critical importance of 
designing accountability systems carefully in order to avoid unintended 
consequences.
    In sum, evidence confirms that the scores that students receive on 
standardized tests administered in schools are strongly predictive of 
later life outcomes that are of great value to those students and the 
Nation. Moreover, gains in test scores that result from interventions 
such as being assigned to a particularly effective teacher or attending 
a school facing accountability pressure also predict improvements in 
adult outcomes. Of course, teachers and schools also contribute to 
student outcomes in ways that are not captured by test scores and 
therefore harder to measure (see, e.g. Jackson 2012). However, 
information on school performance that does not include data on student 
learning as measured by tests that are comparable statewide would be 
badly compromised.
   the effects of no child left behind's testing and accountability 
                              requirements
    With the No Child Left Behind Act of 2002 (NCLB), Congress for the 
first time required States accepting Federal funds through title I to 
put into place consequential test-based accountability systems. In 
particular, States were required to adopt challenging content standards 
in math, reading, and science; test students annually in math and 
reading in grades 3-8 and once in high school; report the share of 
students performing at proficient levels in each subject (disaggregated 
by student subgroup); and intervene in schools where students overall 
or within a specific subgroup failed to exceed statewide performance 
targets. States had to raise these targets over time in line with the 
goal of having all students achieving at proficient levels in core 
academic subjects by 2014.
    Evaluating the impact of NCLB's testing and accountability 
requirements is difficult, as the law required all States to implement 
the same basic policies. Although student achievement in grades 4 and 8 
as measured by the National Assessment of Educational Progress (NAEP) 
has risen since the law's enactment, this trend could be driven by 
other factors. NCLB did not come from nowhere, however: Roughly half of 
States had established consequential test-based accountability systems 
in the 1990's, and many NCLB requirements were based on elements of 
those systems. Insight into the law's effects can therefore be gleaned 
by comparing the States required by NCLB to implement test-based 
accountability systems for the first time to those that already had 
such systems in place and were thus less affected by the law's 
requirements.
    Taking this approach, two independent teams of scholars (Dee and 
Jacob 2010; Wong, Cook, and Steiner 2011) find that NCLB's testing and 
accountability provisions have generated modest improvements in student 
achievement as measured by the NAEP in States required to implement 
test-based accountability systems for the first time. The gains in 
achievement have been concentrated in mathematics, as opposed to 
reading, and among the low-performing students that were most directly 
affected by the law's accountability system. These findings are 
consistent with earlier research indicating that States adopting 
consequential test-based accountability systems in the 1990's improved 
more on the NAEP than did other States (Carnoy and Loeb 2002; Hanushek 
and Raymond 2005). Both sets of studies are noteworthy in that they 
document gains on the low-stakes NAEP and therefore should not be 
influenced by schools facing pressure to improve students' performance 
on a specific test.
    A second approach to examining NCLB's effects has been to study the 
law's effects on schools at risk of being identified by States as in 
need of improvement and on schools so identified and subjected to 
various interventions. In the only nationally representative study of 
this kind, Reback, Rockoff, and Schwartz (2014) find that attending a 
school at risk of being identified as in need of improvement had 
positive or neutral effects on students' achievement on low-stakes 
reading tests, no clear effects on their achievement on low-stakes math 
and science tests, and positive effects on their enjoyment of learning 
in those subjects. Several studies conducted in specific States or 
school districts have also found that students enrolled in schools not 
making Adequate Yearly Progress (and therefore placed at risk of 
sanction) made greater than expected gains on their State test (see, 
e.g., Springer 2008; Krieg 2008; Ladd and Lauen 2010; Neal and 
Schanzenbach 2010; Hemelt 2011). Neal and Schanzenbach (2010) and Krieg 
(2008) find that these improvements were concentrated among students on 
the margin of proficiency--so called ``bubble kids'' (Booher-Jennings 
2005)--suggesting that schools may have shifted their instructional 
energies away from students performing at much higher or lower levels. 
Studies of the effects of actual sanctions for under-performing schools 
required under NCLB provide a more mixed picture. Anh and Vigdor 
(2014), however, find positive effects on student achievement in 
schools forced into restructuring with leadership or management 
changes.
    In sum, the best available evidence indicates that NCLB has 
generated improvements in student learning, concentrated in math, among 
the Nation's lowest-performing students--precisely those on whom the 
law was focused. These gains have been relatively modest in size, 
however, far short of the rate of improvement required to bring all 
students to a reasonable definition of proficiency by 2014.
    As the law's deadline for universal proficiency approached, the 
NCLB accountability system therefore became unworkable, with a majority 
of schools in some States identified as under-performing. In response, 
the Obama administration, through its ESEA Flexibility Program, offered 
States limited flexibility with respect to the design of their 
accountability system in exchange for complying with new requirements 
in areas such as teacher evaluation and school turnaround models. While 
the appropriateness and aspects of the design of this State waiver 
program are hotly debated, the acute need to address the shortcomings 
of NCLB's accountability model is not in dispute.
    It is also important to acknowledge evidence of the unintended 
consequences of the NCLB accountability system. For example, research 
has clearly shown that test-based accountability can result in a 
narrowing of the curriculum to focus on tested subjects at the expense 
of those for which schools are not held accountable. Consistent with 
this, the initial implementation of NCLB was associated with large 
increases in the amount of instructional time elementary school 
teachers reported spending on reading and declines in the coverage of 
history and science (West 2007). Harder to track systematically is the 
law's effects on other aspects of classroom practice. Yet some evidence 
suggests that heavy handed test-based accountability policies can 
promote rote, teacher-directed instruction and encourage schools to 
focus narrowly on test-preparation skills rather than ensuring that 
students are exposed to a curriculum rich in academic content.
    These tendencies may be strongest in schools with high minority and 
low-income populations, which typically face the strongest pressure to 
improve (Diamond and Spillane 2005).
    Important concerns have also been raised about the amount of time 
students now spend taking standardized tests. Unfortunately we lack 
systematic data on the amount of time students nationwide spend taking 
standardized tests and how this changed with the implementation of NCLB 
and related Federal policies. Nor do we know the amount of test-taking 
time that would be optimal. A handful of recent district- and state-
level analyses suggest that students are scheduled to spend 1-3 percent 
of the school year taking standardized tests, depending on the grade 
level, a figure that sounds appropriate given the value of the 
information they provide and evidence that taking tests can support 
learning (Lazarin 2014; Teoh et. al. 2014; Nelson 2013; Ohio Department 
of Education 2015). That said, we also know that these official figures 
likely understate the true amount of instructional time teachers lose 
as a result of testing, that schools in some districts test much more 
than these averages, and that far too many schools devote excessive 
time to narrow test-preparation activities in an attempt to avoid 
federally mandated sanctions. The concerns now being voiced by parents 
and educators in these situations are legitimate.
        implications of eliminating annual testing requirements
    Eliminating annual testing requirements is not necessary to reduce 
over-testing where it exists, however. Indeed, doing so would only make 
it harder for States to address the flaws of the NCLB accountability 
system and develop new ones that provide good information on schools' 
contribution to student learning and set realistic targets for 
improvement. It would also have other important negative consequences.
    Eliminating annual testing is unnecessary because the annual tests 
in math and reading (and grade-span testing in science) currently 
required under NCLB typically account for less than half of the total 
amount of time students spend taking standardized tests. For example, a 
recent testing audit conducted by the Ohio Department of Education 
(2015) found that NCLB-mandated tests are responsible for 32 percent of 
testing time in that State. Another 26 percent of testing time is 
devoted to new assessments developed to implement a teacher evaluation 
system the State adopted as a condition of receiving a waiver through 
the Obama administration's ESEA Flexibility Program. The remaining 42 
percent of testing time is devoted to tests required not by the Federal 
Government, but by the State or local school districts.
    The most important flaw of the accountability system States are 
required to use under No Child Left Behind is its exclusive reliance on 
student performance levels as a measure of school performance. Under 
that system, whether a school makes Adequate Yearly Progress is 
determined primarily based on the share of students who are proficient 
in math and reading in a given year--a level-based measure of student 
achievement. Yet the level at which students perform at a given point 
of time is a poor indicator of school quality, as student achievement 
is heavily influenced by factors outside of a school's control. 
Measures based on the amount students learn from 1 year to the next can 
provide a more accurate gauge of schools' contribution to student 
learning (Deming 2014). These kinds of measures are only possible, 
however, when students are tested in adjacent grades.
    In a recent analysis (Chingos and West 2015), Matthew Chingos of 
the Brookings Institution and I used roughly a decade of student test 
scores from all public elementary schools in North Carolina and Florida 
to compare how schools would look if they were judged based only on 
their average test scores in a single grade--as might be the case under 
a grade-span testing regime--to how they can be judged using measures 
based on year-to-year growth in student test scores. The analysis 
yielded two important conclusions.
    First, growth measures do a far better job of identifying the 
schools that contribute the least to student learning. For example, 
North Carolina students in the bottom-15 percent of schools in terms of 
average scores learn only about a third of a year less in math than the 
statewide average, whereas the difference for students in the bottom-15 
percent of schools in terms of growth is more than half a year of 
learning.
    Second, judging schools based on test score levels has a punishing 
effect on schools serving disadvantaged students, which are often 
identified as underperforming even when their students are learning 
more than students elsewhere. For example, 56 percent of North Carolina 
schools serving predominantly low-income students would be classified 
as bottom-15 percent based on their average scores, whereas only 16 
percent would be labeled as such based on their growth. Accountability 
based on grade-span testing judges schools based on the students they 
serve, not how well they serve them.
    Using average test scores from a single year to judge school 
quality is therefore unacceptable from a fairness and equity 
perspective. One possible alternative to growth-based measures is to 
use a single year of test data, such as would be available under a 
grade-span testing regime, but adjust it based on student demographics. 
In other words, schools serving students who tend to score lower, such 
as low-income and minority students, would be compared to schools 
serving similar student bodies rather than all schools in the State. 
Using demographic adjustments is an unsatisfying alternative for at 
least two reasons, however. First, it provides less accurate 
information about schools' contribution to student learning. Second, 
making demographic adjustments implicitly sets lower expectations for 
some groups of students than for others.
    In addition to preventing the development of better and fairer 
measures of school performance, eliminating annual testing would have 
other negative consequences.
    First, it would all but eliminate school-level information about 
the learning of student subgroups, as testing only a single grade 
within each school often results in sample sizes for groups such as 
English learners or blacks that are too small to generate reliable 
information for the school as a whole (Whitehurst and Lindquist 2012).
    Second, it would sharply limit the information available to parents 
making choices about the school their child attends, whether through 
open-enrollment programs in traditional public schools or under charter 
school programs. School choice is empty without valid information on 
school performance, and how much schools contribute to student learning 
is the most important information parents need to know.
    Third, it would prevent policymakers and researchers from 
evaluating the effectiveness of new education programs when, as is 
typically the case, the appropriate research design depends on 
knowledge of students' recent achievement. By hampering our ability to 
learn about what's working, jettisoning annual testing could slow the 
overall rate of improvement in student achievement over time.
    A key reason Congress in 2002 required that States use a school 
accountability system based on student achievement levels was that many 
States were not yet testing students annually and those that did often 
lacked the capacity to track the performance of individual students 
over time. That situation has now changed, thanks to No Child Left 
Behind and related Federal investments in State data systems. It would 
be ironic and, in my view, unfortunate if, in seeking to fix No Child 
Left Behind, Congress were to recreate the conditions that led to the 
adoption of an ill-designed accountability system in the first place.
                            recommendations
    1. Maintain the law's requirement that States test all students 
annually in math and reading in grades 3-8 and at least once in high 
school using tests that are comparable statewide.
    The Federal Government has a critical role to play in ensuring that 
parents and citizens in States accepting Federal funds have good 
information about their local schools' performance, and good 
information requires the data that come from annual testing using 
assessments that are comparable statewide. States should continue to be 
required to gather this information and to report on it disaggregated 
by student subgroup as a condition of receiving title I funds.
    To ensure that this requirement does not interfere with the ability 
of States to develop new forms of assessment, including competency-
based assessments that are not tied to a specific grade level and are 
administered at varying times during the school year, Congress may wish 
to consider developing a pilot program for a small number of States 
doing innovative work in this area. However, such a pilot should be 
designed so as to provide rigorous evidence as to how the information 
it generates compares to that generated under an annual testing regime.
    2. Return to States virtually all decisions about the design of 
their accountability systems, including how schools and teachers are 
identified as under-performing and what should be done to improve their 
performance.
    The Federal Government lacks the capacity to design a single 
accountability system that is appropriate to the needs of each State, 
and has a poor track record when attempting to dictate the required 
elements of efforts to improve under-performing schools. States should 
be required to develop their own systems of school accountability and 
improvement, provided only that those systems are based in part on 
student achievement data from tests that are comparable statewide and, 
in the case of high schools, 4-year adjusted cohort graduation rates. 
Federal accountability requirements, if included, should be limited to 
schools that fail at basic functions, i.e., elementary and middle 
schools in which a significant percentage of students do not acquire 
even basic competencies in reading and math, or high schools where a 
significant percentage of students do not graduate.
    3. Require the publication of timely, accurate school-level 
spending data.
    Consistent with the Federal role in increasing transparency about 
educational performance, Congress should condition the receipt of title 
I funds by schools and districts on the timely disclosure of comparable 
measures of per-pupil spending at the level of the State, district, and 
school. This recommendation, which is included in the current 
discussion draft, would build on the school-level expenditure reporting 
mandated as a one-time requirement under the American Reinvestment and 
Recovery Act of 2009 and would improve the accuracy and facilitate the 
broader dissemination of that information. By requiring that school 
spending reports reflect actual teacher salaries rather than district-
wide salary averages (the common practice in district financial 
reporting), it could serve to highlight within-district disparities in 
spending and create pressure on school districts to address them. It 
would also permit the generation of performance measures that provide 
information on the relative return-on-investment for educational 
spending across districts and schools.
    4. Continue to require that States participate in the National 
Assessment of Educational Progress (NAEP) exams administered bi-
annually.
    With States continuing to select their own academic standards and 
tests and provided with new flexibility with respect to the design of 
their accountability systems, the NAEP will continue to serve as an 
essential audit of the performance of State educational systems, 
enabling advocacy organizations and ordinary citizens to push for 
improvement. A ``Secretary's Report Card'' to Congress and the public 
on the educational performance of the Nation and each State, as 
proposed in the current discussion draft, is an attractive new 
mechanism for heightening competition among States to lift all students 
to high levels of achievement.
                               References
Anh, T. & Vigdor, J. 2014. The Impact of No Child Left Behind's 
    Accountability Sanctions on School Performance: Regression 
    Discontinuity Evidence from North Carolina. NBER Working Paper No. 
    20511. Cambridge, MA: National Bureau of Economic Research.
Booher-Jennings, J. 2005. Below the bubble: ``Educational triage'' and 
    the Texas Accountability System. American Educational Research 
    Journal, 42(2): 231-68.
Carnoy, M. & Loeb, S. 2002. Does external accountability affect student 
    outcomes? A cross-State analysis. Educational Evaluation and Policy 
    Analysis, 24(4): 305-31.
Chetty, R., Friedman, J.N. & Rockoff, J.E., 2014. Measuring the Impacts 
    of Teachers II: Teacher Value-Added and Student Outcomes in 
    Adulthood. American Economic Review, 104(9): 2633-2679.
Chingos, M.M. & West, M.R. 2014. Why annual statewide testing is 
    critical to judging school quality. The Brown Center Chalkboard, 
    Brookings Institution.
Dee, T.S. & Jacob, B. 2011. The Impact of No Child Left Behind on 
    Student Achievement. Journal of Policy Analysis and Management, 
    30(3): 418-46.
Deming, D., 2014. Using School Choice Lotteries to Test Measures of 
    School Effectiveness. American Economic Review Papers & 
    Proceedings, 104(5): 406-11.
Deming, D., Cohodes, S., Jennings, J., & Jencks, C. 2013. School 
    Accountability, Postsecondary Attainment, and Earnings. NBER 
    Working Paper 19444. Cambridge, MA: National Bureau of Economic 
    Research.
Deming, D., Kane, T., Hastings, J. & Staiger, D. 2014. School Choice, 
    School Quality and Postsecondary Attainment. American Economic 
    Review, 104(3): 991-1014
Diamond, J., & Spillane, J. 2004. High-stakes accountability in urban 
    elementary schools: challenging or reproducing inequality? The 
    Teachers College Record, 106(6): 1145-1176.
Hanushek, E.A. & Raymond, M.E. 2005. Does school accountability lead to 
    improved student performance? Journal of Policy Analysis and 
    Management, 24(2): 297-327.
Hanushek, E.A., & Woessmann, L. 2008. The role of cognitive skills in 
    economic development. Journal of Economic Literature, 46(3): 607-
    68.
Hemelt, S.W. 2011. Performance Effects of Failure to Make Adequate 
    Yearly Progress (AYP): Evidence from a Regression Discontinuity 
    Framework. Economics of Education Review, 30(4): 702-23.
Jackson, C.K. 2012. Non-cognitive ability, test scores, and teacher 
    quality: Evidence from 9th grade teachers in North Carolina. NBER 
    Working Paper No. 18624. Cambridge, MA: National Bureau of Economic 
    Research.
Krieg, J.M. 2008. Are Students Left Behind? The Distributional Effects 
    of No Child Left Behind. Education Finance and Policy, 3(2): 250-
    81.
Ladd, H.F. & Lauen, D.L., 2010. Status versus growth: The 
    distributional effects of school accountability policies. Journal 
    of Policy Analysis and Management, 29(3): 426-50.
Lazarin, M. 2014. Testing Overload in America's Schools. Washington, 
    DC: Center for American Progress.
Neal, D. & Schanzenbach, D.W. 2010. Left Behind by Design: Proficiency 
    Counts and Test-Based Accountability. Review of Economics and 
    Statistics, 92(2): 263-83.
Nelson, H. 2013. Testing More, Teaching Less: What America's Obsession 
    with Student Testing Costs in Money and Lost Instructional Time. 
    Washington, DC: American Federation of Teachers.
Ohio Department of Education. 2015. Testing Report and Recommendations.
Reback, R., Rockoff, J. & Schwartz, H.L. 2014. Under pressure: Job 
    security, resource allocation, and productivity in schools under 
    NCLB, American Economic Journal: Economic Policy, 6(3): 207-41.
Springer, M.G. 2008. The Influence of an NCLB Accountability Plan on 
    the Distribution of Student Test Score Gains. Economics of 
    Education Review 27 (5): 556-63.
Teoh, M., Coggins, C., Guan, C., & Hiler, T. 2014. The Student and the 
    Stopwatch: How much Time do American Students Spend on Testing? 
    Washington, DC: Teach Plus.
West, M.R. 2007. Testing, learning, and teaching: The effects of test-
    based accountability on student achievement and instructional time 
    in core academic subjects. In Finn Jr., C.E. & Ravitch, D., eds. 
    Beyond the Basics: Achieving a Liberal Education for All Children. 
    Washington, DC: Thomas B. Fordham Institute.
Whitehurst, G. & Lindquist K. 2014. Test More, Not Less. Brown Center 
    Chalkboard, Brookings Institution.
Whitehurst, G., West, M.R., Chingos, M.M., & Dynarski, M. 2015. The 
    case for annual testing. The Brown Center Chalkboard, Brookings 
    Institution.
Wong, M., Cook, T.D., & Steiner, P.M. 2009. No child left behind: an 
    interim evaluation of its effects on learning using two interrupted 
    time series each with its own non-equivalent comparison series. 
    Institute for Policy Research Working Paper 09-11. Northwestern 
    University.

    The Chairman. Thank you, Dr. West, for excellent testimony 
and for coming very close to 5 minutes.
    Mr. Leather.

 STATEMENT OF PAUL LEATHER, DEPUTY COMMISSIONER, NEW HAMPSHIRE 
              DEPARTMENT OF EDUCATION, CONCORD, NH

    Mr. Leather. Chairman Alexander, Senator Murray, and 
members of the committee, thank you for inviting me to testify 
about testing and accountability in the Elementary and 
Secondary Education Act. I'm Paul Leather, Deputy Commissioner 
of Education of the New Hampshire Department of Education.
    In New Hampshire, we are working to explore what the next 
generation of assessments might look like beyond an end-of-the-
year test. We have coordinated with the Council of Chief State 
School Officers on its priorities for reauthorization. These 
priorities contain three important ingredients that are in line 
with the work we are doing.
    First, it would continue to support annual assessments of 
student performance to ensure every parent receives the 
information they need on how their child is performing, at 
least once a year. Second, it would allow States to base 
students' annual determinations on a single standardized test 
or the combined results from a coherent system of assessments. 
Third, it gives States the space to continue to innovate on 
assessment and accountability systems through a locally 
designed assessment system, so important when the periods of 
authorization can last 10 years or longer.
    We are working in collaboration with four New Hampshire 
school districts to pilot competency-based assessment systems, 
Sanborn Regional, Epping, Rochester, and Souhegan High School. 
We are intent on broadening expectations from the simple 
recitation of knowledge and facts to also applying knowledge 
and skills in authentic settings while fostering work study 
practices such as persistence and creativity. That is why we 
have emphasized Performance Assessments for Competency 
Education, or PACE, which is what we call our pilot project.
    There are several key components in our pilot: the 
development of statewide model competencies that describe the 
knowledge and skills that all students are expected to master; 
use of a personalized competency-based approach to instruction, 
learning, assessment, and awarding credit; and the use of 
common and local performance-based assessments of competencies 
throughout each school year, in tandem with grade span, Smarter 
Balanced assessments of State standards in math and English 
language arts.
    I am submitting for the record a detailed summary of all 
the steps we are taking to ensure comparability, reliability, 
and validity of these assessments as well as a brief 
description of the demographics of the participating districts.
    [The information referred to was not available during time 
of press].
    Second, we support annual determinations based on a 
coherent system of State and local multiple assessments. Rather 
than relying on just one State summative assessment to make 
this determination, we combined a series of assessment results 
throughout the year to make that annual determination.
    Over the last year, there has been a crescendo of voices 
across the country raising the concern of over-testing. We 
believe that the over-testing issue has arisen because there 
has been a disconnect between local and State assessments. I 
have sat through many local school board meetings where the 
superintendent explains to the board the State test results and 
their meaning and then separately describes their local 
assessments, which they see as more directly tied to 
instructional improvement.
    These two sets of assessments and two accountability 
systems overlap and in some cases are redundant. Our PACE pilot 
braids these two systems together. The result is less 
assessment overall with a more coherent system that still 
provides benchmark information the State and districts need 
without sacrificing much deeper, more actionable information at 
the classroom level.
    Third, because of our work advancing a competency.based 
learning model, we understand the importance of creating 
freedom to innovate. We have been working on this system for 3 
solid years, starting with intensive professional development 
to raise the assessment literacy of our teachers. We are not 
ready to take it statewide, but we hope to in the future.
    In New Hampshire, the live-free-or-die State, we believe 
that it is essential that local educational leaders help build 
the new system through their innovative efforts. It is the 
combination of State and local creative collaboration that has 
helped us build a new, stronger, more effective assessment and 
accountability system.
    We applaud the draft version's section K that allows for a 
locally designed assessment system in Option 2. However, we 
also believe that Congress should establish parameters in the 
reauthorization to ensure that innovative, locally designed 
systems do not result in a step backward for students. 
Federally, we would expect that assurances of technical quality 
and breadth and depth of assessments necessary be put in place.
    Within a State, local districts wishing to innovate should 
be able to demonstrate that they will continue to focus on 
college or career outcomes and are committed to improving the 
achievement of educationally disadvantaged students. They 
should maintain a clearly described internal accountability 
process and have the leadership necessary to effect a 
substantive change process.
    With these parameters in place, we believe that educational 
improvements and innovative designs will flourish throughout 
the life of the coming reauthorization. We in New Hampshire 
greatly appreciate the opportunity to have our innovative 
educational practices considered by the committee. We look 
forward to the future with a speedy reauthorization of a much-
improved Elementary and Secondary Education Act.
    Thank you.
    [The prepared statement of Mr. Leather follows:]
                   Prepared Statement of Paul Leather
                                summary
    Chairman Alexander, Senator Murray, and members of the committee, 
thank you for inviting me to testify about testing and accountability 
in the Elementary and Secondary Education Act.
    I am Paul Leather, Deputy Commissioner of Education of the NH 
Department of Education.
    In NH, we are working to explore what the next generation of 
assessments might look like, beyond an end-of-the-year test.
    We have coordinated with the Council of Chief State School Officers 
on its Priorities for ESEA Reauthorization. These Priorities contain 
three important ingredients that are in line with the work we are 
doing:

    <bullet> First, it would continue to support annual assessments of 
student performance to ensure every parent receives the information 
they need on how their child is performing, at least once a year.
    <bullet> Second, it would allow States to base students' annual 
determinations on a single standardized test, or the combined results 
from a coherent system of assessments.
    <bullet> Third, it gives States the space to continue to innovate 
on assessment and accountability systems, so important when the periods 
of authorization can last 10 years or longer.

    We are working in collaboration with four NH school districts to 
pilot competency-based assessment systems, Sanborn Regional in 
Kingston, Epping, Rochester, and Souhegan High School. We are intent on 
broadening expectations from the simple recitation of knowledge and 
facts, to also applying knowledge and skills in authentic settings, 
while fostering work study practices, such as persistence and 
creativity. That is why we have emphasized Performance Assessments for 
Competency Education, or ``PACE,'' which is what we call our pilot 
project.
    There are several key components in our Pilot:

    <bullet> The development of statewide model competencies that 
describe the knowledge and skills that all students are expected to 
master.
    <bullet> Use of a personalized, competency-based approach to 
instruction, learning, assessment, and awarding credit, and the
    <bullet> Use of common and local performance-based assessments of 
competencies throughout each school year, in tandem with grade span 
Smarter Balanced assessments of State standards in math and English 
Language Arts.

    I am submitting for the record a detailed summary of all the steps 
we are taking to ensure comparability, reliability and validity of 
these assessments, as well as a brief description of the demographics 
of the participating districts.
    [The information referred to was not available at press time.]
    Second, we support annual determinations based on a coherent system 
of State and local multiple assessments. Rather than relying on just 
one State summative assessment to make this determination, we combine a 
series of assessment results throughout the year to make the annual 
determination.
    Over the last year, there has been a crescendo of voices across the 
country raising the concern of over-testing. We believe that the over-
testing issue has arisen because there is a disconnect between local 
and State assessments. I have sat through many local school board 
meetings where the Superintendent explains to their Board the State 
test results, and then separately describes their local assessments, 
which they see as more directly tied to instructional improvement.
    These two sets of assessments and two accountability systems 
overlap and in some cases are redundant. Our PACE Pilot braids these 
two systems together. The result is less assessment overall with a more 
coherent system that still provides benchmark information the State and 
districts need without sacrificing much deeper, more actionable 
information at the classroom level.
    Third, because of our work advancing a competency-based learning 
model, we understand the importance of creating freedom to innovate. We 
have been working on this system for 3 solid years, starting with 
intensive professional development to raise the assessment literacy of 
our teachers. We are not ready to take it statewide, but we hope to in 
the future.
    In NH, the ``Live Free or Die'' State, we believe that it is 
essential that local educational leaders help build the new system 
through their innovative efforts. It is the combination of State and 
local creative collaboration that has helped us build a new, stronger, 
more effective assessment and accountability system.
    We also believe that Congress should establish parameters in the 
reauthorization to ensure that innovative pilots do not result in a 
step backward for students. Federally, we would expect that assurances 
of technical quality, and breadth and depth of assessments necessary be 
put in place.
    Within a State, local districts wishing to innovate should be able 
to demonstrate that they will continue to focus on college and/or 
career outcomes, and are committed to improving the achievement of 
educationally disadvantaged students. They should maintain a clearly 
described internal accountability process and have the leadership 
necessary to affect a substantive change process. With these parameters 
in place, we believe that educational improvements and innovative 
design will flourish throughout the life of the coming reauthorization 
of ESEA.
    We in NH greatly appreciate the opportunity to have our innovative 
educational practices considered by the committee. We look forward to 
the future with a speedy reauthorization of a much improved Elementary 
and Secondary Education Act.
                                 ______
                                 
    Chairman Alexander, Senator Murray, and members of the committee, 
thank you for inviting me to testify about testing and accountability 
in the Elementary and Secondary Education Act.
    I am Paul Leather, Deputy Commissioner of Education in the New 
Hampshire Department of Education.
    First, let me commend the committee for moving forward quickly on 
reauthorization. Thirteen years after it was signed into law, No Child 
Left Behind is well overdue for renewal and has not kept up with major 
changes in States and school districts. I applaud you for your quick 
action. It will help States and schools immensely.
    New Hampshire is a leading State in our thinking about the future 
of student assessment systems and accountability. We are a small State, 
but sometimes that is where the most innovation happens. I am excited 
about the work we have done and continue to do on behalf of our 
students.
    We are working with several school districts to explore what the 
next generation of assessments might look like, beyond an end-of-the-
year test. We are being methodical and careful as we roll this out in 
four pilot districts because we want to ensure that our assessment and 
accountability systems still gives accurate information to teachers, 
parents and students.
    Based on the work we have done in our State and what we have seen 
happening in States across the country, we were pleased to coordinate 
with the Council of Chief State School Officers on its Priorities for 
ESEA Reauthorization. These Priorities contained three important 
ingredients for a stable, Federal law going forward that is in line 
with the work we are doing in New Hampshire:

    <bullet> First, it would continue to support annual assessments of 
student performance to ensure every parent receives the information 
they need on how their child is performing, at least once a year.
    <bullet> Second, it would allow States to base students' annual 
determinations on a single standardized test, or the combined results 
from a coherent system of assessments throughout the year.
    <bullet> Third, it gives States the space to continue to innovate 
on assessment and accountability systems, so important in a rapidly 
developing time in educational history, when the periods of 
authorization can last 10 years or longer.

    I want to give a bit more detail on each of these aspects of the 
Priorities and how they align with our work in New Hampshire. Before I 
do that, I want to take a moment to thank the Chairman for including 
States' perspectives in the draft discussion bill. I believe that the 
draft is a good starting point for reauthorization.
    We, as State leaders in education, support annual assessments of 
students. We in New Hampshire support having an annual assessment 
requirement. Through a system with annual assessments, we promote 
equity, transparency, accountability, and high expectations for all 
students.
    In New Hampshire, we are working in collaboration with four school 
districts to pilot competency-based assessment systems, Sanborn 
Regional in Kingston, NH, Epping, Rochester, and Souhegan High School 
in Amherst, NH. In Competency Education, we are intent on broadening 
the expectations of learning from the simple recitation of knowledge 
and facts, to also apply knowledge and skills in authentic settings, 
while fostering work study practices, such as persistence and 
creativity, as a part of this work. That is why we have emphasized 
complex Performance Assessments for Competency Education, or ``PACE,'' 
which is what we call our pilot project. Through a multi-year quality 
review process and continued technical support from the State and its 
partners, these pilot districts will help refine this innovative model. 
In addition, through existing professional development opportunities 
and networked cohorts of additional districts such as our Quality 
Performance Assessment cohorts, the State will support a pipeline to 
help all districts build capacity to lead this transformation 
statewide.
    There are several key components in our Pilot model that we believe 
will achieve better results for all students:

    <bullet> Development of statewide model competencies that describe 
the knowledge and skills that all students are expected to master 
before they exit the K-12 system.
    <bullet> Use of a personalized, competency-based approach to 
instruction, learning, assessment, and awarding credit. In 2005, we 
eliminated the Carnegie Unit as the basis for awarding credit toward a 
diploma.
    <bullet> An intense focus on ensuring that each student has 
meaningful and multiple opportunities to demonstrate competency that 
promotes equity for all student groups and every student.
    <bullet> Use of performance-based assessments of competencies, in 
tandem with Smarter Balanced assessments of State standards in math and 
ELA. This way we can ensure students are gaining the same knowledge and 
skills across districts. This would also allow us to track and report 
the progress of students, schools, districts, and educators.
    <bullet> State sponsored scoring calibration and large scale 
moderation professional development and monitoring, including expert 
and peer review and back-reading of assessment tasks.
    <bullet> Explicit involvement of local educators and community 
members and other experts in designing, implementing, and scoring the 
new assessment and accountability system.
    <bullet> Strong commitment both at the local and State level for 
technical quality, policy and practical guidance, and professional 
development.

    This is a different way of doing things, and presents many 
challenges and opportunities. In fact, it is hard work. It is not an 
effort that should be taken lightly. We in New Hampshire have put in 
the years of effort and design work necessary to develop the system and 
believe it is a strong path forward for many of our students, teachers 
and school districts. I am submitting for the record a detailed summary 
of all the steps taken and the work we will do to ensure comparability, 
reliability and validity of these assessments, as well as a brief 
description of the demographics of the participating districts.
    However, just because we are piloting this system in several 
districts does not mean we as a State want to move away from our 
current annual tests. We believe it is critical to measure students at 
least once a year on their academic performance. In fact, through the 
competency-based system, we measure students more frequently throughout 
the year--in ways that are much more embedded in classroom work. Over 
the last year, there has been a crescendo of voices across the country 
raising the concern of over-testing. Let's be clear, 90 percent or more 
of the ``testing'' that occurs in schools is under the control of the 
teacher and the school district. Weekly quizzes, unit assessments, mid-
terms, final exams, lab reports, etc. are all ``tests'' used by 
teachers to inform parents, grade student work, and most importantly, 
when done right, used to improve instruction and learning for students. 
We believe that the over-testing issue has arisen because there has 
been a disconnect between these local assessments used to improve 
learning and State and district ``external'' tests used for monitoring 
and accountability. I have sat through many local school board meetings 
where the Superintendent explains to their Board the meaning of the 
State test results, and then separately describes their own local 
assessments, more directly tied to curricular and instructional 
improvement. There are two sets of assessments and two accountability 
systems going on that overlap and in some cases are redundant. Our PACE 
Pilot has been designed to braid these two assessment and 
accountability systems together. The result is less assessment overall 
as redundancies between local and State assessments are eliminated. 
However, in this more coherent system we still provide benchmark 
information the State and districts need without sacrificing much 
deeper, more actionable information at the classroom level.
    Second, we would like to see a statement in the law that supports 
annual determinations based on a coherent system of State and local 
multiple assessments. At the end of every year, we need to communicate 
with parents and students about how students and schools are performing 
in a clear, transparent way. Our PACE model does that. Rather than 
relying on just one summative assessment to make this determination, we 
combine a series of assessment results throughout the year to make that 
annual determination. This is flexibility States have not had before. 
We would welcome this flexibility, which would create opportunities for 
other States in the future.
    Third, because of our work advancing a competency-based learning 
model that is more personalized and student-centered, we understand the 
importance of creating freedom to innovate, where some districts and 
schools who have demonstrated their prior work and readiness are given 
the opportunity to help all of us advance the overall system. In No 
Child Left Behind there is a provision for a ``local assessment 
option'' that allows States to offer a local assessment system in 
select school districts in place of the State assessment system. 
However, a close reading of the Standard and Assessments Regulations 
and the Department's Peer Review Guidance makes clear that what should 
have been simply parameters turned into ``road blocks.'' The current 
local assessment option requirements are as or more onerous than the 
requirements for a statewide assessment. In the 13 years since the law 
has been enacted, we can count on one hand with fingers left over the 
number of States that have successfully taken advantage of this 
``option.'' My point here is that moving forward we should be clear 
about the differences between parameters and road blocks. We were 
highly encouraged to see pilot programs outlined in CCSSO's Priorities 
and in the Chairman's draft discussion bill. We welcome this 
flexibility to have pilots actually addressed in the law to clarify 
that innovation and research in improved models is a necessary part of 
our system.
    The reason New Hampshire has become a leader in innovative 
assessment and accountability models today is because we have been 
working to bring this idea to fruition for 3 solid years, starting with 
intensive professional development to raise the assessment literacy of 
our teachers. We are not ready to take it statewide yet, but we hope to 
in the future, if it demonstrates improved performance over the next 
couple years. I will say that any model--in order to truly be 
successful--must be led by and supported by the State. However, in New 
Hampshire, the ``Live Free or Die'' State, we also believe that it is 
essential that local educational leaders help build the new system 
through their innovative efforts. It is this combination of State and 
local creative collaboration that has helped us build a new, stronger, 
more effective assessment and accountability system.
    For these reasons, we believe that Congress should establish 
parameters in the reauthorization to ensure that innovative pilots do 
not result in a step backward for students. First, at the Federal 
level, we would expect that assurances of technical quality, and 
breadth and depth of assessments necessary to adequately assure that 
the requirements of a fully realized State system will be put in place. 
These systems should promote equity, transparency, disaggregation, and 
comparability for the purposes of making annual determinations at the 
school level. There should also be an expectation of readiness to 
implement a plan at the State level that ensures innovation with 
fidelity with the necessary supports for local districts and schools 
and an evaluation of lessons learned. These parameters are necessary to 
protect the Federal interest in effective uses of limited Federal 
funds.
    Second, local districts wishing to pursue innovative assessment 
systems should be able to demonstrate to States that they will continue 
to focus on college and/or career outcomes, and are committed to 
improving the achievement of educationally disadvantaged students. They 
should maintain a clearly described internal accountability process 
supported by the local board of education, the commitment of resources 
to ensure the plan's success, and the district and school leadership 
necessary to lead a substantive change process. They should demonstrate 
evidence of readiness to innovate, and the educational capacity to 
design, implement, support, and sustain the new system, if proven 
successful in advancing learning for students. With these parameters in 
place, we believe that educational improvements and innovative design 
will flourish throughout the life of the coming reauthorization of 
ESEA.
    We in New Hampshire greatly appreciate the opportunity to have our 
views, and our innovative educational practices, considered by the 
committee in the ESEA reauthorization process. We look forward to the 
future with a speedy reauthorization of a much improved Elementary and 
Secondary Education Act.

    The Chairman. Thank you, Mr. Leather.
    Mr. Boasberg, welcome.

          STATEMENT OF TOM BOASBERG, SUPERINTENDENT, 
               DENVER PUBLIC SCHOOLS, DENVER, CO

    Mr. Boasberg. Thank you very much for this opportunity to 
be with you here this morning. My name is Tom Boasberg. I'm 
superintendent of the fastest growing school district of any 
city in this country, the wonderfully diverse Denver Public 
Schools.
    We have seen remarkable progress in the last decade under 
reforms started by my predecessor, Senator Bennet, at a time 
when he had a job with truly complex and challenging public 
policy issues to grapple with. In that time, we have increased 
our number of graduates by over 1,000 students a year. We've 
increased our on-time graduation rate for our African-American 
and Latino students by over 60 percent.
    We've decreased our dropout rates by over 60 percent, and 
we've grown from a school district with our students having the 
lowest rate of year-on-year of student progress of any major 
district in the State to being now the district for 3 years in 
a row where our students on a student-by-student basis are 
demonstrating the highest rate of yearly academic progress.
    As a result, our enrollment is booming as our families come 
back to and stay in our schools. In the last 7 years alone, our 
enrollment has increased by a remarkable 25 percent. 
Nevertheless, we continue to have significant achievement gaps 
between our students based on income and race and ethnicity, 
and we are determined to eliminate those achievement gaps.
    One key to our progress is our refusal to be imprisoned by 
the ideologically polarizing debates and false conflicts that 
we often see around us. We need to focus on what works for our 
kids. We can't be stuck in an either-or world. The needs of our 
kids, over 70 percent of whom qualify for free and reduced 
lunch, are simply too great.
    What does that world look like? It's a world where we can 
dramatically improve our district-run schools, unleash the 
creative energy of our teachers to open innovative new schools, 
and at the same time welcome high performing charter schools. 
It's a world where both district-run and charter schools work 
together as public schools to drive greater equity in our 
community.
    It's a world where we do measure the progress of our kids 
in literacy and math every year to see whether they are on 
track in these key areas to graduate from high school prepared 
for college and career. It's also a world where we care deeply 
about nurturing and developing the whole child, expanding 
opportunities for arts and music, deepening interest in history 
and science, and nurturing our kids' physical, social, and 
emotional growth.
    There does not need to be a conflict here. In fact, to the 
contrary, our experience has shown us that schools that most 
emphasize a broad curriculum and promote creativity and 
critical thinking are the ones that actually do best in helping 
develop their students' literacy and numeracy abilities.
    For example, when we went to Denver voters 2 years ago for 
a tax increase, the first thing we asked for was funding to 
increase arts, music, and sports. As a parent of three kids, 
Noah, Ella, and Calvin, and as superintendent for 90,000, do I 
care about seeing the progress my kids make every year in 
literacy and math? Yes, of course, I do. Of course, at the same 
time, I care deeply about their opportunities in creative arts, 
in social sciences, in sports, and their personal growth as 
members of our community.
    I do believe that annual measures of progress for our kids 
in literacy and math are vital. At the same time, as I have 
advocated in our State, we need fewer and shorter tests. For 
example, I do not see why we cannot have good measures of 
student progress that are limited to no more than 3 or 4 hours 
combined time for literacy and math per year or less than one-
half of 1 percent of students' total annual classroom time. We 
as a State need to eliminate the other State tests that have 
been added in recent years that are unrelated to the law before 
this committee today.
    The new generation of assessments do a good job at helping 
us understand how our children are progressing in literacy and 
math. This transparency of how kids are doing is vital, vital 
for students, for parents, and for teachers. Likewise, having 
annual data about students' growth is vital to see what is 
working best in our schools.
    Transparency and the holding of clear high standards are 
important for all kids, but they are particularly important for 
our kids in poverty and our kids of color. Historically, too 
many of our most vulnerable students have not been held to the 
high standards that will enable them to compete for and succeed 
in college and the knowledge-intensive careers in today's 
economy, and it is absolutely essential that we do so.
    That is why accountability is also vital here, not 
accountability in a blaming or punishment sense, but 
accountability to recognize and see what is not working, and 
then to make the necessary changes in the extraordinarily high 
stakes work we are all committed to, to help our children and 
families break out of poverty, to help all kids realize the 
potential they are born with.
    As we celebrate this week the birthday of Reverend Martin 
Luther King, Jr., I hope that we can help all of our kids live 
in the ``both-and'' world that they deserve.
    [The prepared statement of Mr. Boasberg follows:]
                   Prepared Statement of Tom Boasberg
    Chairman Alexander, Ranking Member Murray, members of the committee 
thank you for inviting me to testify today. My name is Tom Boasberg, 
and I am superintendent of the fastest growing school district in any 
city in the country, the wonderfully diverse Denver Public Schools 
(DPS).
    Let me tell you a little about my district. Today, we have a little 
over 90,000 students, with over 70 percent qualifying for free or 
reduced price lunch. Two fifths of our students are English language 
learners, and over three quarters are students of color. Our children 
come from a diverse set of circumstances, but they all have one thing 
in common: they want a great education and the chance it will give them 
to succeed in life.
    In DPS, we have seen a remarkable progress in the last decade under 
the reforms and improvement efforts begun by my predecessor, Michael 
Bennet. In that time, we have increased our number of high school 
graduates by a thousand, increased the on-time graduation rate for 
African-American and Latino students by 60 percent, decreased our 
dropout rate by over 60 percent, and have gone from the district with 
the lowest rate of year-on-year academic growth among major districts 
in the State to, for the last 3 years, the highest. The gaps between 
our middle class students and students in poverty and between our white 
students and students of color, however, have moved very little, and we 
are acutely aware of how much more progress we need to make for our 
kids.
    As a result of the improvements in our schools, our enrollment is 
booming as families come back to and stay in our schools. In the last 7 
years alone, our enrollment has grown by a remarkable 25 percent, far 
higher than the growth in school-age population in the city.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


-<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    One key to our progress is our refusal to be imprisoned by the 
ideologically polarizing debates and false conflicts that we often see 
around us. We focus on what works for kids.
    We cannot be stuck in an either/or world. The needs of the children 
we serve are too great and the stakes for their success too high.
    What does that world look like? It's a world where we can 
dramatically improve our district-run schools, unleash the creative 
energies of our teachers to open innovative new schools, and at the 
same time welcome high-performing charters. It's a world where both 
district-run and charter schools work together to drive greater equity 
in our community.
    It's a world where we do measure the progress of our kids in 
literacy and math to see whether they are on track in these key areas 
to graduate from high school prepared for college and career.It's a 
world where we care deeply about nurturing and developing the whole 
child--expanding opportunities for arts and music, deepening interest 
in history and science, and nurturing our kids' physical, social, and 
emotional growth.
    For example, 2 years ago, when we went to Denver voters for a local 
tax increase, the first thing we asked for was funding dedicated to 
expanding arts, music and sports in our schools. We are very proud that 
Denver has the largest parent-teacher home-visit program in the country 
to strengthen vital ties between home and school.
    There does not need to be a conflict here. In fact, to the 
contrary, our experience has shown us the schools that most emphasize a 
broad curriculum and promote creativity are the ones that actually do 
best in helping develop and grow their students' literacy and numeracy 
abilities.
    As both a parent of three kids and superintendent for 90,000, do I 
care about seeing the progress my kids make every year in literacy and 
math? Yes, of course, I do. I care that their progress is measured 
against a meaningful benchmark aligned to where they need to be to be 
on track for success in college and career. This ensures that they and 
all children in our State are held to the same high standards. Our 
future economy and civic leadership in Colorado depend on our 
graduating students who are ready to work in our knowledge-based 
economy and lead our community. This makes having high expectations for 
their achievement and measuring their progress toward that achievement 
all the more important.
    At the same time, both with my own three kids and all kids in DPS, 
I care deeply about how they do in the classroom on the projects and 
work assigned by their teachers. I care deeply as well about their 
opportunities in the creative arts, in social sciences, in sports, and 
their personal growth as members of our community. It does not have to 
be either/or.
    While I do I believe that annual measures of progress for our kids 
in literacy and math are important, I have also advocated in our State 
that we need fewer and shorter tests. For example, I do not see why we 
cannot have good measures of student progress that are limited to no 
more than three to 4 hours combined time for literacy and math per 
year--or less than one-half of 1 percent of students' total annual 
classroom time. We as a State also need to eliminate the other State 
tests that have been added in recent years that are unrelated to the 
law before this committee today.
    The new generation of assessments does a good job at helping us 
understand how our children are progressing in literacy and math. They 
measure high-order thinking skills, and ask students to solve complex 
problems and demonstrate the knowledge and skills they will need for 
college and careers.
    It is important that kids and their parents know how they are doing 
in mastering these critical skills--just as teachers need the 
information to tailor and individualize their instruction for their 
students. This transparency, in short is vital, and it is vital that 
all involved get this information at least annually.
    Without annual data, we cannot effectively measure the growth, the 
progress our kids are making. Seeing how much kids are growing is 
equally important for the high-achieving student who wants to keep 
moving forward as it is for the low achieving student who needs to see 
the progress he or she is making to catch up.
    Likewise, having annual data about students' growth is necessary to 
see what is working best in our schools--to understand the 
effectiveness of academic initiatives and to share the best practices 
we are seeing in our classrooms and schools where kids are making the 
most progress.
    Transparency and the sharing of best practices are important for 
all kids, but they are particularly important for our kids in poverty 
and kids of color. Historically, too many of our most vulnerable 
students have not been held to the high standards that will enable them 
to compete for, and succeed in, college and the knowledge-intensive 
careers in today's economy.
    That is why accountability is also vital here. Not accountability 
in a blaming or punishment sense but accountability to see what is not 
working for kids and to make the necessary changes in the 
extraordinarily high-stakes work we are all committed to--to help 
children and families break out of poverty, to help all kids realize 
the potential they are born with.
    As we celebrate this week the birthday of Rev. Martin Luther King, 
Jr., I hope that we can help all our kids live in the ``both-and'' 
world they deserve.
    Thank you for your time and I look forward to answering your 
questions.

    The Chairman. Thank you.
    Mr. Henderson.

 STATEMENT OF WADE J. HENDERSON, PRESIDENT AND CEO, LEADERSHIP 
    CONFERENCE ON CIVIL AND HUMAN RIGHTS AND THE LEADERSHIP 
           CONFERENCE EDUCATION FUND, WASHINGTON, DC

    Mr. Henderson. Good morning, Chairman Alexander, Senator 
Murray, and members of the committee. As you've noted, I'm Wade 
Henderson, president and CEO of the Leadership Conference on 
Civil and Human Rights, the Nation's leading civil and human 
rights coalition with over 200 national organizations working 
to build an America as good as its ideals.
    I'm also the Joseph L. Rauh, Jr., Professor of Public 
Interest Law at the David A. Clarke School of Law, University 
of the District of Columbia. In addition, I serve as the vice 
chair of the board of trustees of the Educational Testing 
Service, the Nation's premier testing assessment nonprofit 
corporation.
    Thank you for inviting me here today to testify on the 
reauthorization of the Elementary and Secondary Education Act. 
The civil and human rights community has long seen education 
and voter participation as the twin pillars of our democracy. 
Together they help to make the promise of quality and 
opportunity for all a reality in American life.
    We welcome the opportunity that this important and timely 
hearing provides to look at ways that we can improve ESEA and 
ensure that each and every child, regardless of race, national 
origin, gender, sexual orientation, disability, or zip code, 
receives the best education that this great nation can provide.
    Senator Murray, thank you for acknowledging the parents who 
have come in from around the country--States like Washington, 
Colorado, Tennessee, Minnesota, Delaware--to have their voices 
amplify the concerns that we reflect in our testimony today.
    Now, significantly, this year, we mark the 50th anniversary 
of ESEA, which was a pillar of President Lyndon Johnson's war 
on poverty. Congress recognized then and has for the past five 
decades that children living and going to school in poverty, 
and especially those living in concentrated poverty, need more, 
not fewer resources than their more advantaged peers.
    Today, we speak with one voice on behalf of all of our 
children, girls and boys, students of color, students not yet 
proficient in English, those who have disabilities or are 
homeless or migrant, those in the criminal juvenile justice 
system, and those living in foster care, living on the streets, 
or living in the shadows. We speak with deep concern and 
growing alarm about increasing child poverty, the persistent 
low achievement of students with disabilities, and the growing 
income inequality in our Nation, particularly as they are 
reflected and reinforced by grotesque disparities in resources 
available to high and low poverty schools.
    Education is even more important today than ever before. A 
high school diploma is not just enough to access the jobs of 
today and tomorrow. Students now need postsecondary education 
or further training after high school. We cannot ignore the 
fact that State and local school financing systems have been 
unfair and inadequate.
    We know that money spent wisely can and will make an 
enormous difference in the ability of high poverty schools to 
prepare our students for college and career. We also know that 
money spent on high-quality preschool is one of the best 
investments we can make. That's why a group of more than 20 
national organizations created a set of principles which call 
on Congress to maintain and improve strong accountability 
requirements of ESEA.
    Our approach to accountability is straightforward and 
sensible. First, ESEA must continue to require high-quality 
annual statewide assessments for all students in grades three 
through eight and at least once in high school that are aligned 
with and measure each student's progress toward meeting the 
State's college- and career-ready standards.
    Next, statewide accountability systems must expect and 
support all students to make enough progress every year so that 
they are on track to graduate from high school, ready for 
college and career. States must set annual district and school 
targets for grade level achievements, high school graduation, 
and closing achievement gaps for all students, including 
accelerated progress for each major racial and ethnic group, 
students with disabilities, English language learners, and 
students from low-income families, and evaluate schools and 
districts on how well they meet these targets.
    Third, States and school districts need to improve data 
collection and reporting to the public on student achievement 
and gap closing, course completion, graduation rates, per pupil 
expenditures, opportunity measures like pre-K and technology, 
and school climate indicators including decreases in the use of 
exclusionary discipline practices, use of police in schools, 
and student referrals to law enforcement. This data must be 
tabulated by all of the categories I've listed previously, but 
notably disability, gender, race, and national origin.
    I want to conclude by expressing very serious concerns, Mr. 
Chairman, with your proposal as it is currently written. We 
have great respect for you. The proposal, as we understand it 
today, is detailed in our written testimony, and it needs to 
be, we hope, addressed.
    Now, the bill as a general matter bends over backward to 
accommodate the interests of State and local government 
entities that have both failed our children and avoided any 
real accountability for their failures. The Federal Government 
must continue to hold States and school districts accountable 
for the degree to which they are improving education for all 
students, especially students who have been underserved by the 
system for far too long.
    Congress must not pass an ESEA----
    The Chairman. Mr. Henderson, you're well over your time.
    Mr. Henderson. I'm over, sir. I will bring it to a 
conclusion. Thank you for the opportunity to be here, and I 
look forward to your questions.
    [The prepared statement of Mr. Henderson follows:]
                Prepared Statement of Wade J. Henderson
                                summary
    This year we mark the 50th anniversary of ESEA, which was a pillar 
of President Lyndon Johnson's War on Poverty. Congress recognized 
then--and has for the past five decades--that children living and going 
to school in poverty, and especially those living in concentrated 
poverty need more, not fewer, resources than their more advantaged 
peers.
    Today, we speak with one voice on behalf of all our children.
    Education is even more important today than ever before. A high 
school diploma is just not enough to access the jobs of today and 
tomorrow. Students now need postsecondary education or further training 
after high school.
    We cannot ignore the fact that State and local school financing 
systems have been unfair and inadequate. We know that money spent 
wisely can and will make an enormous difference in the ability of high-
poverty schools to prepare our students for college and career. We also 
know that money spent on high-quality preschool is one of the best 
investments we can make.
    Outline of the civil rights principles:

    <bullet> High-quality annual, statewide assessments;
    <bullet> Statewide accountability systems; and
    <bullet> Improved data collection and reporting, disaggregated.

    Expressing serious concerns with the Chairman's ESEA bill as it is 
currently written.
    There is room for improvement in the law, but our moral imperative 
and global responsibility is to provide the best possible education 
that we can for each and every child.
                                 ______
                                 
    Good morning, Chairman Alexander, Senator Murray and members of the 
committee, I am Wade Henderson, president and CEO of The Leadership 
Conference on Civil and Human Rights, a coalition of more than 200 
national organizations charged with the promotion and protection of the 
rights of all persons in the United States. I am also the Joseph L. 
Rauh, Jr. Professor of Public Interest Law at the David A. Clarke 
School of Law, University of the District of Columbia. In addition, I 
am a member of the board of the Educational Testing Service and 
currently serve as vice chair.
    Thank you for inviting me here today to testify on the 
reauthorization of the Elementary and Secondary Education Act (ESEA). 
We truly hope that the final update of ESEA is a bipartisan bill. The 
leadership of this committee has tremendous professional experience as 
educators and education leaders. We look forward to working with you 
and your staffs as this process moves forward.
    The civil and human rights community has always seen education and 
voter participation as the twin pillars of our democracy. Together, 
they help to make the promise of equality and opportunity for all a 
reality in American life. We welcome the opportunity that this 
important and timely hearing provides to look at the ways that we can 
improve ESEA and ensure that each and every child, regardless of race, 
national origin, gender, sexual orientation, disability or ZIP code, 
receives the best education that this great Nation can provide.
    Sixty-one years ago in Brown v. Board of Education, a unanimous 
Supreme Court underscored the importance at that time of equal 
educational opportunity:

          Today, education is perhaps the most important function of 
        State and local governments. Compulsory school attendance laws 
        and the great expenditures for education both demonstrate our 
        recognition of the importance of education to our democratic 
        society. It is required in the performance of our most basic 
        public responsibilities, even service in the armed forces. It 
        is the very foundation of good citizenship. Today it is a 
        principal instrument in awakening the child to cultural values, 
        in preparing him for later professional training, and in 
        helping him to adjust normally to his environment. In these 
        days, it is doubtful that any child may reasonably be expected 
        to succeed in life if he is denied the opportunity of an 
        education. Such an opportunity, where the State has undertaken 
        to provide it, is a right which must be made available to all 
        on equal terms.\1\
---------------------------------------------------------------------------
    \1\ Brown v. Board of Education of Topeka, 347 U.S. 483 (1954).

    Since Brown, all three branches of our national government have 
acted affirmatively to promote equal educational opportunity and to 
eradicate racial and other forms of discrimination in schools.\2\ 
Significantly, the ESEA was enacted 50 years ago in 1965 and was a 
pillar of President Lyndon Johnson's War on Poverty. Congress 
recognized then--and has for the past five decades--that children 
living and going to school in poverty, and especially those living in 
concentrated poverty need more, not fewer, resources than their more 
advantaged peers.
---------------------------------------------------------------------------
    \2\ See, e.g., Bob Jones University v. United States, 461 U.S. 574 
(1983) (``Over the past quarter of a century, every pronouncement of 
this Court and myriad Acts of Congress and Executive Orders attest a 
firm national policy to prohibit racial segregation and discrimination 
in public education.'')
---------------------------------------------------------------------------
    Education is even more important today, and our children need more 
of it to succeed in life. As President Obama, Secretary Duncan and most 
of us recognize, a high school diploma is just not enough to access the 
jobs of today and tomorrow. Students now need postsecondary education 
or further training after high school. A reauthorized ESEA must be 
based on a set of core principles for high standards, equal learning 
opportunities, honest measurement and effective accountability. These 
principles are summarized in the attached statement from more than 20 
national organizations speaking for millions of children and parents/
guardians across the country who want nothing but a fair chance to 
achieve the American dream. Today, we speak with one voice on behalf of 
all our children--girls and boys, students of color, students not yet 
proficient in English, those who have disabilities or are homeless or 
migrant, those in the criminal or juvenile justice systems, and those 
living in foster care, living on the streets, or living in the shadows.
    We speak with deep concern about the growing income inequality in 
our Nation, particularly as it is reflected and reinforced by grotesque 
disparities in resources available to high- and low-poverty schools. We 
cannot ignore the fact that State and local school financing systems 
have been unfair and inadequate. As the Equity and Excellence 
Commission Report to the Secretary of Education described, gaps in 
opportunities and outcomes start long before children enter the 
schoolhouse door, ``But instead of getting deadly serious about 
remedying that fact--by making sure such students are in high-quality 
early childhood and pre-K programs, attend schools staffed with 
teachers and leaders who have the skills and knowledge to help each 
student reach high standards, get after-school counseling or tutorial 
assistance or the eyeglasses they need to see the smart board--the 
current American system exacerbates the problem by giving these 
children less of everything that makes a difference in education.'' \3\
---------------------------------------------------------------------------
    \3\ Commission on Equity and Excellence, U.S. Department of 
Education, For Each and Every Child--A Strategy for Education Equity 
and Excellence, Washington, DC, 2013, available at http://www2.ed.gov/
about/bdscomm/list/eec/equity-excellence-commission-report.pdf.
---------------------------------------------------------------------------
    We speak with growing alarm about the persistent low achievement of 
students with disabilities--across all student subgroups and 
demographic categories--who will face alarming rates of poverty, 
unemployment, underemployment, incarceration, and institutionalization 
if we do not honor our commitments under the IDEA, the ADA, Section 
504, and ESEA to provide educational opportunities and services that 
allow them to reach their full potential.
    Finally, Mr. Chairman, we must speak truth to the fact that even as 
the Nation continues to recover from the recession, child poverty has 
persisted and is actually increasing. As the Southern Education 
Foundation recently reported, for the first time, the majority of 
students in the Nation's public schools are growing up in low-income 
families.\4\ More of our students are students of color, more of them 
are just beginning to learn English, and many enter school with a 
significant word deficit.
---------------------------------------------------------------------------
    \4\ http://www.southerneducation.org/Our-Strategies/Research-and-
Publications/New-Majority-Diverse-Majority-Report-Series/A-New-
Majority-2015-Update-Low-Income-Students-Now.
---------------------------------------------------------------------------
    These demographic realities have vast implications for this 
committee's challenge to rewrite ESEA. Title I used to be seen as a way 
to add time and services for a minority of students, those from poor 
families needing remedial help with basic skills. With the exception of 
dead-end, low-paying jobs, our modern labor market is increasingly 
inhospitable to those who come with only basic literacy and math 
skills. Today's good jobs demand levels of hard and soft skills, 
knowledge, as well as formal education and training that go far beyond 
a standard high school diploma. Increasingly, they require competence 
in the STEM subjects, science, technology, engineering and 
mathematics--subjects that are not even taught in many schools, and are 
in woefully short supply in schools with higher concentrations of 
poverty.
    These new data paint a stark portrait of the ``new normal'' in 
public schools, on which we base our principles and recommendations. As 
Steve Suitts, an author of the Southern Education Foundation's student 
population studies wrote:

          No longer can we consider the problems and needs of low 
        income students simply a matter of fairness . . . Their success 
        or failure in the public schools will determine the entire body 
        of human capital and educational potential that the Nation will 
        possess in the future. Without improving the educational 
        support that the Nation provides its low income students--
        students with the largest needs and usually with the least 
        support--the trends of the last decade will be prologue for a 
        nation not at risk, but a nation in decline . . .
                   college and career ready standards
    What is needed at the national level, first and foremost, is a 
relentless focus on preparing all students for college and career. This 
means requiring States participating in title I to set and maintain 
academic standards for all students that are aligned with what they 
will need to succeed in postsecondary education and careers that will 
pay a family supporting wage.
    The standards, whether the Common Core or other comparable 
standards, must be implemented as well and as successfully in both 
high-poverty and lower-poverty schools. It is no longer sustainable for 
our Nation, or any State, to maintain dual systems of public schools--
one for the privileged and another, vastly inferior, for communities of 
color and the poor. States--which under our Federal system have primary 
responsibility under their own constitutions for educating their 
children--must be required to meet these obligations by ensuring that 
all students, regardless of ZIP code, English proficiency levels, race, 
gender or disability, have an equal opportunity to meet the standards. 
This must include providing early childhood education, particularly for 
low-income children and those with disabilities. States must also 
provide updated technology, effective and qualified teachers, 
curriculum aligned with the standards, and supports and services needed 
by English learners, pregnant and parenting students, and students with 
disabilities. Finally, States should ensure that all schools maintain a 
safe and healthy school climate with inclusionary discipline best 
practices.
    It is not an inappropriate intrusion on State sovereignty for 
Congress to assert these urgent national interests in equity and 
excellence and make these demands on States as a condition for 
receiving Federal education dollars.
                         funding and targeting
    The Federal Government must also increase and continue to target 
resources to disadvantaged and vulnerable populations, including those 
living in concentrated poverty, those learning English, Native 
students, homeless students, and those in foster care or the juvenile 
or criminal justice systems. The Federal Government should fully fund 
both title I and IDEA, and it should also provide incentives for States 
to address inequities in their systems of school finance. It should 
also retain, improve, and fund School Improvement Grants (SIG). For 
example, these grants' allowable uses, where an analysis of school 
needs support these uses, should include creating magnet schools, 
inter-district transfers, community schools, and expanded learning time 
models. We acknowledge the prerogative of local authorities to open and 
close facilities and to determine student assignments, provided they do 
not run afoul of Federal non-discrimination obligations. School 
closings, however, in and of themselves do not improve students' 
instruction and learning. As such, they should not be permissible under 
SIG, unless in connection with a plan to reassign students to schools 
that will provide demonstrably better instruction and learning.
                              assessments
    Federal investments are unlikely to result in meaningful gains 
unless they are accompanied by unequivocal demands for higher 
achievement, higher graduation rates, and substantial closing of 
achievement gaps. Similarly, States must ensure that their school 
districts and schools are able to, and in fact are, meeting academic 
and high school graduation standards. This is why it is so important 
that ESEA continue to include strong requirements for assessments and 
accountability. In other words, public agencies, officials and 
employees are all accountable for our children's and Nation's future. 
Accountability is a core civil rights principle, and it is 
indispensable to advancing our collective interest in providing equal 
opportunity, reducing poverty, and maintaining our country's 
competitiveness and national security.
    The Leadership Conference and more than 20 national organizations 
have called on Congress to maintain and improve strong accountability 
requirements in ESEA. Our approach to accountability is straightforward 
and sensible.
    First, high-quality, statewide annual assessments are needed. It is 
imperative that parents, teachers, school leaders, public officials, 
and the public have objective and unbiased information on how their 
students are performing. ESEA must continue to require annual, 
statewide assessments for all students (in grades 3-8 and at least once 
in high school) that are aligned with, and measure each student's 
progress toward meeting, the State's college- and career-ready 
standards.
    Local assessments should only be used to supplement the State 
assessments, but not for ESEA accountability purposes. They cannot be a 
credible substitute for statewide assessments, because there is no way 
to ensure comparability of local assessments across a State. Civil 
rights organizations are also concerned about incentives for lowering 
standards on local assessments and the added assessment burden on 
classroom time.
    To ensure fairness, the assessments must meet prevailing, widely 
accepted professional psychometric standards and be valid and reliable 
measures of student progress. They must meet other requirements now in 
title I, including the requirement to disaggregate and report results.
    States must continue to provide appropriate accommodations for 
English learners, who should be exempt only for their first year 
attending school in the United States. ELLs should also be assessed in 
the language and form most likely to yield accurate information on 
their knowledge and skills.
    In addition, States must provide appropriate accommodations for 
students with disabilities. States also must limit alternate 
assessments based on alternate achievement standards only to students 
with the most significant cognitive disabilities, up to 1 percent of 
all students; terminate assessments based on modified achievement 
standards; and prohibit the use of Individualized Education Programs 
(IEPs) to measure academic achievement under ESEA.
    We believe that 90 percent of students with disabilities should be 
taking the general assessment with or without accommodations as 
appropriate. This is supported by state-reported data showing that most 
students receiving special education services have reading or math 
disorders, speech impairments, physical impairments, attention issues, 
or emotional challenges; only a small number have the type of 
intellectual disabilities that significantly impact their cognition and 
ability to learn at pace with their peers. When students take the 
general assessment, are taught to State standards, and provided the 
supports and services they are entitled to under the law and need to 
graduate with a regular diploma, a world of economic opportunity opens 
for them.
    You will certainly hear from those who will argue that it is 
somehow acceptable to set much lower expectations for students with 
disabilities, perhaps in some cases because schools have not been 
provided with the staff support necessary to provide the proper 
services and accommodations. It is not acceptable. In fact, it is both 
unlawful and unconscionable. There is absolutely no reason to allow 
schools unchecked discretion to assign students with disabilities to 
the alternate assessment on alternate achievement standards because in 
most States, this automatically takes students out of the general 
curriculum and off track for a regular diploma. There is also evidence 
that an alternate assessment may lead to increased segregation for 
students with disabilities.
    Finally, we all recognize that many high-poverty schools do not 
have the technology in place to properly administer computer-based 
assessments. We believe that, during a transition period, alternatives 
to computer-based assessment should be provided to students in schools 
that have not yet provided them with sufficient access to, and 
experience with, the required technology.
                             accountability
    Next, effective statewide accountability systems are needed. State 
accountability systems must expect and support all students to make 
enough progress every year so that they are on track to graduate from 
high school ready for college and career. States must set annual 
district and school targets for grade-level achievement, high school 
graduation, and closing achievement gaps for all students, including 
accelerated progress for subgroups (each major racial and ethnic group, 
students with disabilities, English language learners, and students 
from low-income families), and evaluate schools and districts on how 
well they meet the targets.
    States and school districts must diagnose the causes of low 
achievement or graduation rates and identify barriers to improvement. 
They must then employ effective remedies to eliminate these causes and 
barriers and improve instruction, learning, and school climate 
(including, e.g., decreases in bullying and harassment, use of 
exclusionary discipline practices, use of police in schools, and 
student referrals to law enforcement). Remedies for students enrolled 
should be implemented in any school where the school as a whole, or any 
subgroup of students, have not met the annual achievement and 
graduation targets or where achievement gaps persist. The remedies must 
be effective both in improving subgroup achievement and high school 
graduation rates as well as in closing achievement gaps.
    Third, States and school districts need to improve data collection 
and reporting. Public disclosure, robust data collection and reporting 
systems, and transparency are all important civil rights values. States 
and LEAs must improve data collection and reporting to parents and the 
public on student achievement and gap-closing, course completion, 
graduation rates, school climate indicators (including decreases in use 
of exclusionary discipline practices, use of police in schools, and 
student referrals to law enforcement), opportunity measures (including 
pre-K and technology), and per-pupil expenditures. Data must be 
disaggregated by categories in Sec. 1111(b)(3)(C)(xiii) of Title I, and 
cross-tabulated by gender. Data should also be further disaggregated by 
English proficiency levels as well as by Asian national origin 
subgroups.
    Members of Congress in both houses and both parties are being 
bombarded with messages from those who do not share our unwavering 
insistence that this body--and every legislature and school board 
across the country--do every last thing possible to level the playing 
field and provide the opportunities to learn and excel that all 
students, all families, and all communities deserve--and that our 
Nation cannot thrive without.
    You will hear countless naysayers claim that the assessment and 
accountability porvisions of ESEA, enacted first in 1994 and later 
strengthened with passage of No Child Left Behind in 2001, have been 
nothing but a failure and a burden on schools. This is simply not true. 
Since the imposition of the Federal requirement for annual tests, full 
public reporting, and serious accountability for the results of every 
group of children, achievement among black, Latino, and low-income 
students has improved. On the longest standing national examination--
the NAEP Long Term Trends Exam--these groups have improved faster than 
at any time since 1980. Indeed, African-American and Latino 9-year olds 
now perform as well in math as their 13-year old counterparts did in 
1973.
    Taking a closer look at the last 15 years, our most vulnerable 
students have shown progress on a range of important measures. For 
example:

    <bullet> Between 2000 and 2013, the percentage of the Nation's low-
income fourth graders reaching proficient or advanced levels in math 
nearly quadrupled, and the percentage without even basic math skills 
fell by more than half.
    <bullet> Gaps in reading achievement separating African-American 
eighth graders from their White peers narrowed by nearly a quarter 
between 1998 and 2013.
    <bullet> The percentage of students with learning disabilities 
graduating with a regular high school diploma grew from 57 percent in 
2002 to 68 percent in 2011.
    <bullet> The percentage of Latino students enrolling in college 
immediately after high school has increased from 49 percent in 2000 to 
69 percent in 2012.

    These numbers represent real differences in the life trajectories 
of young people. These gains are not good enough. We still have more 
work to do to ensure that all young people graduate high school ready 
for college and the workplace. We must remain mindful that:

    <bullet> Nearly half of African-American and Latino 4th graders 
struggle with basic reading skills.
    <bullet> Just 20 percent of low-income eighth graders score 
proficient or above in math.
    <bullet> One in four Latino ninth graders won't graduate 4 years 
later. For African-American and Native students, the figure's closer to 
one in three.

    These priorities related to assessment and accountability are not 
the only priorities of The Leadership Conference. You will be hearing 
from us in the weeks ahead on other issues that are also critically 
important. In the meantime, I want to highlight several urgent needs, 
all related to whether efforts to improve student outcomes will succeed 
or flounder.
    First, no child should be afraid to go to school or be made to feel 
ashamed of who he is or what she believes. Every student deserves to 
attend school in a safe, inclusive environment free from bullying, 
harassment and discrimination, all of which contribute to high rates of 
absenteeism, dropout, depression and other adverse health consequences, 
and academic underachievement. Current Federal education law lacks an 
express focus on issues of bullying and harassment, and the protections 
against discrimination are incomplete. We urge the committee to include 
these measures in the ESEA bill:

    <bullet> The Safe Schools Improvement Act would require school 
districts to adopt codes of conduct specifically prohibiting bullying 
and harassment, including on the basis of race, color, national origin, 
sex, disability, sexual orientation, gender identity, and religion.\5\
---------------------------------------------------------------------------
    \5\ http://www.hrc.org/resources/entry/safe-schools-improvement-
act.
---------------------------------------------------------------------------
    <bullet> The Student Non-Discrimination Act would prohibit public 
schools from discriminating against a student on the basis of sexual 
orientation or gender identity, expanding the list of currently 
protected classes.

    Second, Congress should fully fund title I. Many of the problems 
Congress is trying to address--including massive resistance to change--
might have been averted if Congress had actually faithfully implemented 
the law that it passed, which was supposed to raise funding title I 
from $13.5 billion in 2002 to $25 billion in 2007. While title I was 
fully funded in 2001, with appropriations at 100 percent of authorized 
levels, by 2007, it was down to 51 percent of authorized levels. The 
title I appropriation reached only $14.4 billion in 2015 and the 
chairman's proposal would cap it at $14.9 billion through 2021. This 
stagnation in title I funding occurred while the percentage of poor 
children in public schools skyrocketed (since 2000 from 38 percent to 
51 percent, according to the Southern Education Foundation report).
    I would like to conclude my testimony by commenting briefly on 
Senator Alexander's proposals regarding assessment and accountability 
and on Senator Murray's principles for reauthorization.
    We are encouraged that several provisions in Senator Alexander's 
bill touch on some of the civil rights' groups core principles, 
including: a focus on college-readiness, the requirement for States to 
set standards, administer annual assessments (in Option 2) and 
disaggregate results, and statewide accountability systems based on 
State standards. Under the bill, States would be required to identify 
and differentiate among schools based on student achievement, subgroup 
performance, and achievement gaps. Graduation rates--4-year adjusted 
cohort rate and extended-year adjusted rate--would also be included. 
States and school districts would be required to assist title I schools 
identified as needing academic achievement. The proposal also preserves 
the 95 percent assessment participation requirement for all student 
subgroups. The report cards would also include actual per pupil 
expenditures.
    Of course, the devil is in the details, and the bill falls short 
with respect to our principles in several ways, including but not 
limited to:

    First, as a general matter, the bill bends over backward to 
accommodate the interests of State and local government entities that 
have both failed our children and avoided any real accountability for 
their failures. Rather than use the power of the Federal purse and the 
Equal Protection Clause to leverage better policies and performance 
from the States in educating our most vulnerable children, the bill 
would allow States to water down standards; to maintain grossly 
inequitable and inadequate school financing schemes; to repurpose title 
I dollars to serve otherwise ineligible students; and to settle for a 
``nice try'' rather than real results in closing gaps in achievement 
and high school graduation rates. Here are just a few examples:

    <bullet> The bill would eliminate the requirement for achievement, 
gap-closing and graduation rate targets for subgroups of disadvantaged 
students and remedies when the targets are not met.
    <bullet> The bill subverts the purpose of college- and career-ready 
standards by, for example:

        <bullet>  Using instead the term ``college- or career-ready'' 
        which could easily result in low-income students and students 
        of color being tracked into less rigorous vocational programs 
        rather than providing them the skills needed to succeed in a 
        rigorous career training program.
        <bullet>  Requiring that the standards align only with the 
        entrance requirements of one institution of higher education in 
        the States, rather than a more meaningful standard set by a 
        public university system governing board.

    <bullet> The bill would allow States--under political pressure from 
special interests--to depart from statewide assessments, or to dilute 
the results of those assessments, by using local assessments for State 
accountability purposes. The bill even authorizes funds in the Federal 
program intended to improve State assessments to be diverted to develop 
local assessments.
    <bullet> The bill's options would also allow States--under 
political pressure from special interests--to depart from assessing 
students annually and to revert to a weaker system of ``grade span'' 
assessment and accountability.
    <bullet> The bill would codify the current regulatory option for an 
alternate assessment for students with the most severe cognitive 
disabilities, but fails to limit its use to 1 percent or fewer 
students, thereby creating perverse incentives for schools to funnel 
more challenging students into low-level academic tracks.
    <bullet> The bill weakens the requirement that school districts 
ensure that low-income and minority students are not taught at higher 
rates than other students by inexperienced or unqualified teachers, and 
it eliminates the parallel requirement at the State level.
    <bullet> The bill would eliminate parents' right to transfer their 
children from low-performing schools to successful schools and makes it 
a local option.
    <bullet> The bill's authorization levels are completely inadequate. 
Title I's authorization would be fixed at $14.9 billion for the life of 
the bill--a sum that is $10 billion lower than the $25 billion 
authorized for 2007, the most recent year specified in the law.
    <bullet> The bill eliminates ``maintenance of effort.''
    <bullet> The bill's ``portability'' provisions would dilute 
targeting of Federal funds to the schools with the highest 
concentrations of poor students and thereby compromise the ability of 
these schools to improve.
    <bullet> The bill further hampers school improvement efforts by 
eliminating rather than improving the School Improvement Grant (SIG) 
program, which has directed $500 million per year to the lowest-
performing schools--usually the bottom 5 percent--for comprehensive 
whole-school reform, including increased learning time and school 
restructuring.
    <bullet> The bill's block-granting of title IV and the elimination 
of vital programs--such as the 21st Century Community Learning Centers, 
Promise Neighborhoods, the AP program, and school counselors--will harm 
children. When programs are both consolidated and cut, and they each 
have legitimate purposes, the winners and losers will be determined by 
who has more political influence, not what programs are best for 
underserved children.
    <bullet> Finally, there is no proposal for a dedicated funding 
stream for early childhood education programs, which are urgently 
needed for young children with disabilities and those living in 
poverty.

    Second, at a time when we need more leadership than ever from the 
national government, and when taxpayers are demanding more transparency 
and results from government, the bill would allow Federal dollars to 
keep flowing to States with virtually no meaningful accountability for 
the spending nor effective oversight from the Secretary of Education. 
For example:

    <bullet> The bill sets a far lower standard of review for Federal 
approval of State plans than for State approval of school district 
plans. Rather than place the burden on States to convincingly explain 
how their plans would work, the bill would require the Secretary to 
provide ``research'' demonstrating the plan would not work, along with 
a hearing, before rejecting the plan.
    <bullet> By requiring approval within 45 days, the bill foolishly 
limits the capacity of the Secretary and the Department of Education to 
conduct a robust peer review of State plans and to have a process that 
ensures that each State's plan meets the statute's requirements. 
Scrutiny of assessments, evidence of standards, reporting on 
``supplement not supplant'' provisions, etc., are all weakened under 
this bill.

    With respect to Senator Murray's proposals, we applaud the 
commitment to early childhood education, and to making sure that when 
States and districts accept Federal money, they use it to produce 
academic gains for students.
    The Leadership Conference and our member organizations will provide 
additional comments and recommendations on the legislative proposals in 
the coming weeks. We encourage the leadership and members of the 
committee to continue to work across the aisle to improve our public 
schools and to reauthorize ESEA. We look forward to further discussion 
with you and members of the committee.
    Thank you for your consideration.
                               Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     shared civil rights principles for the reauthorization of the 
          elementary and secondary education act--january 2015
    1The United States has played a historic and critical role in 
promoting educational opportunity and protecting the rights and 
interests of students disadvantaged by discrimination, poverty, and 
other conditions that may limit their educational attainment. For more 
than five decades, Congress has consistently recognized and acted on 
the need to promote fair and equal access to public schools for: 
children of color; children living in poverty; children with 
disabilities; homeless, foster and migrant children; children in 
detention; children still learning English; Native children; and girls 
as well as boys. Much progress has been made, but educational 
inequality continues to quash dreams, erode our democracy, and hinder 
economic growth. This Federal role must be honored and maintained in a 
reauthorized Elementary and Secondary Education Act (ESEA), which must 
ensure the following:

    I. Each State adopts college- and career-ready State standards and 
provides:

    All students a fair and equal opportunity to meet these standards, 
including:

    <bullet> Access to early childhood education for economically 
disadvantaged children and those with disabilities (ages birth to 5 
years).
    <bullet> Equal access to qualified and effective teachers and core 
college-prep courses.
    <bullet> Equal access to technology including hardware, software, 
and the Internet.
    <bullet> Safe and healthy school climate with inclusionary 
discipline best practices.
    <bullet> Supports and services needed by English learners and 
students with disabilities.
    <bullet> Protections for the most vulnerable children, e.g., those 
in juvenile or criminal justice systems, those in child welfare 
systems, pregnant/parenting students, and foster, homeless, and migrant 
youth.

    Annual, statewide assessments for all students (in grades 3-8 and 
at least once in high school) that are aligned with, and measure each 
student's progress toward meeting, the State's college- and career-
ready standards, and

    <bullet> Are valid and reliable measures of student progress and 
meet other requirements now in Sec. 1111(b)(3) of Title I.\1\
    <bullet> Provide appropriate accommodations for English learners, 
who should be exempt only for their first year attending school in the 
United States.
    <bullet> Provide appropriate accommodations for students with 
disabilities.
    <bullet> Limit alternate assessments based on alternate achievement 
standards only to students with the most significant cognitive 
disabilities, up to 1 percent of all students; terminate assessments 
based on modified achievement standards; and prohibit the use of 
Individualized Education Programs (IEPs) to measure academic 
achievement under ESEA.
    <bullet> Allow, during a transition period, alternatives to 
computer-based assessment for students in schools that have not yet 
provided them with sufficient access to, and experience with, the 
required technology.

    II. Federal dollars are targeted to historically underserved 
students and schools.

    <bullet> Title I is used to provide extra (supplemental) resources 
needed by high-poverty schools to close achievement gaps and improve 
student outcomes.
    <bullet> States, districts and schools serving the highest-need 
student populations receive more funding than others.
    <bullet> Targeted funding is provided to meet the needs of the most 
vulnerable children including youth in juvenile and criminal justice 
systems; Native American children; English learners; and foster, 
homeless, and migrant students.

    III. State accountability systems expect and support all students 
to make enough progress every year so that they graduate from high 
school ready for college and career.

    <bullet> States set annual district and school targets for grade-
level achievement, high school graduation, and closing achievement 
gaps, for all students, including accelerated progress for subgroups 
(each major racial and ethnic group, students with disabilities, 
English language learners, and students from low-income families), and 
rate schools and districts on how well they meet the targets.
    <bullet> Effective remedies to improve instruction, learning and 
school climate (including, e.g., decreases in bullying and harassment, 
use of exclusionary discipline practices, use of police in schools, and 
student referrals to law enforcement) for students enrolled are 
implemented in any school where the school as a whole, or any subgroup 
of students, has not met the annual achievement and graduation targets 
or where achievement gaps persist. The remedies must be effective both 
in improving subgroup achievement and high school graduation rates and 
in closing achievement gaps.

    IV. States and districts ensure that all title I schools encourage 
and promote meaningful engagement and input of all parents/guardians--
regardless of their participation or influence in school board 
elections--including those who are not proficient in English, or who 
have disabilities or limited education/literacy--in their children's 
education and in school activities and decisionmaking. Schools 
communicate and provide information and data in ways that are 
accessible to all parents (e.g., written, oral, translated).

    V. States and LEAs improve data collection and reporting to parents 
and the public on student achievement and gap-closing, course-
completion, graduation rates, school climate indicators (including 
decreases in use of exclusionary discipline practices, use of police in 
schools, and student referrals to law enforcement), opportunity 
measures (including pre-K and technology), and per-pupil expenditures. 
Data are disaggregated by categories in Sec. 1111(b)(3)(C)(xiii) of 
Title I,\2\ and cross-tabulated by gender.

    VI. States implement and enforce the law. The Secretary of 
Education approves plans, ensures State implementation through 
oversight and enforcement, and takes action when States fail to meet 
their obligations to close achievement gaps and provide equal 
educational opportunity for all students.

    Submitted by:

    The Leadership Conference on Civil and Human Rights; American-Arab 
Anti-Discrimination Committee; American Association of University 
Women; Association of University Centers on Disabilities; Children's 
Defense Fund; Council of Parent Attorneys and Advocates; Disability 
Rights Education and Defense Fund; Easter Seals; The Education Trust; 
Gay, Lesbian & Straight Education Network; League of United Latin 
American Citizens; Mexican American Legal Defense and Educational Fund; 
NAACP; NAACP Legal Defense and Educational Fund; National Center for 
Learning Disabilities; National Council of La Raza; National Disability 
Rights Network; National Indian Education Association; National Urban 
League; National Women's Law Center; Partners for Each and Every Child; 
Southeast Asia Resource Action Center; TASH; United Negro College Fund.

    Contact: Nancy Zirkin, executive vice-president, The Leadership 
Conference on Civil and Human Rights, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fca6958e979592bc9f958a95908e959b94888fd2938e9b">[email&#160;protected]</a>, (202) 
466-3311.
                                Endnotes
    \1\ This section includes requirements to ensure the quality, 
fairness and usefulness of the statewide assessments. For example, they 
must assess higher-order thinking skills and understanding; provide for 
the inclusion of all students (including students with disabilities and 
English language learners); be consistent with professional and 
technical standards; objectively measure academic achievement, 
knowledge and skills; and provide information to parents, teachers, 
principals, and administrators so that they can address the specific 
academic needs of students.
    \2\ This section requires assessment results

        ``to be disaggregated within each State, local educational 
        agency, and school by gender, by each major racial and ethnic 
        group, by English proficiency status, by migrant status, by 
        students with disabilities as compared to nondisabled students, 
        and by economically disadvantaged students as compared to 
        students who are not economically disadvantaged.''

    [Editor's Note: Due to the high cost of printing the attachment 
entitled, ``Achievement and Attainment Trends (Education Trust, 2015)'' 
is maintained in the committee files.]

    The Chairman. Thank you very much, Mr. Henderson.
    Ms. Lee.

STATEMENT OF JIA LEE, FOURTH AND FIFTH GRADE SPECIAL EDUCATION 
              TEACHER, EARTH SCHOOL, NEW YORK, NY

    Ms. Lee. Thank you, Chairman Alexander and Senator Murray, 
for your vision and for this opportunity to offer my remarks 
regarding the impact of testing and accountability on our 
public school children. I am also a parent of a sixth grader, 
an 11-year-old, and so I speak to you both as a public school 
parent and as a teacher.
    I want to provide some context that I've learned about the 
current educational policies, and they are driven by business. 
The use of competitive, performance-based practices have long 
been assumed to motivate workers. Microsoft, Expedia, and Adobe 
Systems are just some of the companies who adopted stack 
ranking, the now infamous practice of applying rewards, 
consequences, and rankings based on performance.
    These same business advisors have informed many of our 
Nation's biggest districts, including mine. In the past few 
years, these businesses have abandoned this practice, because 
they have proven to have disastrous effects on collaboration, 
problem solving, and innovation. What was bad for business has 
been disastrous for public education, a field already plagued 
with recruitment and retention challenges.
    I've worked in different schools. Some of them, through no 
fault of their own, have become increasingly data-driven as 
opposed to student-driven. I am fortunate currently to be 
working in a public school that was founded on the principles 
of whole child education, where we teachers collaborate to 
develop curriculum and create relevant assessments. It is the 
antithesis of stack ranking.
    This year, our fourth and fifth graders are immersed in a 
study we call Rights and Responsibilities. Students develop 
questions around the origins of the United States, the 
Constitution, and discuss the complex struggles and progresses 
we have made as a Nation. These are 8- to 10-year-olds. My 
class decided to divide themselves into groups to study three 
different perspectives from the colonial era--the Native 
peoples, the European colonists, and the African slaves. They 
are the researchers.
    My integrated co-teaching classroom consists of students 
with disabilities, or I should say, all abilities, and they 
work in heterogeneous groups to present their understandings 
through a variety of mediums. They are learning how to learn, 
developing lifelong skills: researching, analyzing information 
from multiple sources, collaborating with others and sharing 
what they've learned in creative and thought-provoking ways. 
They are the stewards of their learning, guided by their 
interests and passions.
    I share this not as a best practice, but to emphasize the 
importance of fostering learning environments that value a 
culture of trust, diversity, and autonomy, not a focus on test 
preparation. Teachers' working conditions are inextricably tied 
to students' learning conditions.
    When parents and educators have voiced concerns, they've 
been accused of coddling. I want to challenge that assumption. 
The great crime is that the focus on testing has taken valuable 
resources and time away from programming, social studies, arts 
and physical education, special education services, and ELL 
programs.
    At my school, we no longer have a librarian, and our parent 
association works full-time to fund the needed arts and music 
programs that are not covered by our budget any longer. We are 
one of the lucky schools. What about schools where parents must 
work to just survive? There is nothing more painful to watch or 
be forced to be complicit with than the minimalizing that is 
happening in our schools.
    Teachers, students, and parents are finding themselves in a 
position of whether or not to push back or leave. Who is left 
to receive these tests and accompanying sanctions? Who are the 
children receiving scripted curricula while losing recess, 
physical education, and other enrichment programs?
    Last year, over 50 percent of our parents at our school 
refused to allow their children to take the New York State 
Common Core assessments, what we now have known nationally as 
opting out. We were not alone.
    I want to remind folks that the Latin root of assessment 
means to sit alongside. Until we have teachers and policymakers 
sitting alongside and getting to know our students and our 
classrooms in deep and meaningful ways, we cannot fully 
understand the State of public education. I sit here as a sole 
female, and this is a field dominated by women. No corporate-
made multiple choice test will give you that data.
    Last year, I decided that I am obligated and accountable to 
my students and their families, and that is why, as a teacher 
of conscious, I will refuse to administer tests that reduce my 
students to a single metric and will continue to take this 
position until the role of standardized assessments are put in 
their proper place.
    We just celebrated the life of Martin Luther King, Jr. In 
his letter from a Birmingham Jail, King affirms that ``one has 
a moral responsibility to disobey unjust laws.'' He quotes St. 
Augustine who said ``an unjust law is no law at all.'' As long 
as education policy continues to be shaped by the interests of 
corporate profiteering and not the interests of our public 
school children, we will resist these unjust testing laws.
    I am hopeful that we can sit alongside each other and do 
the hard work of answering the questions most central to our 
democracy: What is the purpose of public education in a 
democratic society? How can we ensure that all children receive 
an enriching and equitable education? How do we support 
teachers and schools in carrying out their missions to educate 
all?
    I want to thank you, and I appreciate all of your coming 
questions.
    [The prepared statement of Ms. Lee follows:]
                     Prepared Statement of Jia Lee
    Thank you Chairman Alexander and Senator Murray for this 
opportunity to offer my remarks regarding the impact of No Child Left 
Behind's testing and accountability provisions on our public school 
children. I thank you for your vision and for this opportunity. I have 
an 11-year-old son in sixth grade, so I speak to you as both a public 
school parent and a teacher.
    Business practices are informing education policy, so I would like 
to start there. The use of competitive, performance based practices 
have long been assumed to motivate workers. Microsoft, Expedia and 
Adobe Systems are just some of the companies who adopted stack ranking, 
the now infamous practice of applying rewards, consequences and 
rankings based on performance. These same business advisors informed 
many of our Nation's biggest school districts, including mine. In the 
past few years, businesses have abandoned this practice because they 
have proven to have disastrous affects on collaboration, problem 
solving, and innovation. The high exodus of workers seen in these 
businesses are attributed to stack ranking (Oremus, 2013). Studies, 
including those sponsored by the Federal Reserve Bank, find that 
incentive-based practices only work for the most menial tasks that do 
not require critical thinking (Ariely, et al., 2005). What was bad for 
business has been disastrous for public education, a field already 
plagued with recruitment and retention challenges. Educators with 
valuable experience are leaving the profession in droves and enrollment 
in teacher preparation programs is abysmal.
    Furthermore, multiple choice, high-stakes tests have reliably 
padded the profits of education corporations, draining public tax 
dollars but have been unreliable in measuring the diversity of 
students' capabilities and learning. The use of those same tests in 
evaluating teachers is, simply put, statistically invalid. The American 
Statistical Association has warned,

          ``The VAM scores themselves have large standard errors, even 
        when calculated using several years of data. These large 
        standard errors make rankings unstable, even under the best 
        scenarios for modeling.''

In New York State, the tests change every year, and the cut scores 
shift. The results are norm-referenced, ensuring a stack ranking of 
students with approximately 50 percent below the curve. We are playing 
a dangerous game with our children's futures and public education, 
cornerstones of our democracy. As a special and general education 
teacher, I have seen these tests incite anxiety and can provide 
numerous examples of times when students stated that all they 
accomplished throughout the year meant nothing.
    When parents and educators voice concerns, they have been accused 
of coddling. I want to challenge that assumption. The great crime is 
that the focus on testing has taken valuable resources and time away 
from programming in social studies, the arts and physical education. At 
my school, we no longer have a librarian and our parent association 
works full time to fund needed arts programs that are not provided for 
in our budget. We are one of the lucky schools. What about schools 
where parents must work just to survive? I know schools that no longer 
have money for basics such as soap for the bathrooms. There is nothing 
more painful to watch or forced to be complicit to than the 
minimalizing that is happening in our schools. Teachers, students and 
parents find themselves in a position of whether or not to push back or 
leave. Who is left to receive these tests and accompanying sanctions? 
Who are the children receiving scripted curricula while losing recess, 
physical education, music and civics lessons? It is our students from 
the most marginalized communities. A current study by the Southern 
Education Foundation finds that more than 50 percent of our public 
school children are living in poverty, an all time high in fifty years 
(Layton, 2015). Black and Latino students live disproportionately at or 
below the poverty line, and it is no accident that we are faced with 
the most segregated school system in history, with a disproportionate 
number of school closures happening in the poorest communities--all at 
the hands of using invalid metrics. It is what pushes me past my 
comfort zone and to speak out.
    I have worked in different schools, some of which, through no fault 
of their own, have become increasingly data driven as opposed to 
student driven. I am fortunate to currently work in a public school 
that was founded on the principles of whole child education, where we, 
the teachers, collaborate to develop curriculum and create relevant 
assessments. It is the antithesis of stack ranking.
    This year, our fourth- and fifth-graders are immersed in a study we 
call Rights and Responsibilities. Students develop questions around the 
origins of the United States, the Constitution, and discuss the complex 
struggles and progress we have made as a Nation. My class decided to 
divide themselves into groups to study three different perspectives 
from the colonial era--the Native people, European colonists and the 
African slaves. They are the researchers, using primary and secondary 
sources to learn about key events, figures, and cultural and political 
ideas. My integrated co-teaching class consists of students with 
disabilities, or I should say, all abilities, and they work in 
heterogeneous groups to present their understandings through a variety 
of mediums: creating art pieces, choreographing original dance pieces, 
presenting timelines, developing maps, conducting process dramas, and 
giving oral reports. They are learning ``how'' to learn, developing 
lifelong skills: researching, analyzing information from multiple 
sources, collaborating with others and sharing what they've learned in 
creative and thought-provoking ways. They are the stewards of their own 
learning, guided by their interests and passions. I share this not as a 
best practice but to emphasize the importance of fostering learning 
environments that value a culture of trust, diversity, and teacher 
autonomy not a focus on test preparation. Teachers' working conditions 
are inextricably linked to students' learning conditions.
    Last year, over 50 percent of the parents at our school refused to 
allow their children to take the NYS Common Core aligned ELA and Math 
tests and we were not alone. The Latin root of assessment is to ``sit 
alongside.'' Until we have teachers and policymakers ``sitting 
alongside'' and getting to know our students and our classrooms in deep 
and meaningful ways, we cannot fully understand the State of public 
education. No corporate made multiple-choice test will give you that 
data. Last year, I decided that I am obligated and accountable to my 
students and families, and that is why, as a conscientious objector, I 
will not administer tests that reduce my students to a single metric 
and will continue to take this position until the role of standardized 
assessments are put in their proper place. Along with two other 
teachers at my school, we formed Teachers of Conscience, a position 
paper and call to action at local levels.
    We just celebrated the life of Martin Luther King, Jr. In his 
Letter From a Birmingham Jail, King affirms that ``one has a moral 
responsibility to disobey unjust laws.'' He quotes St. Augustine who 
said ``an unjust law is no law at all.'' As long as education policy 
continues to be shaped by the interests of corporate profiteering and 
not the interests of our public school children, we will resist these 
unjust testing laws. It is time to abandon faulty business assumptions 
in public education. We are experiencing a historic resistance to high 
stakes testing. Chicago Public Schools just voted to back away from 
PARCC assessments and another State joins the nine who have already 
withdrawn from the assessment consortium. Let us abandon stack ranking 
of our children and schools. We need future generations to explore 
problems that have far more complex solutions than a multiple choice 
test. Let us do the work of teaching and help us hold our State 
officials accountable for delivering on funding, as promised through 
the Elementary and Secondary Education Act.
    I am hopeful that we can sit alongside each other and do the hard 
work of answering the questions most central to our democracy: What is 
the purpose of public education in a democratic society? How can we 
ensure that all children receive an enriching and equitable education? 
How do we support teachers and schools in carrying out their missions 
to educate all? Thank you.
                                Endnotes
Ariely, D., Gneezy, G., Lowenstein, G., Mazar, N., (July 23, 2005). 
    ``Large Stakes, Big Mistakes,'' www.bostonfed.org, Boston Federal 
    Reserve, Research Center for Behavioral Economics and Decision 
    Making, https://www.bostonfed.org/economic/wp/wp2005/wp0511.pdf.
Layton, Lyndsey. (January 16, 2015). ``A majority of public school 
    students are living in poverty.'' Washingtonpost.com. http://
    www.washingtonpost.com/local/education/majority-of-us-public-
    school-students-are-in-poverty/2015/01/15/df7171d0-9ce9-11e4-a7ee-
    526210d665b4_story.html.
Oremus, Will, (August 23, 2013). ``The Poisonous Employee Ranking 
    System That Helps Explain Microsoft's Decline.'' slate.com. http://
    www.slate.com/blogs/future_tense/2013/08/23/
    stack_ranking_steve_ballmer_s_employee_
    evaluation_system_and_microsoft_s.html?original_referrer=https%253A%
    252
    F%252Fm.facebook.com.

    The Chairman. Thank you, Ms. Lee.
    Mr. Lazar.

  STATEMENT OF STEPHEN LAZAR, ELEVENTH GRADE U.S. HISTORY AND 
 ENGLISH TEACHER, HARVEST COLLEGIATE HIGH SCHOOL, NEW YORK, NY

    Mr. Lazar. Senator Alexander, Senator Murray, and 
distinguished members of this committee, it is an honor to 
testify before you all today. I come as a proud National Board 
certified public high school teacher. I teach at Harvest 
Collegiate High School in New York City. My students, who are 
listening to us now--and who I need to remind to study for 
their history test tomorrow--represent the full diversity of 
our city.
    I'm also embarrassed to say I was a teacher who every May 
until last would get up to apologize to my students. I would 
tell them,

          ``I have done my best job to be an excellent teacher 
        for you up until now. For the last month of school, I'm 
        going to turn into a bad teacher to properly prepare 
        you for State Regents exams.''

    We would then repeatedly write stock, formulaic essays and 
practice mindless repetition of facts so that they could be 
successful on their State exams. I did this because 
standardized tests measure the wrong things. I did this because 
the stakes for my students forced me to value 3 hours of 
testing over a year of learning. I did this because the 
standardized test was the only way for my students to 
demonstrate their learning to the government.
    Right now, the Federal incentives in education are wrong. 
Because of this, too many schools are designed, in large part, 
as my May was, to get students to do well on a one-time test, 
whereas schools should organize themselves around student 
learning.
    Making the test the curriculum harms all students, but it 
does the most harm to those with the lowest skills. When I 
taught seniors in the Bronx, I worked with the highest 
performing students to help prepare them for college. We read 
philosophical works ranging from Kant to Nozick and wrote and 
revised college level essays.
    At the same time, I worked with the lowest performing 
students who had yet to pass the State tests. With them, we did 
mindless test prep. Even though I was really good at it, 
getting 100 percent of those students to pass their exams in my 
final year of doing it, I was doing the students no favors.
    I think to this day about T., a senior who could hardly 
write and struggled to read. Sure, she passed the test, but she 
was still not ready for the community college work she 
encountered that fall. When we focus our efforts only on 
helping struggling students jump over the hurdle of mandated 
exams, the learning and opportunity gap widens.
    My current school, Harvest Collegiate, is a member of the 
New York Performance Standards Consortium, a group of 48 
schools that offer an alternative model. We use a more rigorous 
assessment system than the State exams. Within Consortium 
schools, high stakes assessments are not an on-demand test, but 
a college level, performance-based assessment. Students 
complete real and authentic disciplinary work, giving them a 
significant advantage over others once they enter college.
    The Consortium is widely successful, with graduation and 
college success rates far exceeding the rates for all New York 
City public schools. Models like the Consortium need to be able 
to exist and expand within any reauthorized ESEA bill.
    Now, despite its many well-known flaws, No Child Left 
Behind did include some important features that should not be 
abandoned. Its desegregation of student achievement data has 
put a much needed spotlight on how the education of American 
youth is negatively affected by economic and social inequality. 
That is why I believe that a stance that is opposed to any ESEA 
requirements for student assessment is misguided.
    Yes, every student must count, especially our students with 
the greatest needs. We can do this without testing every kid 
every year. We could use grade span testing for elementary and 
middle school, as we already do in high school. We could even 
go a step further and use the representational sampling 
technique of the NAEP, universally considered to be the gold 
standard of educational assessment in the United States.
    I support the position of my union, the AFT, that in 
reauthorizing the ESEA, Congress should remove the high stakes 
from mandated tests, limit the number of tests used for 
accountability purposes, and allow schools to use more 
sophisticated and useful assessment tools such as performance 
assessments. To do this requires a better balance of 
government's role in education with that of local 
decisionmaking.
    Federal and State governments need to recognize that the 
best educational decisions for students are made by those who 
possess the fullest and deepest understanding of their needs. 
Educators' voices need to be the loudest in making the 
decisions of what is tested, how students are tested, and when 
students are tested.
    Senators, my students, my colleagues, and I are all 
encouraged and inspired that Congress is putting serious 
thought into how to improve the education of all our Nation's 
students. It is time to fix our broken system of testing and 
accountability.
    [The prepared statement of Mr. Lazar follows:]
                  Prepared Statement of Stephen Lazar
                                summary
    Right now, the Federal incentives in education are wrong. Too many 
schools are designed, in large part, to get students to do well on a 
one-time test. We need to reverse that hierarchy so that schools can 
organize themselves primarily to help students learn.
    Our first problem is the limited tools for assessing what students 
know and can do. Most federally mandated tests are one-time tests that 
privilege multiple-choice questions over authentic performances of 
students' knowledge and skill. Teachers learn little from these exams 
that can lead to better instruction and increased learning, especially 
when they are given at the end of the year. To assess what students 
need to know and be able to do to be successful in college, career and 
citizenship, we need more-sophisticated assessments.
    But even if we can improve the tools, when the stakes of testing 
are high, students do not get what they need. In all too many cases, 
the test becomes the curriculum. Making the test the curriculum harms 
all students, but it does the most harm to those with the lowest 
skills.
    Many have voiced concerns that to remove annualized testing of 
every student means many students, particularly those who are poor, 
black or brown, will fall through the cracks. These concerns must be 
addressed. Schools need to know how we're doing, and the parents of our 
students and the community at large need to know that we are 
successfully educating our students. This can look very different from 
current testing regimens.
    My school is part of the New York Performance Standards Consortium, 
a group of schools that can serve as a model for the rest of the 
country and must be protected in a newly authorized ESEA. The 
consortium consists of 48 schools that use a more rigorous assessment 
system than the New York Regents exams and see results significantly 
superior to peer schools.
    Despite its many well-known flaws, No Child Left Behind did include 
some important features that should not be abandoned. Its 
disaggregation of student achievement data has put a much-needed 
spotlight on how the education of American students is negatively 
affected by economic and social inequality. That is why I believe a 
stance that is opposed to any ESEA requirement for student assessment 
is misguided.
    To do this requires a better balance of the Federal Government's 
role in education with that of local decisionmaking. The Federal 
Government's role is to ensure that American students receive a high-
quality education that meets their needs. Federal and State governments 
need to recognize that the best education decisions for students are 
made by those who are closest to them--those who possess the fullest 
and deepest understanding of their needs.
    We must ensure that every student is counted. We can do this 
without testing every kid, every year. Under the current law, we use 
grade-span testing for high school. If grade-span testing works for 
high school accountability--and I have yet to see a single proposal 
that says we need to adopt annualized high-stakes testing in high 
school--why isn't it good enough for elementary and middle schools?
    We could even go a step further to remove the burdensome time 
demands of standardized testing, which takes time away from student 
learning. The National Assessment of Educational Progress (NAEP), 
universally considered to be the ``gold standard'' of educational 
assessment in the United States, does not test every student.
    The fundamental purpose of testing and assessment is to inform and 
improve teaching and learning, so that every student can be successful 
in school. When we use testing as a high-stakes vehicle for sanctions 
and punishments, we undermine that purpose and harm American education. 
When standardized exams replace a rich curriculum in driving 
instruction, the quality of our education suffers. It is time to fix a 
broken system of testing and accountability. It is time to do so with 
the inclusion of teachers' voices in the process.
                                 ______
                                 
    Senator Lamar Alexander, Senator Patty Murray and distinguished 
members of the Senate Committee on Health, Education, Labor, and 
Pensions, it is my honor to testify before you today on the 
reauthorization of the Elementary and Secondary Education Act (ESEA), 
and to share with you the perspective of a classroom teacher on how the 
ESEA should address the issue of testing and assessment.
    I am a proud New York City public high school teacher. Currently, I 
teach both English and U.S. history to 11th-grade students at Harvest 
Collegiate High School in Manhattan, a school I helped found with a 
group of teachers 3 years ago. I also serve as our dean of Academic 
Progress, overseeing our school's assessment system and supporting 
student learning schoolwide. My students, who are listening to us now--
and who I need to remind to study for their test tomorrow--represent 
the full diversity of New York City. Over 70 percent receive free or 
reduced-price lunch; 75 percent are black and/or Latino; 25 percent 
have special education needs; and the overwhelming majority are 
immigrants or the children of immigrants.
    After receiving my undergraduate degree and teacher certification 
at Brown University, I began my career not far from here in Fairfax 
County, VA, at Hayfield High School. I moved to New York 10 years ago 
at the behest of my then fiancee, where I completed a master's degree 
in African-American studies at Columbia University. I then taught for 5 
years at the Bronx Lab School and a year at the Academy for Young 
Writers in Brooklyn before starting Harvest Collegiate in 2012.
    I am a National Board Certified teacher who was twice elected by my 
colleagues to serve as their union chapter leader. I have helped lead 
the development of local performance assessments in New York City to be 
used for teacher evaluation, developed prototype tasks for the Smarter 
Balanced Assessment Consortium, and am currently writing model 11-grade 
United States history curriculum units for the New York State Social 
Studies Toolkit. I speak to you today not only as a teacher who cares 
deeply about his students, but as one who is evidence that teachers are 
capable of and willing to impact the larger education world beyond our 
classrooms.
    Most important, however, I am a teacher who got an email from 
Brandy in the middle of her freshman African-American Studies seminar 
at Lehman College complaining that without me, ``there's no one around 
anymore to ask me the all-annoying questions about my beliefs or 
passions.'' I'm the teacher to whom Genesis wrote,

          ``Thank you for an amazing unforgettable 4 years. You were 
        the first teacher to ever be true with me and point out my 
        flaws. You made me realize that everything we do, whether it be 
        academics or decisions in life, has a greater purpose than we 
        intend them to have.''

    To whom Robert wrote,

          ``I remember one time you told me that I had all the right 
        tools to become a strong leader. I just want you to know if 
        that's true, it is because you helped install those tools.''

    To whom Rosio wrote,

          ``Many teachers at this school have cared for me, but Steve 
        has been the one to take time and to look after me and guide me 
        in the right direction since day one.''

    To whom Tyree, after finally passing a State standardized test on 
his fourth try wrote, ``Thank you so much. You pushed me to the top.'' 
I am now proud to call Tyree, a graduate of Sarah Lawrence College, a 
colleague at Harvest Collegiate.
    Despite these accomplishments, I am a teacher who every May, until 
last year, would get up and apologize to my students. I would tell 
them,

          ``I have done my best job to be an excellent teacher for you 
        up till now, but for the last month of school, I am going to 
        turn into a bad teacher to properly prepare you for State 
        Regents exams.''

    I told my students there would be no more research, no more 
discussion, no more dealing with complexity, no more developing as 
writers with voice and style. Instead, they would repeatedly write 
stock, formulaic essays and practice mindless repetition of facts so 
that they could be successful on the State Regents exams in English and 
history. Every year, I sacrificed at least a month of my students' 
learning, and I'm sad to say, it worked. My students always performed 
10-20 percent above city averages on the exams.
    I did this because standardized tests measure the wrong things. I 
did this because the stakes for my students, and more recently for me, 
forced me to value 3 hours of testing over a year of learning and 
development. I did this because the standardized test was the only way 
for my students to demonstrate their learning to the State and Federal 
Governments. My incentives were all wrong.
    Ted Sizer, the Brown and Harvard professor whose book Horace's 
Compromise made me decide to become a teacher 15 years ago, emphasizes 
the need to get the incentives right for schools to work well. Students 
need clear and relevant goals. Teachers need autonomy and 
accountability for helping students progress toward those goals. Sizer 
made clear that when we get the incentives right, schools flourish.
    Right now though, the Federal incentives in education are wrong. 
Too many schools are designed, in large part, to get students to do 
well on a one-time test. We need to reverse that hierarchy so that 
schools can organize themselves primarily to help students learn. I 
applaud this committee for the work it has done to begin to get the 
incentives right. As a teacher, I hope to offer some further insight 
into the negative effects of our current system of testing, and offer 
some lessons from my school and others like it about what can work 
better.
    Our first problem is the limited tools for assessing what students 
know and can do. Because of the demands of testing every student every 
year, and the psychometric demands of high-stakes assessments, most 
federally mandated tests are a one-time assessment that privilege 
multiple-choice questions over authentic demonstrations of students' 
knowledge and skills. Teachers learn little from these exams that can 
lead to better instruction and increased learning, especially when they 
come at the end of the year. As I would prepare my students for the New 
York State Regents exams in both English and history, I learned that a 
student's score on the test could shift by 15 points in either 
direction, depending on the version of the test I used and how the 
student was doing on that day. For an average student, that's a range 
that includes both the mastery level and failure. How a student does on 
one test only really tells me how the student did on that test on that 
day; to know anything of value, with validity and reliability, I need 
multiple measures over time which can help me understand what my 
students know and can do.
    Standardized tests can only measure certain things. They work well 
for basic skills, such as reading comprehension and simple 
computations. However, to assess what students need to know and be able 
to do to be successful in college, career and citizenship, we need 
more-sophisticated assessments. Although not perfect, the Common Core, 
Next Generation Science standards, and the C3 Social Studies Framework 
clearly articulate the skills students need. To cite one example of 
many, Common Core Writing Standard 7 demands that students ``conduct 
short as well as more sustained research projects to answer a question 
(including a self-generated question) or solve a problem.''
    This standard cannot be assessed through an on-demand test; rather, 
students will actually need to perform research over extended lengths 
of time and be assessed for their ability to do so.
    But even if we can improve the tools, when the stakes of testing 
are high, students do not get what they need. In all too many cases, 
the test becomes the curriculum. A former colleague of mine who coaches 
science teachers for a well-known charter school observed teachers 
using the year-end test as the only motivation for students to learn 
science. This is science! If the only reason students believe they need 
to know science--or any subject, for that matter--is the test, America 
is in trouble.
    Making the test the curriculum harms all students, but it does the 
most harm to those with the lowest skills. When I taught seniors in the 
Bronx, I worked with the highest-performing students who had already 
passed all their exams to help prepare them for the rigorous reading 
and writing they would face in college. We read philosophical and 
theoretical works ranging from Kant to Rawls to Nozick, and wrote and 
revised college-level argumentative essays. Though the Common Core was 
a far-off whisper at that point, my course far exceeded its demands, 
even if all my students could not yet meet them.
    At the same time, I worked with the lowest-performing students who 
had yet to pass the New York State Regents. With them, I focused on 
mindless repetition of the facts that make up most of the Regents, and 
combined it with writing formulaic, timed essays that bore little 
resemblance to any real academic, civic, or career-based writing. I was 
really good at it, getting 100 percent to pass their exams in my final 
year leading Regents prep.
    But I was doing my students no favors. I think to this day about 
T., a second-semester senior who could hardly write and struggled to 
read. In ``Regents Prep Class'' I worked with her on rote memorization 
rather than improving the reading, writing and thinking skills she 
would need for the rest of her life. The incentives were all wrong; 
sure, she passed the test, but she was still not ready for the 
community college work she encountered that fall. When we focus our 
efforts only on helping struggling students jump over the hurdle of 
mandated exams, the learning and opportunity gap widens.
    I also think about how arbitrary it is to get a passing grade on 
these exams. J., a student with special needs, didn't graduate on time 
because he ran out of time on the test. He was one point short on a 
Regents exam, and still had an entire essay to go. Had he had time to 
write just one sentence of that essay, he would have passed and 
graduated. J. was ready to graduate, but because there was not one more 
minute for him in June, he had to wait until August to finally succeed.
    Annualized tests taken at the end of the school year do not provide 
teachers and schools with the information we need to best serve our 
students. We need information about what students can do on real, 
authentic tasks. Can they make sense of a newspaper story, use it to 
inform their views, and detect the bias within so that they can become 
informed voters? Can they write a speech, so that, if 1 day they are 
given the chance to testify before a city council or the U.S. Senate 
HELP Committee, they are prepared to do so? Can they develop complex 
questions about the world and use historical, logical and scientific 
modes of analysis and research to answer them? We need actionable 
information about what our students know and can do. That information 
is useless to me in June: I need it early in the fall, when I am 
plotting out the instruction my students will receive over the course 
of the school year.
    Many have voiced concerns that to remove the annualized testing of 
every student means that many students, particularly those who are 
poor, black or brown, will fall through the cracks. These concerns must 
be addressed. Schools need to know how we're doing, and the parents of 
our students and the community at large need to know that we are 
successfully educating our students. In my school, we need to 
constantly check to make sure all our students are learning. We need to 
do this through analysis of individual learners and groups to ensure we 
are providing every one of our students with the quality education that 
is necessary if they are to escape poverty, establish a productive and 
meaningful career, and function as active and informed citizens in our 
democracy. To do this well, systems need to be built at the school and 
district level.
    Educators on the frontlines in America's public schools can't do 
this work all on our own. To educate students with the greatest needs 
well, we need resources and supports that only government can supply. 
Fifty years ago, the Federal Government recognized its responsibility 
in this regard and enacted the ESEA into law, providing crucial title I 
funds for the education of students living in poverty. As Congress 
reauthorizes the ESEA in 2015, I ask you to keep foremost in your mind 
the historic equity mission of this legislation, and ensure that our 
schools receive the resources and supports we need to educate all of 
our students well.
    At my current school, Harvest Collegiate, we serve students who are 
representative of the New York City public school population. This 
means our students are relatively evenly spread from being some of the 
best in the country to coming to our high school at second- or third-
grade levels. We not only need to ensure that all students learn, but 
also that those students who come to us with lagging skills and 
knowledge are accelerated toward our high standards, even when they 
begin far from those standards. We do this through quarterly 
performance assessments, and we invest heavily in the time necessary to 
analyze the data, and for teachers to use it to inform future planning, 
intervention and differentiation. This system has helped us ensure 
that, on average, students make more than a year of growth in the core 
disciplinary skills and habits of mind we assess. It has also kept us 
honest as we have real, timely information about which individual 
students, and which groups of students, are learning less than those 
around them. With this information, we can reprioritize resources, 
professional development, and lesson plans to better meet the needs of 
all students, particularly those with special education needs. This 
system works well because Harvest Collegiate is a collaborative school 
with a strong ethos of trust and community, and is part of New York 
City's PROSE schools, with freedom from some departmental and 
contractual regulations in order to adopt educational innovations.
    Our formative assessment system is in large part possible because 
of our membership in the New York Performance Standards Consortium, a 
group of schools that can serve as a model for the rest of the country 
and must be protected in a newly authorized ESEA. The consortium 
consists of 48 schools that use a more rigorous assessment system than 
the Regents exams. Within the consortium, high-stakes assessments are 
not a one-shot, on-demand test, but a graduation-level performance-
based assessment test, or PBAT. To graduate, consortium students 
complete PBATs in all four core disciplines, in addition to still 
taking the New York State English Regents. This is the work that is 
real and authentic to a discipline, and mirrors college work, giving 
consortium students a significant advantage over others once they enter 
college. Students write an analytical essay on a piece of literature 
for English, an argumentative social studies research paper, conduct or 
extend a science experiment, and demonstrate problem-solving at higher 
levels of mathematics. In all areas, students are also required to 
defend their work orally as well as through written products. These 
PBATs are evaluated by at least two teachers at the students' school as 
well as an outside evaluator to ensure the reliability and validity of 
the process.
    As opposed to top-down standardized assessments that threaten 
teacher morale and professionalism, the consortium uses a bottom-up 
system, which develops teachers' professionalism and commitment to 
students. Teachers develop specific tasks that arise from the overlap 
between the curriculum and student interests. We are supported in this 
work through extensive professional development at our school, which is 
primarily teacher run. It should be no surprise then that the teacher 
turnover rate for teachers with less than 5 years experience at 
consortium schools is only 15 percent, compared with 26 percent at 
charter high schools and 58 percent across all New York City high 
schools. These results are in spite of the fact that consortium 
teachers do more work and bear more responsibility than conventional 
teachers. We design more challenging curriculum and tasks for students. 
Right now, my students are sharing oral histories that they conducted 
of immigrants to the United States and comparing those with the 
experiences of immigrants throughout U.S. history, which they have 
researched. We collaborate with our peers, both in our school and 
across the consortium, far more than most other teachers. We also serve 
as external evaluators to ensure other schools maintain our high 
standards for students, and evaluate other schools' assignments and 
work at our annual moderation study. This is the combination of 
autonomy and accountability that Sizer called for, which allows us to 
recruit and retain teachers of extraordinary quality for our students.
    This leads to better results for students. The consortium 
graduation rate exceeds that of the overall New York City public 
schools. And a study conducted by Dr. Martha Foote (``Keeping 
Accountability Systems Accountable,'' Phi Beta Kappan, January 2007) 
shows that he consortium has ``a proven record of producing graduates 
who go on to successful undergraduate careers.'' Eighty-five percent of 
consortium graduates attended colleges rated competitive or better 
according to Barron's Profiles of American Colleges and persisted in 
college at rates higher than the national average. All this was 
accomplished despite the fact that the consortium schools' pool of 
students include more students living at the poverty level, a higher 
percentage of Latinos and English language learners, and a higher 
percentage of students with lower English and math skills than the 
overall NYC public high school population.
    While consortium graduation rates exceed NYC averages across the 
board, the difference is most staggering for the most-challenged 
populations: In consortium schools, the graduation rate for English 
language learners is 69.5 percent, compared with 39.7 percent citywide; 
the rate for students with special education needs is 50 percent, more 
than double the 24.7 percent citywide rate. Moreover, graduates of 
consortium schools are better prepared for college than their peers. 
For the cohort of 2008, the consortium's persistence rate at 4-year 
colleges was 93.3 percent, compared with 74.7 percent nationally. At 2-
year colleges, consortium students persisted at a rate of 83.9 percent, 
compared with 53.5 percent nationally. These results arise from only 
one structural difference between our schools and others in the city: 
We do real, authentic performance assessments in place of standardized 
tests. Models like the consortium need to be able to exist, and thrive, 
within any reauthorized ESEA bill.
    Despite its many well-known flaws, No Child Left Behind did include 
some important features that should not be abandoned. Its 
disaggregation of student achievement data has put a much-needed 
spotlight on how the education of American youth is negatively affected 
by economic and social inequality. Growing economic disparity has now 
left the majority of our public school students living in or near 
poverty, and we clearly do not do enough to help these students 
overcome the challenges that their economic condition places in the way 
of successfully completing their education. Racial and class 
segregation not only continue to plague American schools, but are 
actually on the increase. On the whole, students attending schools with 
segregated poverty and high concentrations of students of color do not 
receive the same quality of education as other American youth. At a 
time when education has become an increasingly important factor in a 
young person's opportunities for a better future and entry into the 
middle class, these stark inequalities doom far too many of our 
students with the greatest need to lives of economic, social and civic 
marginality. We cannot afford to turn a ``blind eye'' to that 
injustice.
    That is why I believe that a stance that is opposed to any ESEA 
requirement for student assessment is misguided. We should be more 
careful and precise, more intelligent in our approach. We need to track 
how well our schools are serving our students with the greatest needs, 
so that States and local school districts can provide the supports and 
interventions struggling schools need to improve and help those 
students. The current NCLB regimen of annual high-stakes standardized 
exams provides only crude and inadequate measures of student 
achievement. Basing high-stakes decisions about the futures of 
students, teachers and schools on such limited assessments has done 
great damage. I support the position of my union, the American 
Federation of Teachers, that in reauthorizing ESEA, Congress should 
remove the high stakes from mandated tests, limit the number of tests 
used for accountability purposes, allow schools to use more 
sophisticated and useful assessment tools such as performance 
assessments, and schedule mandated assessments at a time that they 
would provide useful and actionable information on the academic needs 
of students.
    To do this requires a better balance of the Federal Government's 
role in education with that of local decisionmaking. The ESEA was first 
enacted into law 50 years ago in an effort to address the many unmet 
educational needs of students living in poverty. The Federal 
Government's role is to ensure that American students receive a high-
quality education that meets their needs. It seems clear that when 
setting standards and evaluating success, the Federal Government needs 
to hold States, school districts and schools accountable for not 
perpetuating a ``soft bigotry of low expectations.'' Federal and State 
governments need to recognize that the best educational decisions for 
students are made by those who are closest to them, those who possess 
the fullest and deepest understanding of their needs. Educators' voices 
need to be the loudest in making the decisions of what is tested, how 
students are tested and when students are tested.
    To assess well, we also need the support of the Federal Government 
in developing and implementing new, better assessments. While the 
Smarter Balanced and PARCC consortia have done excellent work to this 
point in developing more meaningful assessments aligned with the Common 
Core, the cost of these exams makes the already challenging political 
climate even more treacherous. We need these exams to be less 
expensive, and the funding to make similar assessments aligned to the 
Next Generation Science standards and the C3 Framework. All of these 
assessments should then be available as options for school communities 
to choose, rather than being forced upon them by Federal or State 
mandates.
    Despite their promise, the current implementation of Common Core-
aligned tests has been extraordinarily uneven, with devastating 
consequences for students in places such as my home State of New York. 
Most schools, teachers and students have not been provided the supports 
and resources they need to reach the higher Common Core standards, but 
poorly designed and executed tests are still forced upon them with 
disastrous results for students. In California and other States that 
have provided the requisite supports and resources and used high-
quality assessments, implementation has been more successful. The 
Federal Government should not mandate the high-stakes testing of every 
student in every grade, and neither should the States. School 
communities need flexibility and choice in the modes of assessment they 
choose for their students. Models such as the New York Performance 
Standards Consortium need to be encouraged to grow and flourish.
    If we can develop a battery of better assessment tools, then the 
next shift I would ask this committee to consider is a rethinking of 
what is measured by assessments. Currently, students are scored in 
relation to an age-based standard. We need to shift our thinking toward 
a broader continuum of growth within a grade band. At my school, we get 
students who as ninth-graders are stronger than I was in 12th grade, 
and others who are reading at a third-grade level. Therefore, we assess 
students on a continuum that can capture their growth throughout 4 
years of high school. We should not be satisfied when strong students 
meet age-based goals at the beginning of the year, nor should we expect 
students who begin the year years away from those same goals to meet 
them that year. Again, what is useful about assessments for teachers 
and students is the knowledge they give us about what to do next. It 
makes no sense to give a 15-year-old who reads at a third-grade level a 
10th-grade exam; we know the student will fail. Not only is this 
useless, but as a recent report from Columbia University's Teachers 
College points out:

          ``for struggling students, repeatedly confronting demands for 
        performance they cannot reach can undermine the motivation and 
        confidence they must have to persist in school.''

    This is the effect of regular grade-based testing.
    Our current system, in which struggling students who are not 
meeting standards in third grade are overwhelmingly not meeting 
standards in ninth grade, does not work. It makes no sense that high 
schools are expected to change the course of a student's previous 9 
years of education in 4 years. NCLB actually penalizes high schools 
that work with struggling students for as long as it takes for them to 
meet standards and graduate: For school accountability, any student who 
takes more than 4 years to graduate appears on the high school's roll 
as a dropout. If our goal is truly to ensure that academic achievement 
gaps are closed, then we need to offer students and schools the time to 
do so. With that time, students can actually develop the skills of 
problem-solving and persistence that are crucial for future success. If 
we shift measurement, and therefore accountability, toward growth on 
authentic tasks, then we can actually have a real conversation about 
how to make that happen for all students.
    While up to this point I have focused on flexibility and a shift 
toward assessing student placement on a continuum, at some point we do 
need standardized information about how schools and districts are 
doing. My brothers and sisters at Ed Trust and in the civil rights 
community are right to be concerned that students who are not tested 
are not counted. We must ensure that every student is counted. We can 
do this without testing every kid, every year. Under the current law, 
we use grade-span testing for high school. Believe me, even though the 
English test in my school isn't coming until junior year, every ninth-
and 10th-grade teacher has it on his or her mind as well. If grade-span 
testing works for high school accountability--and I have yet to see a 
single proposal that says we need to adopt annualized high-stakes 
testing in high school--why isn't it good enough for elementary and 
middle schools?
    We could even go a step further to remove the burdensome time 
standardized testing takes from student learning. The National 
Assessment of Educational Progress (NAEP), universally considered to be 
the ``gold standard'' of educational assessment in the United States, 
does not test every student. Instead NAEP uses sampling, testing only a 
representative cross section of students, to see how well a State or a 
school district is performing. While getting school level data would 
require more students than are currently tested using NAEP, it would 
still be possible to use a similar representational sampling method to 
get key information about districts and schools. To test every student, 
every year, simply for the sake of school accountability is the very 
definition of government waste. Senator Alexander, Senator Murray and 
the other distinguished members of this committee, my students, my 
colleagues, and I are all encouraged and inspired that Congress is 
putting serious thought into how to improve the education of all of our 
Nation's students. Far too much of the current political discourse 
around education misses the most important part of schooling: teaching 
and learning. When you make decisions about the role of testing and 
assessment with the reauthorization of ESEA, I ask you to keep your 
``eyes on the prize'' of how your choices will affect what takes place 
in our Nation's classrooms. The fundamental purpose of testing and 
assessment is to inform and improve teaching and learning, so that 
every student can be successful in school. When we use testing as a 
high-stakes vehicle for sanctions and punishments, we undermine that 
purpose and harm American education. When standardized exams replace a 
rich curriculum in driving instruction, the quality of our education 
suffers. It is time to fix a broken system of testing and 
accountability. It is time to do so with the inclusion of teachers' 
voices in the process. Thank you for allowing me to add my voice today, 
and I hope a reauthorized ESEA will formalize the inclusion of 
teachers' voices across the Nation.

    The Chairman. Thank you very much. This has been an 
extraordinary variety of views. It's very helpful to us as 
Senators, and I thank Senator Murray and the staffs for working 
to have us presented with those different points of views.
    Thank you, all of you. You get an A for sticking to 5 
minutes. I thank you for that, and I hope we'll see the 
Senators do as well, as our time comes.
    I will begin a period of questions. I'll take my 5 minutes, 
and then Senator Murray, and then after that, Senator Collins, 
Senator Warren, Senator Roberts, and Senator Bennet will be the 
first four, and we'll go based on first arrival. We will 
conclude the hearing by noon.
    Let me start with you, Dr. West. You seem to be saying 
this--see if I've got it right--keep the tests, maybe make them 
more flexible; keep the disaggregation of the results; keep the 
accountability system but let the States create the 
accountability system. Have I got that about right?
    Mr. West. That's about right. In my view, there's a clear 
Federal role to play----
    The Chairman. Keep thinking about your answer and let me go 
to something else. Just to frame the question, we're talking 
about testing and accountability, and sometimes that gets off 
into educationese, and I have to refresh myself every 15 
minutes about it even though I've been fooling with it for 
years.
    The Federal Government, under No Child Left Behind, 
requires 17 annual standardized tests. Am I right about that?
    Mr. West. That's correct.
    The Chairman. Seven tests in math, seven in reading once 
each year in grades three through eight and once in high 
school. Then three tests in science, once in grades three 
through five, once in grades six through nine, and once in high 
school. These are 17 tests that must be used by law as the 
primary means of determining the yearly academic performance of 
the State and each school district and school in the State.
    But those aren't the only tests that kids take, and I think 
that's one spotlight we ought to put on today. I'd like for you 
to think about that--and other members--in answer to the 
question. For example, the Excellence in Education Foundation 
in Florida reported that in Florida, in addition to the 17 
Federal tests, there are between 8 and 200 tests administered 
in schools each year on top of those tests. Those are 
administered by the State government and required by local 
government.
    In Lee County, FL, which is Fort Myers, there were 183 
State and local tests in addition to the 17 Federal tests, and 
when this report put the spotlight on the Lee County tests, 
they said, ``Oh, well, maybe that's too many tests,'' and 
they've started giving fewer tests.
    As we're talking about too many tests and what kind of 
tests, but certainly too many tests, I think I'd like to have 
your thoughts about whether the culprit is the Federal 17 tests 
or whether it's all the State and local tests. Or is it because 
of the high stakes in the Federal 17 tests that's causing the 
State and local governments to create so many local tests?
    I think the most difficult issue we have to figure out is 
this testing and accountability issue. I mean, testing--goals, 
standards, tests, and then the accountability is really--what 
are the consequences? What is the definition of success on the 
tests? What is the definition of failure, and what are the 
consequences of failure?
    Really, the debate is who decides that. Do we decide that 
here, or do States decide that there? I think I hear you saying 
Washington should keep those 17 tests and the disaggregation, 
but States should design the accountability systems.
    Mr. West. That is, in fact, an accurate summary of my 
recommendation. As I said, we don't have great data on the 
amount of testing that's going on for various purposes 
everywhere around the Nation. The studies that have been 
conducted, like the one you referenced in the State of Florida, 
do suggest that the bulk of testing time is not devoted to the 
17 federally mandated exams.
    That being said, I do think a lot of those tests are 
adopted by schools in an attempt to prepare themselves for the 
federally mandated annual exams precisely because those exams 
carry so much weight with respect to how their schools are 
going to be treated by the accountability system. That 
accountability system sets up unrealistic expectations with 
respect to student achievement. Those expectations are most 
challenging for schools that serve students that face a lot of 
disadvantage outside of school.
    The Chairman. Let me go on to Mr. Leather or Mr. Boasberg 
in my few remaining seconds.
    Does New Hampshire and Colorado require a lot of extra 
tests in addition to the 17 Federal tests? Or do you and your 
local school district require a lot of extra tests as a result 
of the 17 Federal tests?
    Mr. Leather. In New Hampshire, we just require the basic 
Federal expectation of the 17 tests, plus we have alternative 
assessments for students with disabilities as well as students 
who are English language learners. That's what we do.
    The Chairman. Mr. Boasberg.
    Mr. Boasberg. We as a State have adopted certain other 
tests in Colorado, and I and other superintendents in the State 
are urging that the State not require those additional tests 
beyond, again, annual testing in third through tenth grade in 
literacy and math plus the science tests.
    The Chairman. Thank you.
    Senator Murray.
    Senator Murray. Mr. Henderson, since No Child Left Behind 
passed back in 2001, we have seen achievement gaps narrow for 
black and Latino students in both reading and math, according 
to the NAEP long-term trend data, and the dropout rate for 
those students has been cut in half. I wanted you to talk a 
little bit about what you saw as the role that the Elementary 
and Secondary Education Act's assessment and accountability 
provisions played in narrowing those achievement gaps and 
increasing graduation rates.
    Mr. Henderson. It's a very important question, Senator 
Murray. Thanks for asking it. We have seen that the Federal 
Government's mandated requirements under ESEA, under No Child 
Left Behind, indeed, have helped to push greater accountability 
on the part of State systems to address the particular needs of 
poor students and often students of color, students with 
disabilities.
    In the absence of those standards, we fear that there will 
be a rollback of requirements that are otherwise producing the 
positive results that you have identified. We have seen, for 
example, in the States that were given waivers under the 
previous law that, in many instances, those waivers have 
allowed those State systems to avoid the kind of meaningful 
accountability that actually drives the kind of change that 
you've talked about.
    Senator Alexander, you mentioned, of course, the 
proliferation of tests at the State and local level, and that 
may well be true. I think the Federal requirements that are in 
place have been so important in producing the kind of high-
school and career-ready graduation rates that are really 
important.
    I started school when Brown v. Board of Education was first 
decided. I can assure you that here in Washington, DC, there 
was a tremendous absence of the kind of consistent standards 
that helped to produce the kind of change that we have seen and 
that Senator Murray has cited. In the absence of ESEA 
standards, I am convinced that there will be the use of title I 
funds for students who do not otherwise qualify and a step back 
from the Federal Government's commitment to ensure the positive 
results that Senator Murray cited. It makes a difference.
    Senator Murray. Mr. Henderson, what improvements would you 
recommend as we reauthorize to make progress, to close that 
achievement gap?
    Mr. Henderson. Certainly, I think that you have many 
schools that lack the kind of financial equity and commitment 
to students that either their State constitution requires or 
their common sense for purposes of producing positive results 
would require. I cite Senator Roberts' Kansas, which now has a 
Supreme Court decision, of course, indicating that the State's 
funding of its schools is unconstitutional by Kansas' own 
constitutional requirement, and the result has been a 
significant lack of compliance on the part of the State and its 
ability to educate its students.
    Senator Casey, I've seen the same thing in Pennsylvania, 
where the failure of the previous Governor to invest in 
resources to address the problem, the shortcoming in funding of 
schools, has been significant. In my judgment, these standards 
help to drive the kind of investments that States must make in 
their educational system to ensure that their students do meet 
the challenges of today and prepare to meet the challenges of 
tomorrow.
    What I would hope is that there would be restrictions on 
the casual use of title I funding for students who are not 
eligible for title I and to require that those funds be used 
precisely for what they were intended, and that is to help the 
poorest of students.
    Senator Murray. Thank you.
    Mr. Lazar, you mentioned that your classroom, that is 
apparently watching you, is very diverse in terms of their 
backgrounds and learning styles and performances. How do high-
quality assessments help you cater to your students' unique 
needs?
    Mr. Lazar. At my school, we've designed a fairly robust 
assessment system to use to help us get better. We designed 
tasks that are accessible to a range of learners but that allow 
a range of performances. This includes something like when we 
were studying the Declaration of Independence earlier. I gave 
students adapted readings from two historians that would be 
accessible reading to all students, and then they had to write 
an argument about what the Declaration of Independence really 
means.
    That's a task that even somebody reading on a fourth grade 
level can say something intelligent about. My students who are 
doing better work now than I did, even a few years into 
college, are able to approach that task in a really 
sophisticated way. The key thing is how we use that 
information. We use that to inform what happens in our 
classrooms. We use that to inform how we professionally develop 
our teachers. Then we judge ourselves based on how students are 
doing in similar tasks later in the year.
    We're measuring growth so that we're not just happy with 
some kids making progress. We're looking at all of our 
students, even the ones who are doing amazingly well, and 
ensuring that we are continuing to push them, as well as the 
students who are struggling.
    Senator Murray. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Collins.

                      Statement of Senator Collins

    Senator Collins. Thank you, Mr. Chairman. First, Mr. 
Chairman and Ranking Member Senator Murray, let me tell you 
what a pleasure it is to return to this committee after an 
absence of many years. Some people would say that I was here 
when we crafted No Child Left Behind, but remember I was very 
young then.
    [Laughter.]
    In 2005, former Senator Olympia Snowe and I, in response to 
a lot of concerns about the law, put together an NCLB task 
force to evaluate the impact of the law in Maine. We had 
parents, teachers, educational specialists, superintendents, 
school board members, so it was really a broad group.
    The task force identified several unintended consequences 
of the law's requirement for annual tests. They included 
increased test anxiety for students, loss of teaching time, 
misinterpretation of the meaning of schools classified as 
failing when they didn't make adequate progress, and the 
scapegoating of certain subgroups like special education 
students and English language learner populations.
    Our task force concluded that States needed greater 
flexibility, and they recommended allowing States to measure 
student progress over grade spans, which has been mentioned by 
some of our witnesses today, and to track student growth over 
time. As we know, the current law measures schools grade by 
grade, essentially comparing this year's fourth graders with 
last year's fourth graders.
    The approach that was recommended by our task force, known 
as grade span testing, essentially is looking at the same 
students and seeing whether they have progressed, which 
intrigues me. Before the No Child Left Behind law was passed, 
that was the approach used in Maine, and it allowed Maine to 
track the progress of individual students and gave teachers 
greater flexibility.
    My question to each of you--and some of you have touched on 
this--is do you believe that giving States the flexibility to 
choose grade span testing, which is used now for science, would 
help resolve the concerns about over-testing that have been 
expressed? Or would the result be that we decrease 
accountability? If I could, I'll just start and go straight 
across with Dr. West.
    Mr. West. I actually think it would be very difficult under 
a grade span testing regime to develop a fair system of 
accountability because, actually, with grade span testing, it 
becomes more difficult to look at the progress that individual 
students make over time. You're looking at their performance at 
a single point in time, at the end point of their time in a 
given grade, you know, configuration, elementary, middle, or 
high school.
    At that point, you are focused on the level at which 
they're performing, which, as I said, is heavily driven by 
influences of factors outside of the school's control. Those 
types of systems end up having a punishing effect on schools 
serving low performing students and yielding very inaccurate 
information about the school's effectiveness.
    Senator Collins. Thank you.
    Mr. Leather.
    Mr. Leather. I would add that we really need consistency. 
We need to make sure that every student and every parent 
receives annual information on how their child is performing 
academically. We do not want to go back to a system where 
parents really have to guess on the off year how their student 
is doing--are they meeting academic and other goals--and 
whether their school is working to improve outcomes for all 
students.
    I would point you to some of the research that shows that 
if a year of ineffective learning occurs for a student--and 
there's lots of reasons why that could happen--the student 
falls behind, and their growth is really impeded in successive 
years. I think the more we keep track of how students are 
doing, the better off those students are going to be and the 
better off their parents are going to be in terms of their 
expectations.
    Mr. Boasberg. Thank you, and I would echo Professor West's 
comments and agree with you, Senator, on your basic premise on 
the importance of growth, the importance of measuring the same 
students as they grow from one year to the next, because that 
is what's most relevant. It's not how this year's fourth 
graders did against last year's fourth graders. It's how did 
those students do from one year to the next.
    You do need annual measurements in order to be able to see 
that growth from one year to the other, because to measure 
someone on how they did in fifth grade and then see again how 
they did in eighth grade, there is so much that intervenes to 
make that less worthwhile. That's equally important for high 
achieving kids as it is for low achieving kids.
    If you're the parent of a kid who is a year ahead of grade 
level, you don't just want to be told, ``Oh, that kid's at 
standard.'' That means that kid might have lost an entire year 
of learning. You want to see how much growth did that high 
achieving student make.
    Likewise, with a low achieving student, those students need 
to catch up. And just to say, ``Oh, they're still not at 
standard''--you want to know how much they have grown, how 
close have they gotten, are they on a trajectory, hopefully, 
within a short period of time, to get back on full track to be 
ready to graduate prepared for postsecondary. We do think 
without annual measurements, you simply can't measure growth in 
a meaningful way.
    Senator Collins. Mr. Chairman, I note that I'm over my 
time. Could I have the rest respond for the record, if you 
want?
    The Chairman. Yes, and let me give two answers to that. One 
is I appreciate you saying that, because if every Senator uses 
4\1/2\ minutes and then says, ``Now, what do you all think?'' 
we'll be here all afternoon.
    [Laughter.]
    It's been done before, right? We do want to know what you 
think. So, yes, please send us your thoughts.
    But I'd like to invite the other three witnesses--can you 
give a succinct answer and then supplement it later?
    Senator Collins. Thank you.
    Mr. Henderson. Mr. Chairman, thank you. I'll be very brief. 
I associate myself with the remarks of my colleagues who have 
already spoken about the importance of annual assessments as a 
way of determining progress. I would also mention there are 
collateral factors that affect the performance of students that 
we haven't talked about. Obviously, poverty is a huge issue for 
students who come to school under those circumstances.
    We also have teachers who have misaligned with their 
ability to really impart education. We need teachers who are 
well-trained to go to schools that most need their services and 
assistance. There are other factors that, obviously, affect 
student performance, including school discipline that often 
runs amuck in terms of the interests of students. I'd like to 
amplify that, and I will submit additional comments.
    The Chairman. Thank you, Mr. Henderson.
    Ms. Lee.
    Ms. Lee. Yes. This is assuming that these tests are able to 
measure what they purport to measure. I want to argue that 
teachers assess every day in multiple ways, and these 
standardized assessments that you speak of can only measure 
right or wrong type of questions, and the kinds of answers that 
we want our students to be able to solve are much more complex. 
To be able to quantify it, I think, is difficult.
    Another point is that in New York State, at least, these 
tests have changed from year to year. The cut scores have 
changed from year to year, which makes them flawed and invalid. 
I just wanted to put that out there.
    The Chairman. Mr. Lazar.
    Mr. Lazar. Senator Collins, I agree. What we do need to be 
focused on is growth, and not growth as to where this kid is in 
relation to where fourth graders are supposed to be, but where 
the student is compared to where they were. The thing I want us 
to be careful about is that it's the learning driving the 
assessment instead of the accountability driving the 
assessment.
    I think we do need to assess regularly. Like Ms. Lee said, 
we assess our kids every day. I do think parents need 
information about how schools are doing year to year. I don't 
think the Federal or State government needs accountability 
attached to yearly tests. I think those should be used to 
inform practice, and if we do need to have Federal and State 
accountability based on some sort of assessment, let's have 
that be as small and as little intrusion into real learning as 
possible.
    Senator Collins. Thank you.
    The Chairman. Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman, and I'm looking 
forward to working with you and Ranking Member Murray on this 
committee this year.
    The Federal Government provides billions of dollars every 
year to the States to support public education, and it's a lot 
of money. We should start with accountability, the 
accountability of the States that take this money. If the 
States are going to get Federal tax dollars to improve public 
education systems, then we need to make sure that those dollars 
are not being wasted, but that they're actually being used to 
improve education.
    One of the reasons that Republicans and Democrats came 
together to pass No Child Left Behind in the first place was 
because the Federal Government had gotten really good at 
shoveling tax dollars out the door but not very good at 
improving student achievement.
    There are a lot of problems with No Child Left Behind. 
According to the most recent National Assessment of Education 
Progress, over the past 12 years, both reading and math 
performance across the country has risen for all groups of 
students, poor children, wealthy children, urban children, 
rural children, minority children. They are all doing better. 
While we all agree that there need to be changes here, we need 
some basic accountability on the part of the States to make 
sure that these billions of dollars in tax money are actually 
buying us a better education for our children.
    Mr. Boasberg, you've reviewed the Republican draft proposal 
for reforming No Child Left Behind. Are you confident that the 
Republican draft proposal would ensure that the States who take 
the Federal dollars will be held accountable for improving 
student achievement?
    Mr. Boasberg. Thank you, and without speaking to details in 
the draft--that's obviously your prerogative--I do agree both 
as a taxpayer and as an educator that accountability is 
important, very important, and, again, accountability not in 
the blaming or punishment sense, but accountability in the 
sense of needing to make change, that when schools are failing 
and where kids aren't making the progress they need to, where 
they aren't graduating, there has to be accountability to make 
change.
    That change is very difficult. It's politically 
controversial. It's messy. It's sensitive. There's resistance 
to it. It's essential that change happens to close our 
achievement gaps and to give our kids who have been 
disadvantaged the opportunities that they deserve. I do believe 
that accountability is very important.
    Our system in Denver absolutely looks at student growth. It 
looks at disaggregated data. It also looks at important things 
like graduation rates, remediation rates in college, parent 
satisfaction--multiple measures. Some people have spoken on 
this panel about the importance of multiple measures that I 
agree with. But at the bottom, we do need to be accountable 
when kids aren't learning to make change.
    Senator Warren. As I read the Republican draft proposal, 
all a State would have to do to get Federal dollars is submit a 
plan with a bunch of promises with no proof that the promises 
are ever kept. The Department of Education would lose any 
meaningful tools to make sure that the States actually follow 
through on this.
    Mr. Henderson, you've worked hard to make sure that those 
children who face the greatest hurdles have real educational 
opportunities. Do you see anything in this proposal that would 
make sure that the States who take this money actually end up 
helping the kids who need it most?
    Mr. Henderson. Senator Warren, unfortunately, I do not. I 
think the bill now would allow--this draft would allow the 
States to repurpose title I funding to serve otherwise 
ineligible students and without any measureable accountability 
to ensure that students who are most in need get the support 
and resources they most deserve.
    Interestingly enough, your point about taxpayer 
accountability was just reinforced within the last several days 
by the George W. Bush Institute which issued a report under the 
authorship of Margaret Spellings that talks about the 
importance of annual accountability for purposes of ensuring 
that dollars and tax dollars, indeed, are well spent.
    From the standpoint of those who are concerned about the 
services provided, we think when you allow States to weaken 
standards--and we have seen, again, how States have used 
waivers to, in effect, create a de facto weakening of 
standards--we are deeply concerned that the interests of every 
student--but the students we most represent--will not be 
adequately serviced.
    Senator Warren. I understand the need for flexibility, but 
if the only principle here is that the States can do whatever 
they want, then they should raise their own taxes to pay for 
it. Throwing billions of Federal dollars at the States with no 
accountability for the States for how they spend taxpayer money 
is not what we were sent here to do.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    I didn't welcome Senator Collins to the committee, which I 
should. We're delighted to have her back. She and Senator 
Cassidy are the only two new members of the committee this 
year. And you're not really new, as you mentioned.
    Senator Roberts.

                      Statement of Senator Roberts

    Senator Roberts. Thank you, Mr. Chairman. No. 1, I would 
observe that we have flipped the seating arrangement here as a 
brand new start. The lights are a little brighter. The heat is 
a little warmer. You can see what the majority used to enjoy.
    [Laughter.]
    But, basically, I observe that the minority is to your 
right, which is a little bit confusing, and we, sir, are to 
your left, which is seldom. At any rate, I just thought I'd 
make that observation.
    I'd like to concentrate on the teachers, Jia Lee and 
Stephen Lazar. Thank you for your statements on behalf of 
teachers. Some years ago, way before Senator Collins, I was a 
teacher for 3 years. I worried about standard deviation. I had 
a principal who insisted in doing that. We finally had 
meaningful dialog, and I was free from that effort.
    I have no idea how I could have done what you are doing 
right now with teaching X number of months the way you want to 
teach and seeing results, and then 1 month being, quote, ``a 
dumb teacher.'' I think it was Jia who pointed out the mindless 
test preparation, et cetera. Thank you for your viewpoint.
    Mr. Chairman, thank you for holding this hearing on testing 
and accountability. I'm pleased we're looking into this issue. 
I want to let everybody know--the witnesses--and thank you all 
for coming--this is a working draft. This isn't set in stone. 
That's why we have you here. It isn't a Republican view or a 
Democrat view. It is a bipartisan view, and it is a working 
draft. I think that should be emphasized.
    I am concerned about the recent administration efforts to 
sidestep Congress on our congressional intent. There are a lot 
of strings attached to waivers to States. The waivers are not a 
waiver. They're only granted to States that agree to implement 
a preferred education process.
    Now, Kansas has created a statewide commission. By the way, 
our Governor and our State legislature will handle that issue 
with the courts. They have before. I'm sure they'll do it 
again. That, I think, was brought up by Mr. Henderson.
    But, at any rate, we created a statewide commission to 
develop and implement teacher and principal evaluations. It has 
been a comprehensive state-led approach to design a robust 
evaluation system. The Department of Education, I believe, is 
going beyond the statute in issuing conditioned waivers to 
force State adoption of policies.
    Back in August of last year, Kansas agreed to the 
Department of Education's prescriptive requirements. They were 
informed that their ESEA flexibility request was fully 
approved, and they would no longer be labeled a high-risk 
status. I think that's a pattern we've seen nationwide, and 
it's clear to me that the administration has tried to coerce 
States to implement something called Common Core.
    I introduced the Local Level Act to explicitly prohibit the 
Federal Government's role and involvement in that. My 
legislation would strictly forbid the Federal Government from 
intervening in a State's education standards and curriculum and 
assessments with the use of incentives, mandates, grants, 
waivers, or any form of manipulation.
    I appreciate the chairman's Every Child Ready for College 
and Career Act draft. It is going in the right direction, I 
believe, in reducing the Federal footprint but still providing 
accountability. I look forward to continuing to work with the 
chairman to, hopefully, include my language in the final draft.
    I just don't think Washington has any business dictating to 
States and school districts what is best for the students that 
they serve. My main objective for renewing and improving ESEA 
is to make commonsense changes to simplify the law and make it 
more flexible for States without sacrificing any 
accountability.
    The question I have, basically, is does continued reliance 
on annual testing best strike the right balance? Or what is the 
most effective pared back version of accountability that still 
ensures a quality education for all, as well as fiscal 
stewardship?
    Now, I've done exactly what the chairman said I would do, 
talk for 4 minutes and now 42 seconds. I'd like to ask Jia and 
Stephen if they would address that question.
    Stephen--or Jia, you go first.
    Ms. Lee. Sure. I definitely see the role of assessments at 
a larger level, but reviewing not at the State level. I do feel 
that the Federal role--in addressing Senator Warren's 
concerns--is to ensure that States are using tax dollars 
appropriately for public education. It hasn't happened in our 
State. Our State has not been held accountable to those Federal 
tax dollars.
    But what I do feel is that there needs to be a balance of 
communication. If you were to ask me what my vision is, it's to 
create alongside educators, alongside district administrators, 
a system of communication that involves much more comprehensive 
assessments and ways of communicating information besides a 
single metric that can be very flawed. I just wanted to put 
that out.
    Senator Roberts. Mr. Chairman, could I ask Stephen to 
summarize in 20 seconds or something like that?
    Mr. Lazar. I'll try to do less. We need better and more 
diverse assessments that are used primarily to help schools and 
teachers adopt and plan. We need to remove high stakes from 
those assessments. We then need to limit accountability through 
the use of grade span or representational sampling.
    Senator Roberts. I appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Lazar gets the award for succinctness 
today.
    Senator Bennet will be next, and then Senator Scott, if he 
is here, Senator Franken--well, let's just go to Senator Bennet 
and then we'll see who's here after that.
    Senator Bennet. Thank you, Mr. Chairman. I hope that wasn't 
as reluctant as it sounded.
    The Chairman. No.
    [Laughter.]
    Senator Bennet. I read last week--and others on the 
committee, I'm sure, did as well--that for the first time in 
the country's history, a majority of our public school children 
in this country are poor enough that they qualify for free and 
reduced lunch. That is a shameful situation that we find 
ourselves in, and when No Child Left Behind was passed, we 
couldn't say that. The majority of our children weren't that 
poor.
    They are today, and, in my view, that's why this discussion 
is so important, because the attempt of No Child Left Behind 
was to create a system of accountability that disaggregated 
data and showed us how kids were performing by income and also 
their ethnicity, and it's demonstrated the huge achievement gap 
that exists in this country.
    All of us have different policy issues that we focus on. In 
my mind, if you want to cure this problem of poverty in our 
country, the way to do that is by making sure people can read 
when they're in the first grade. That's the most important 
thing that we can do.
    Senator Collins made an excellent point, I thought, 
earlier, which was that No Child Left Behind really asked and 
answered the wrong question, which was how did this year's 
fourth graders do compared to last year's fourth graders. Not 
only did it ask the wrong question, an irrelevant question, if 
you're a fourth grader becoming a fifth grader, but then there 
was high stakes accountability tied to that. That meant that 
States and local school districts and schools were responding 
to the wrong question by attempting to make changes, which, in 
the end, didn't do much for our kids.
    The field has moved well beyond that. The people out in our 
communities and across the country have moved well beyond that. 
We're now asking and answering relevant questions rather than 
irrelevant questions. Part of that is because of waivers that 
we've been able to get.
    But I wonder, Superintendent Boasberg, whether you could 
describe to the committee how you've used student growth 
measures to drive change in the school district. How has it 
informed the district's policies with respect to choice? I 
think we would benefit from understanding that, because this is 
bigger than just what's happening in a single classroom 
someplace. Also, could you hit the important distinction 
between growth and status for the committee?
    Mr. Boasberg. Thank you. I think that is the fundamental 
question. The former law just used to look at the percentage of 
kids that are proficient or at grade level, and as Professor 
West mentioned, that's more likely to predict where kids start 
than how much they're learning in school.
    Where we have moved is looking at growth, which is how much 
progress does a student make from 1 year to the next. Again, 
that's equally important for high achieving students as it is 
for low achieving students. When you just measure status, i.e., 
are they proficient or are they at grade level, you're ignoring 
kids who are well above, and you're ignoring kids who are well 
below because it's unlikely their status will change from 1 
year to the next.
    But you want to see their growth. You want to see how much 
they are learning, and that's why the annual nature of 
assessments are so important. We do look first and foremost at 
growth, because, for example, we used to have schools where the 
students were relatively high status but their growth was low, 
and they coasted. They said, ``Look, X percent of our kids are 
at grade level. We're going great. Congratulate us.''
    But kids weren't really doing that well. They were going 
into those schools doing well, and they were stagnating, or 
they were slowing down. When we began to measure growth and to 
disaggregate growth based on race, ethnicity, students with 
disabilities, that has shown a real light on how kids were 
actually doing.
    Again, the important thing was not just to shine the light, 
but to say, ``What are we going to do differently?'' That's 
accountability. What are we going to change to see more growth?
    I also think the growth data is absolutely essential for 
parents as well, because parents, again, want to see how much 
their student is going to grow. Now, parents, of course--I 
think the first thing they should do in looking at schools is 
to visit schools and visit classrooms to see if they have the 
kind of teaching in those classrooms--the kind that Ms. Lee and 
Mr. Lazar talked about, this wonderfully rich and deep teaching 
around critical thinking.
    But it's also important, again, for parents to see the 
growth. We're very transparent about that, and that's 
published. Particularly, when you're in a district where 
parents do have choice, where you have charter schools and 
district-run schools, it's extraordinarily important that the 
community and parents get information about how much kids are 
growing.
    Again, if you have a system that just says X percent of 
kids are proficient, you set up a set of essentially more 
hazard, a disincentive to take kids who are lower performing, 
because somehow that'll show you have X percent that are not at 
standard. When you look at growth, you equally then have that 
obligation and incentive to serve all kids and serve all kids 
well.
    Therefore, particularly in an era of choice and 
accountability--for example, with charters, we have to make 
decisions about which charters to authorize, which charters to 
close. We've welcomed high performance charters. We've closed 
more low performing charters in Denver than the rest of the 
State has, combined, and that's really helped us. To encourage 
our growth as a district is, again, really to focus on the 
growth that schools are making from year to year and make sure 
that parents have that information about their kids and their 
schools.
    Senator Bennet. I'm out of time.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Thank you, Mr. Chairman.
    Thank you all for being here and sharing your knowledge and 
suggestions with us. I've got to admit that Senator Warren 
stimulated something in my mind, because I agree with her. 
Federal tax money should be held accountable.
    If we said to a State, ``OK. We're not going to take your 
tax money for education. We're going to let you keep it, and 
you figure out--you fund education,'' the first question I 
thought of was: How many States would take us up on that? The 
Federal Government gets out of my way. I get to decide how it's 
done.
    Really, the important question that came to my mind was: 
How would they do it differently than they do it today if, in 
fact, we got out of the way but we didn't penalize them 
financially but we put the burden on them? I throw that out to 
you just as a thought to go through.
    Here's my question, and it's extremely simple. I'm going to 
start at this end with Dr. West, and I'll end with Mr. Lazar, 
and it's a more simplified question than what Senator Collins 
asked. My kids, now adults, never tested well. It's probably 
genetic.
    [Laughter.]
    But they didn't test well. My question is this: Is it more 
important that we know what students know, or is it more 
important that we know students are learning?
    Dr. West.
    Mr. West. It's much more important if we're trying to think 
about the performance of the school system to focus on what 
students are learning, because that's what schools have more of 
an impact on. What students know at a given point in time is 
going to be heavily influenced by genetics, as you mentioned, 
perhaps, but by the family environment that they grew up in and 
a whole host of factors outside of the school's control. When 
we're thinking about accountability, it should be for student 
learning.
    Senator Burr. Mr. Leather.
    Mr. Leather. It's a conundrum, I think, to try to separate 
whether we need to know what a student knows versus whether 
they're learning. I don't see how you could go one way or the 
other. I think you need to know both. You need to know, in the 
end, if a student is ready to make use of knowledge----
    Senator Burr. Mr. Leather, do you only reward a student for 
what they know, or do you reward a student if they're learning? 
I mean, I go back to No Child Left Behind, and it hadn't rolled 
out exactly like I envisioned when I worked closely with the 
Bush administration. Average yearly progress--that's not 
necessarily what you know. That's whether you're learning. Now, 
I think this got hijacked somewhere to where everything is 
about what they know. That's what the annual test is.
    Mr. Boasberg.
    Mr. Boasberg. Sure. Again, I think those two are pretty 
linked. I think we emphasize how much students grow every year, 
how much they're learning. At the same time, that's to a 
standard. It's very important that our kids graduate from high 
school ready for college or for career. That is a standard, and 
it's a clear and articulate standard, and it's important that 
we do everything to help our students and prepare our students 
and to have accountability and transparency. Are we graduating 
kids where they're prepared to succeed in college and in 
today's knowledge-intensive economy?
    Senator Burr. Mr. Henderson.
    Mr. Henderson. It's an important philosophical question. It 
assumes that students basically begin on an even playing field. 
I mean, part of the concern I have about the way in which the 
question is framed is that students who are poor, students of 
color, students with disabilities, students who are not 
proficient in English are often not given the resources that 
they need. Only through these assessments are we able to 
demonstrate that the State has failed to meet either its own 
constitutional obligation under State constitutional law, or 
whether they have failed to make the kind of progress that 
would allow them to continue doing what they're doing without 
interventions of the kind that the law now would require.
    Part of the problem we have is that when States are given 
the kind of deference and the kind of latitude that they have, 
you see a weakening of standards. You see a failure to invest 
in communities most in need. You see a reinforcement of 
existing inequalities about how schools are funded. There is no 
way of reaching those problems because the State has no 
incentive to necessarily correct the problem other than to say, 
``Yes, the business community in the State wants to have a 
stronger graduating pool.''
    But leaders of the State are not held accountable by the 
failure to meet those standards unless the Federal Government 
steps in. I think the history of how the waivers have been used 
and how States have squirmed out of their responsibility 
reinforces that point.
    Senator Burr. Ms. Lee.
    Ms. Lee. Thank you. I want to start by saying, yes, I know 
many students who are brilliant but are poor test takers, and 
they go on to become brilliant people and go on to do amazing 
things. The test alone does not define their value nor their 
contributions to society. I want to emphasize the fact that 
these tests--again, they narrowly measure. They are narrow 
measurers.
    I can test my students on basic skills and tell you--
quantify that information, such as multiplication facts, 
spelling, things like that. When it comes to the kind of 
knowledge that we're talking about, that is not easily 
quantifiable because it's limitless. There has to be a better 
way to assess students, to share information that goes beyond 
the realm of standardized assessments.
    Senator Burr. Mr. Lazar.
    Mr. Lazar. My job is students learning. For my students, I 
care what they know and can do. I think schools should be 
accountable for students learning, but I think students need to 
be held accountable for what they know and can do, which is 
exactly the model we use in Consortium.
    Students at the end of high school need to demonstrate 
mastery on four different performance tasks. We could do a lot 
better job of helping students prepare for those and truly 
learning if we got rid of this notion that a kid who enters in 
ninth grade needs to be done 4 years later.
    Senator Burr. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Burr.
    Senator Franken and then Senator Isakson.

                      Statement of Senator Franken

    Senator Franken. I want to thank the Chairman and the 
Ranking Member for this great group of witnesses and where 
we're getting.
    Mr. Boasberg, I think you, from Senator Bennet's 
questioning, hit on this proficiency versus growth. It's a 
great topic, because a sixth grade teacher who brings a kid 
from a third grade level of reading to a fifth grade level of 
reading is a hero. Under the proficiency measure, they're a 
goat.
    In Minnesota, we had a thing--you touched on this--a race 
to the middle. They would focus on the kid just above 
proficiency and just below proficiency to get that percentage 
above proficiency, and the kid up on the top would be ignored--
and, Mr. Lazar, you hit on this--and the kid at the bottom 
would be ignored.
    That's why growth is so important. To me, to do growth, 
you've got to measure every year. Now, I also think you should 
do it in real time, all the assessments in real time. That's 
why I like computer adaptive tests so the teacher can use the 
results to inform their instruction.
    The question in the nub, I think, that we're getting to is 
what kind of assessments you're making. Because the assessments 
that measure these fine little discreet skills--that's what 
you're going to teach to. That creates a curriculum that is 
focusing on the wrong thing. If we can create assessments that 
are measuring what Ms. Lee and Mr. Lazar want to measure, then 
we have the answer to our question.
    What I'm saying is when I go to talk to employers in 
Minnesota, they want people who can do critical thinking. They 
want people who can work in teams. We have to hold schools 
accountable, but we also have to make sure that they're 
accountable for making citizens and people who can think 
critically and really learn, and that's what everybody on this 
panel wants.
    Mr. Boasberg, I just want you to run with it. Anyone else 
can run with what I just said.
    Mr. Boasberg. Great. Thank you, Senator. I think you put it 
very, very well about how important it is to care about growth 
for all kids and not just kids on a cusp of a particular line--
--
    Senator Franken. The thing I like about the law--it was 
called No Child Left Behind. That's the thing I liked the most 
about it.
    [Laughter.]
    Mr. Boasberg. Also, I think one of the things we're very 
much looking forward to is that the new generation of 
assessments, which will be introduced this spring, is a much 
more sophisticated set of assessments. It is much more around 
complex thinking, problem solving. It's not about rote 
memorization. If you're someone who's teaching rote 
memorization, your kids aren't going to do well. It's about the 
kinds of skills that we do care about for our universities and 
for our economy.
    At the same time, I think sometimes we try and create too 
much--this one vessel or this once a year assessment to hold 
everything. It can't. I think you want a good assessment to 
measure progress in literacy and math at the level now of 
sophistication and challenge that we're seeing in the 
assessments that will be introduced this year, and at the same 
time to welcome multiple measures--the performance-based 
assessments that Mr. Lazar and Mr. Leather talked about--to be 
able to judge--as Ms. Lee said, no one assessment is going to 
be able to judge everything.
    This isn't an either/or. To be able to have common 
statewide measures, sophisticated measures, of student progress 
in literacy or math is essential so you can see how kids are 
doing from district to district. You can see where are the best 
schools in the State working with English language learners.
    If you have completely different measurements from school 
to school or district to district, you can't capture best 
practice. You can't truly be able to understand where the most 
progress is being made.
    But, again, I do think those should be short. I'd like to 
keep them to no more than 4 hours a year, but then welcome 
other more performance-based assessments, and all of that 
should be part and parcel of what a teacher looks at, what a 
school looks at, what a district should look at, and, 
potentially, if a State can get to that level, what a State 
looks at as well.
    Senator Franken. Anybody else want to weigh in?
    Mr. Lazar, just on your kind of performance criteria, don't 
you agree that if you're going to hold schools accountable, you 
have to have something that you can objectively look at? Can 
you design a computer adaptive test, say, where you're filling 
in circles? Can you design something that gets more at the kind 
of thing you want to measure?
    Mr. Lazar. You can. It takes more time, and it's more 
expensive. I've worked on a lot of assessment development, both 
at the city level--I did some work on doing prototype tasks for 
Smarter Balance. It's a lot of hard work. It takes a lot of 
time and a lot of expertise to design those.
    I think if we were going to identify a role for the Federal 
Government in education, it's to put funds and put resources 
behind test development and assessment development, do a range 
of them, and make them available to schools to choose. The type 
of work we do in my school--we have a group of wonderful 
teachers who are committed to doing it, and we've arranged the 
time in our program to be able to do that in large part through 
the PROSE initiative in New York City.
    But what we do actually isn't something that all schools 
can start doing tomorrow. If these assessments were out there 
and schools could choose the ones that fit their curricular 
needs, we're in good shape.
    Senator Franken. Thank you.
    The Chairman. Thank you, Mr. Lazar.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman, and thanks to 
Ranking Member Murray for having what I think is a very 
important hearing. I was listening to Michael Bennet talk a 
minute ago. I happen to be one of the two remaining Members of 
Congress that actually wrote No Child Left Behind. Everybody 
else has gone on to bigger and better things.
    We would all tell you the following. The last night when 
the conference committee finished meeting and Ted Kennedy and I 
and George Miller, Fred Upton, John Boehner were in the 
basement of the Capitol and we signed off on the conference 
committee report, we almost said in unison,

          ``You know, if this works, we're going to be in 
        trouble in 6 years, because it'll be impossible for 
        schools to maintain AYP because it's going to get 
        harder and harder and harder to do.''

    If we had done a reauthorization 7 years ago, a lot of the 
problems we know there are today wouldn't be going on because 
we would have corrected that. That's No. 1.
    No. 2, and this is not a defensive speech I'm making here, 
but it is for educational purposes. Assessment was very 
important, disaggregation was more important, and focusing on 
the individual student was most important, and No Child Left 
Behind did that. No child flew under the radar screen. 
Everybody got in a disaggregated group by race or ethnicity or 
language or speech or disability or whatever.
    We did something--we'd always amalgamated everybody and 
averaged them out and said our test of basic skills says we're 
doing X. Well, that wasn't anything good for little Johnny who 
couldn't read. I hate that reference, but I guess I have to use 
it.
    [Laughter.]
    But we need little Johnny involved equally as well, too. I 
have a question for Ms. Lee, or probably a little bit of a 
statement.
    I think you--and I didn't get to hear your testimony, and I 
apologize. In the last attempt--which I commend the Chairman on 
doing what he did--where we almost got there on a 
reauthorization and it fell apart, I fought very hard to allow 
for alternative assessment for special needs children.
    To take a standard test for a disaggregated group and make 
a special needs student take it, when you've got psycho 
evaluations, you've got physical disabilities, you've got 
cognitive disabilities, you've got connective disabilities--
it's just impossible to have a one-size-fits-all assessment. 
I've always felt that the teacher was best--and the teacher and 
the parent and the IEP were best to decide what kind of 
assessment the child ought to have. I would like for you to 
comment on that.
    Ms. Lee. Yes, I completely agree. As a special education 
teacher----
    Senator Isakson. Everybody make note of this answer, now.
    [Laughter.]
    Ms. Lee. I actually started teaching the first year of 
NCLB. I've seen firsthand--I actually started teaching in what 
was called the high school for students who were at risk, 
special education district in New York City. What I found was 
that you're right. No assessment fits all, including all 
students.
    What I would have to do in my assessments is diversify. 
Right? What I know about my students--I assess them, again, sit 
alongside--Latin root--get to know them and who they are, their 
abilities, set very high standards, work with the parents and 
the team. It's not just me. It was related service providers.
    You have experts and specialists coming in, and we work 
together as a team to develop assessments to determine 
students--where they were, and where we wanted--and to set 
goals for them. That work has continued, and I feel as though, 
again, to echo Steve Lazar, that Federal Government does have a 
role in ensuring that this is made possible at the States.
    Senator Isakson. One thing I learned as--I'll get to you in 
just 1 second. One thing I learned as State board chairman in 
Georgia is that if your testing is not aligned with your 
curriculum, you're never going to get good data.
    Ms. Lee. Right.
    Senator Isakson. We had a big problem in NCLB, because to 
align a test that we required with a curriculum that was 
national would blow up in our face, because nobody wanted a 
Colorado set of curriculum to apply to a Georgia student any 
more than Colorado didn't want a Georgia--so what we did is we 
did a random sample--NAEP--to try and assess the integrity--
whatever assessment they were using.
    But I think one of the things the Federal Government could 
do to help the schools out is give them the excuse that we're 
making them do it, but make sure the curriculum and the 
alignment of testing, whatever assessment model you use, are in 
line. If you do that, then you really do find out what the 
student is learning.
    I know a lot of people will say, ``Well, that's teaching to 
the test.'' Well, that's what education is all about. If you 
teach a subject and you test what the student was taught, 
that's curriculum alignment, and then you'll get a true measure 
of how much they achieved.
    Mr. Henderson, you wanted to speak?
    Mr. Henderson. Yes, Senator. Thank you. I think mainstream 
assessment means that students are more likely to have access 
to mainstream curriculum, and I think one of the principles 
that the communities representing students with disabilities 
have said is that the only exemption in the regulation is for 
students with the most severe cognitive disabilities.
    One of the concerns we have is that you see frequently that 
students are misclassified as having emotional disturbance 
disabilities or being intellectually disabled, and those labels 
frequently apply to students of color. They are then taken out 
of mainstream curriculum, given, inconsistent with the 
requirement of the law, access to less rigorous forms of 
academic accomplishment, and the results have been disastrous 
for many of those communities.
    I think there is a real concern--certainly among students 
with disabilities--representing persons with disabilities, that 
they not be taken out needlessly from mainstream curricula 
offerings. That doesn't have anything to do with the kind of 
assessment that States might develop.
    I completely agree with Mr. Lazar. There should be a more 
sophisticated form of assessment to complement and provide the 
kinds of insights that these wonderful teachers have asked for. 
That is not inconsistent with a requirement of an annual 
assessment that is used to really get diagnostic assessments of 
how communities are doing that might otherwise be left behind 
unless you have a uniform standard and application.
    Senator Isakson. My time is up, but thank you both for the 
response.
    Mr. Chairman, thank you for holding this hearing.
    The Chairman. Thank you, Senator Isakson.
    Now, we have Senator Baldwin, Senator Casey, Senator 
Whitehouse, Senator Murphy, and--unless some random Republican 
wanders into the room--and there should be time for all of you 
to have a full 5 minutes, and we'll be close to the noon hour 
when we want to conclude the hearing.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman, and I am very 
grateful to you and the Ranking Member for getting us off to a 
great start with a bipartisan dialog on how we can best address 
the shortcomings of the No Child Left Behind law. I'm hopeful 
that we can find a thoughtful path forward to fixing this law 
for all students, parents, teachers, administrators, and 
policymakers. We need this information, also.
    This is a great panel. Thank you to the witnesses.
    A well-designed standardized test is one important tool 
among many that can help all of the stakeholders I just listed 
understand how well individual students are doing as well as 
how our Nation's schools are serving all of our Nation's 
children. As such, we should know if the tests given, those 
required by Federal law as well as those that are required by 
State and local districts, are of high quality and aligned to 
States' learning standards.
    We should also have a clear idea of how much classroom time 
is spent on preparing for and taking the standardized tests as 
opposed to instruction. In preparation for this very debate, I 
introduced the SMART Act along with Representative Suzanne 
Bonamici in the House of Representatives and Senator Murray and 
others here in the Senate.
    The SMART Act is designed to update a specific Federal 
grant program that already goes to States every year for 
assessment and development and implementation. It will allow 
States and districts to audit their assessment systems and 
reduce unnecessary and duplicative State and local tests with 
the design of freeing up more time for teaching and learning.
    I think this legislation presents a commonsense approach to 
help reduce unnecessary testing, which is why it has widespread 
support from our Nation's largest teachers union and other 
education reform groups. I'd like to turn to our panelists for 
their perspectives as well.
    Particularly, I'd like to ask both Dr. West and Mr. 
Boasberg, because you've referenced the importance of these 
sort of audits--understanding what's truly happening across the 
country. Can you talk about the importance of States and 
districts auditing their assessment systems and how such audits 
could take place at the State and local level?
    Why don't I start with you, Dr. West, and then go to Mr. 
Boasberg.
    Mr. West. Sure. I have not reviewed your legislative 
proposal in detail.
    Senator Baldwin. Just in general. Don't worry.
    Mr. West. In general, I think it's absolutely critical that 
State and local education officials have a good idea of the 
role that testing is playing, the amount of testing, and the 
quality of those tests as they try to understand how districts 
are trying to improve student learning.
    Senator Baldwin. Didn't you testify that that was sort of 
lacking at this point, that we have----
    Mr. West. Absolutely. We have very few systematic sources 
of evidence on this, and there's often a lot of confusion at 
the school building level, I have found in my own experience, 
about what's being assessed for what purpose.
    There are a lot of frustrations among teachers about a lack 
of alignment between a given interim assessment program, that 
is, tests that they administer to students over the course of 
the year to see how they're doing--a lack of alignment between 
those assessments and the schedule of the curriculum, 
essentially, the district scope and sequence that they're 
required to teach. If those aren't lined up, then you're 
getting useless information out of the interim assessments.
    There are huge potential gains from getting a better handle 
on this. I think it makes sense to encourage States and 
districts to do it. I would be cautious about the Federal 
Government trying to say--direct States and districts to test 
less. As I said, we don't know the optimal amount.
    My understanding of what's going on in New Hampshire is 
that as they move to a more competency-based model, they may be 
testing more often, using higher quality assessments over the 
course of the year. That might look bad in some audit or the 
premises that we're testing too much and we need to get that 
down. I would be cautious about that type of heavy-handed 
approach.
    Senator Baldwin. Mr. Boasberg.
    Mr. Boasberg. Thank you. I think Professor West says it 
very well. I do think it's important that States and districts 
be very transparent about what is required. We, in our State, 
have a committee that is doing just that, and that committee is 
making a series of recommendations to the legislature to reduce 
some of the State mandated testing that's completely--has 
nothing to do with No Child Left Behind. We, as a district, 
also published exactly what we do and what we don't do.
    I do think there is also a balance of exactly what the 
Federal Government says in terms of how much reporting, exactly 
how things are reported. I think, as Mr. Lazar and Ms. Lee 
said, our teachers assess our kids in some way every day. That 
could be a little quiz. That could be a check for 
understanding. That could be an exit ticket. That could be 
daily. That could be weekly.
    Boy, there's nothing that I would dread more than our 
teachers in some compliance exercise having to classify and 
record every single thing that could be somehow classified as 
an assessment or test of student progress or student learning.
    The Chairman. Thank you, Senator Baldwin.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman.
    I want to thank the panel for being here today and for your 
testimony, especially giving us firsthand information and 
experience from the trenches where a lot of you work.
    I wanted to focus on a particular question for Mr. 
Henderson. I wanted to commend him and others who talked about 
the broader context. This is a hearing about No Child Left 
Behind and Elementary and Secondary Education. At its core, 
because of what undergirds those policies and those strategies, 
it's also a hearing about child poverty, and it's also a 
hearing about other major challenges facing children.
    Some of the numbers, just by way of a background--some of 
the numbers on childhood poverty are really bone chilling. 
There's a report from about a year ago--and I'm sure they'll 
update it this January or soon--from the OECD, the Organization 
for Economic Cooperation and Development. They ranked the top 
20 countries on a whole range of areas. One of them is on child 
poverty.
    Of the top 20 in the world, we are fifth from the worst. 
Our child poverty rate--this is a 2010 number--it'll be 
updated--21.2 percent of children in the United States of 
America live in poverty. We are just a little better than Spain 
and Italy, and we're not too far off from Mexico and Turkey by 
way of example.
    If you update it, the Annie Casey--no relation to me--the 
great organization that tracks data on children--Annie Casey 
Foundation says that that childhood poverty number in 2012 was 
even higher. It goes to 23 percent. It puts us ahead of Chile. 
By that ranking, we're fourth from the worst, not fifth.
    When you look at that data, and you look at some of the 
data on progress that's been made--and some of it can be 
attributed to Federal policy--but when you step back and look 
at all these issues, what we have not done for our kids is 
really a national, and I would say, bipartisan failure.
    After World War II, we had the GI bill. That was a good 
idea. We did a lot of things that were smart at that time, but 
we also had, for Europe, a Marshall Plan. We've never, ever had 
anything even approaching a Marshall Plan for our kids. That's 
the predicate, and I think that is kind of the background.
    But I want to be much more focused, Mr. Henderson, on the 
question of children with disabilities. You mentioned the 
concern you have about treating them differently as it relates 
to some of the assessment that we undertake. One piece of 
data--and I just want to have you in the remaining time walk 
through your reasons--is that we've got about 6 million 
students in the country with disabilities, educated in public 
schools, most of whom spend their day learning alongside other 
students.
    According to the National Center for Education Statistics, 
90 percent, 90 percent of students with disabilities do not 
have intellectual or cognitive disabilities that would limit 
them. You're talking about 10 percent of children with 
disabilities are in the much more severe category.
    Mr. Henderson, what's your basic concern about where we are 
now and where we could be if the draft that's on the table now 
were to be enacted?
    Mr. Henderson. Senator Casey, thank you for your question, 
and thank you for putting your question in the broader context 
of the totality of circumstances that students in poverty, 
students with various disabilities will face in States that are 
making policy choices about where to make investments. Let me 
say, as Senator Bennet said, investments in early childhood 
education pay big dividends, but States often don't require 
that.
    You also recognize that while there may be a cap on 
ensuring that only the students with the most severe cognitive 
disabilities are classified as such, schools now will use 
various methods to allow more students to be classified as 
having disabilities for purposes of avoiding the kind of 
rigorous adherence to standards that we would like.
    There's about 6.4 million kids with disabilities in the 
country. What we have found--I mean, obviously, those living in 
poverty would have a huge problem. What we have found from the 
draft that we have seen--and, by the way, I'm drawing this from 
a Council on Parents, Attorneys, and Advocates representing 
persons with disabilities and from organizations representing 
persons with disabilities within the Leadership Conference.
    They have really stressed the importance of trying to 
adhere to standards, because what they have seen is that 
students with disabilities are often classified as proficient, 
because they have somehow met the alternative achievement 
standard and have somehow been exempted from the more rigorous 
mainstream standard that would be required under existing law.
    That, for us, is a huge problem. When you add to the fact 
that States now, because of budgets, are choosing not to invest 
in public education in the same way--quite frankly, sir, that's 
what happened in Pennsylvania over the last several years, 
creating huge problems, particularly for kids with 
disabilities. Our view is that States will choose to really 
make cuts where the voices of the advocacy community are 
perhaps the weakest.
    Unfortunately, that sometimes applies to our students with 
disabilities. They are often in poverty themselves, and they 
lack the kind of strong advocacy network, aside from the 
organizations that I've identified here, that can really 
represent their interest.
    One last point----
    Senator Casey. We're over time.
    Mr. Henderson. I'm sorry. The New American Foundation 
looked at 16 States that----
    The Chairman. We're running short on time, but conclude 
your remarks. Go ahead, Mr. Henderson.
    Mr. Henderson. I will. Thank you, sir. I appreciate it. 
Four thousand-four hundred schools that have been previously 
established for purposes of intervention were largely ignored 
under those States once the waivers have been given. That is 
the reality of what we face. Thank you, sir.
    Senator Casey. Thank you very much.
    The Chairman. Thank you, Mr. Henderson and Senator Casey.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman.
    My experience with the education universe is that there are 
really two worlds in it. One is a world of contractors and 
consultants and academics and experts and plenty of officials 
at the Federal, State, and local level. The other is a world of 
principals and classroom teachers who are actually providing 
education to students.
    What I'm hearing from my principals' and teachers' world is 
that the footprint of that first world has become way too big 
in their lives, to the point where it's inhibiting their 
ability to actually do the jobs that they're entrusted to do. I 
understand that there are lots of concerns--and I share those 
concerns--about making sure that the benefit of education is 
spread evenly across the children of this country and that 
people who don't have a voice don't also lose out on their 
chance to join the ranks of economic success where they will 
have more of a voice.
    But I went through the PARCC tests a week ago for 
mathematics and for something that they call English language 
arts--it's off to a pretty bad start if that's what you have to 
call it--and I wasn't all that impressed with those questions 
and with those tests. I didn't see test questions that couldn't 
have been integrated in a regular test that was given by 
regular teachers in the ordinary course of teaching and 
assessing their students.
    To me, it's pretty clear that these tests are designed to 
test the school and not the student. When it first started up 
in Rhode Island, the timing of the reporting of the results 
that the contractor assumed was such that the teacher in the 
coming year wouldn't even have the information. Clearly, the 
next year's teacher was not the focus of this effort.
    The scheduling and the preparation for this is important, 
because kids are not stupid, and they know the difference 
between a test that's going to affect their grade and a test 
that's not going to affect their grade. The school has to go 
through huge heroic efforts to try to get them interested and 
prepared for a test that they know they're not going to be 
personally graded on or responsible for the outcome of.
    Then kids have scheduling problems. They can't all get them 
in at once. Many schools in Rhode Island simply don't have the 
electronic bandwidth for a class to take the test at once. It's 
not one test. It's three tests. You can't teach the other kids 
while the other kids are in the test.
    We have to solve this problem. It is an efficiency problem. 
It is a problem of simply being smart about gathering 
information. I'm really concerned about this, and I'm saying 
this at this point to invite conversation with my colleagues as 
we go forward.
    The superstructure of education supervision I'm not sure 
passes the test of being worth all the expense and all the 
trouble. It's very discouraging to teachers in Rhode Island who 
have talked to me. They hear about the Race to the Top money 
that comes in to the State, and the State gets a big grant, and 
everybody has a press conference, and it's like the rain 
falling over the desert, where the rain comes pouring out of 
the clouds, but by the time you're actually at the desert 
floor, not a raindrop falls. It's all been absorbed in between. 
I have never had a teacher say to me, ``Boy, Race to the Top 
gave me just what I need in terms of books or a white board or 
something that I can use to teach the kids.''
    I think we've got to be very careful about distinguishing 
the importance of the purpose of some of this oversight and not 
allow the importance of that purpose to allow the oversight to 
be conducted in such an inefficient, wasteful, clumsy way that 
the people who we really trust with our students' education, 
the people who are in the classroom with them, are looking back 
at us and saying, ``Stop. Help. I can't deal with this. You are 
inhibiting my ability to teach.''
    I think that damage in the classroom falls just as hard on 
the communities that are having difficulty getting their fair 
share of education as it does anywhere else. I think we really 
need to grapple with that in this committee.
    I have basically used all my time with that set of remarks. 
It was less in the manner of a question and more in the manner 
of an invitation to my colleagues to continue this discussion 
and to let you know what I think is important as we go forward. 
You have 2 seconds. No, you don't. One, zero--gone.
    The Chairman. Thank you, Senator Whitehouse, and the 
invitation is accepted. I think we need to have lots of 
discussions about this, and not all these discussions, I'm 
discovering as I talk, fall down in predictable ways. That was 
very helpful. Thank you.
    Now, our wrap-up with Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you, Mr. Chairman. Thank you very 
much for convening a really well-balanced and thoughtful 
hearing.
    I got the chance to read almost all of your testimony, 
although I wasn't here in person.
    I came to Congress as a vocal opponent and critic of No 
Child Left Behind for a lot of the reasons that Senator 
Whitehouse enunciated, but also because I come from a family of 
educators. My mother was a wonderful elementary school teacher, 
and then an English as a second language teacher. She walked 
away from teaching, frankly, before she thought she was going 
to in part because she ended up spending a lot more time on 
bureaucracy and a lot less time on teaching, and that's not 
what she went into it for.
    But one of the first meetings I had when I got here as a 
freshman Member of Congress was with the Children's Defense 
Fund. They came in because they had heard that I had been a 
real active critic of No Child Left Behind.
    They wanted to just present the case for me as to what was 
happening in other parts of the country, maybe not Connecticut, 
prior to No Child Left Behind with respect to children with 
disabilities, to explain to me that there were places in 
which--largely because of the cost pressures on local school 
districts to provide a full complement of educational services 
for kids with disabilities--that many of them were spending 
part of their week with the janitor in technical education and 
were being largely ignored.
    While they had critiques of the law, as I did, their point 
was that it's important for us not to abandon the gains that 
we've made with respect to children with learning disabilities 
who had maybe in some places not been getting a fair shot 
before. I wanted to just build on a question that Senator Casey 
raised, and maybe I'll direct it to my friend, Dr. West. We 
were college classmates, and I'm pleased that he's here today.
    Senator Casey referenced some data suggesting the enormity 
of students with disabilities who were in special education 
programs who do have the ability to take these tests. Yet the 
fear is that if you move to alternative assessments and give 
school districts the ability to move broad swaths of children 
with learning disabilities out from under the test, you lose 
the pressure to provide the appropriate education, but you 
also, as you, I think, cautioned more generally in your 
comments, lose the ability for parents of children with 
disabilities to really figure out where their children are 
going to succeed and where they aren't.
    Even if you preserve annual statewide testing to give broad 
measurements for schools for parents, if you exempt it all--big 
portions of children who had learning disabilities--those 
parents aren't helped by the overall assessments of the school. 
I'd love to hear what the data shows about what happens when we 
require that the majority of children, except for those with 
severe cognitive disabilities, take the tests and what that 
might mean for accountability moving forward.
    Mr. West. As Senator Casey mentioned, the vast majority of 
students with disabilities do not have intellectual 
disabilities. They should be able to reach the same standards 
with appropriate modifications to the assessments that they're 
given.
    The second point I would make is that there has to be some 
form of a cap on the number of students who are allowed to take 
those alternative assessments. I'm not sure that the 1 percent 
cap that was in the No Child Left Behind legislation is exactly 
the right number. I'm not an expert on the education of 
students with disabilities.
    But one thing we know from the study of accountability 
policies and how our schools respond to them more generally is 
that some schools will find a way to game the system. They 
might reclassify students as being eligible for special 
education if that exempts them from the accountable pool of 
students in order to avoid being sanctioned. There needs to be 
some mechanism in an accountability policy to account for that 
dynamic.
    One of the concerns--there also needs to be, if there's a 
cap, some degree of flexibility to allow for natural variation 
in the share of students at a given school or in a given 
district that might actually be appropriately excluded from the 
standard assessment. I think those policies have been a bit 
more rigid than they actually should be. There needs to be some 
mechanism, and I'm not the one to tell you the details of how 
to do it.
    Senator Murphy. Thank you, Dr. West. I'd commend to the 
committee a study which suggest that, on average, you're 
talking about half a percentage of kids who don't have the 
ability to take those tests. But I think you're right. There 
are going to be variations. I look forward to working with the 
chairman and the Ranking Member on this issue moving forward.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    I'll ask Senator Murray if she has any closing remarks.
    Senator Murray. I would just say that there is tremendous 
interest on our side of the aisle in fixing the No Child Left 
Behind law to really make sure that in this country we really 
do make sure that every child, no matter where they live or who 
their parents are or how much money they have, has the 
opportunity of the American dream of a good education. That is 
the equalizer that I think is so important for our country and 
will allow all of our young people to be able to grow up and 
have a job and support all of us and be competitive in a global 
marketplace. It's a huge, huge goal.
    But I think there is tremendous interest here. We want to 
work with you on a bipartisan basis to move forward on this 
bill, and I really want to thank everybody who participated 
today.
    The Chairman. Thank you. This is a good beginning. I've 
learned a lot from the witnesses. I like the exceptional 
variety we had of points of view. I thank the staff for their 
work on coming up with that. I think the Senators--you could 
see the large number of Senators who came today and who had 
thoughtful comments.
    For those who came and couldn't get in the hearing room, 
we'll do our best to have a larger hearing room for our next 
hearing, which will be next Tuesday at 10 a.m., and it will be 
about fixing No Child Left Behind, supporting teachers and 
school leaders. We look forward to that.
    I'd like to invite the witnesses--if there's something 
today that you wanted to say that you didn't get to say, we'd 
like to hear it. If you could let us hear it, especially if you 
could do it within the next 10 days, that would be very 
helpful. We would welcome it.
    To the Senators, I would say if you have additional 
questions, please ask them. For example, Senator Baldwin raised 
the question of how we put the spotlight on whether it's the 
States and local governments who are coming up with all these 
extra tests. Senator Bennet asked the same question.
    Senator Murray and I have written to State and local school 
districts, trying to identify the number of tests. If you have 
an idea about that, on Senator Baldwin's effort, we would 
appreciate it.
    I'm going to send you a question and ask: Do high stakes 
discourage multiple assessments? I would ask that question. 
Then I would like to invite Mr. Lazar to followup his 
suggestion that one area where we might provide more funding is 
in developing better assessments. One of the dangers is that 
whenever the Federal Government does that, it likes to put its 
sticky fingers on exactly what to do and who must do it. Your 
comments on that or from anybody would be helpful.
    Senator Whitehouse. Mr. Chairman.
    The Chairman. Yes.
    Senator Whitehouse. I'm interested in taking advantage of 
that opportunity and particularly because none of the witnesses 
had a chance to comment on what I said. Could you let me know 
by what time you would like our additional questions. What's my 
deadline?
    The Chairman. What's convenient for you?
    Senator Whitehouse. End of the week.
    The Chairman. OK. That would be great.
    We'll work with you, and I think the sooner we get the 
questions out, the sooner we'll get good answers back, and 
we'll see how this goes. I'll work with Senator Murray. It may 
be that we have roundtable discussions rather than hearings at 
some point, where we can sit around and actually have 
conversations about particular points and not be limited to 5 
minutes of questions. There are different ways to go about 
this.
    If you could let us know within a week or sooner, Sheldon, 
that would be a big help, and then we'll go to work on that. 
Usually, we say at the end of close of business this Friday. 
That's what we usually say, I'm told. I'm just learning. If you 
can do it by the close of business Friday, that would be 
helpful.
    The hearing record will be open for 10 days. We thank you 
for being here today. Are there any other outbursts or comments 
anyone wants to make?
    Thank you to the witnesses. Thank you very much for coming. 
The hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

      Response to Questions of Senator Murkowski, Senator Bennet 
            and Senator Whitehouse by Martin R. West, Ph.D.
                           senator murkowski
    Question 1. In your written testimony, you stated that a 2014 study 
found a strong positive correlation between assessment and identifying 
effective teachers and that being assigned to an effective teacher has 
a strong positive correlation to adult success. Do you then recommend 
that Congress maintain the requirement under NCLB waivers that States 
link teacher evaluations with test score results?
    Answer 1. I do not recommend that Congress maintain the requirement 
under NCLB waivers that States link teacher evaluations with test score 
results. Instead, I recommend that States be explicitly permitted to 
use title II funds in order to design and implement such evaluation 
systems.
    A large body of research conducted over the past two decades 
demonstrates that teacher effectiveness is the most important school-
based factor influencing student achievement as measured by State 
tests. The 2014 study referenced in my testimony, conducted by Harvard 
economist Raj Chetty and colleagues, found that being assigned to a 
teacher who is very effective in raising students' test scores also 
leads to large gains in important long-term outcomes, such as the 
likelihood of attending college and adult earnings. This research 
suggests that information on a teachers' effectiveness in raising test 
scores is useful in identifying those teachers who are most likely to 
make a positive difference. In other words, this research does 
strengthen the case for developing new systems of teacher evaluation 
that incorporate information on how much teachers contribute to the 
growth in their students' test scores from 1 year to the next.
    At the same time, it is important to emphasize that we have very 
little evidence on how best to design and implement such systems and on 
their effectiveness in improving teacher effectiveness. It is possible 
that they could have unintended consequences, particularly if 
implemented by States and districts that have not developed adequate 
capacity to do so well and have limited flexibility to adapt them to 
meet local needs. Allowing States to use Federal funds to develop new 
teacher evaluation systems would encourage innovation and provide new 
evidence on its consequences while avoiding the potential unintended 
consequences of a one-size-fits-all Federal mandate.

    Question 2. You recommended in your written testimony that Congress 
require States, districts, and schools to report on per-pupil spending, 
including teacher salaries, to highlight disparities and inequities and 
put pressure on districts to address them. Alaska posts per-pupil 
revenue (State, local, and Federal) online and requires 70 percent of 
State revenue be spent in the classroom. (See www.eed.State.ak.us/
schoolfinance/ and click on school revenues.) If we can all agree that 
spending in and of itself does not, in and of itself, predict student 
success--that how schools target dollars to effective practices is more 
predictive--what is gained by per-pupil spending reports?
    Answer 2. Although how money is spent is more important for student 
success than the amount of spending alone, improving transparency about 
per-pupil spending at the State-, district-, and school-levels could 
help encourage our school systems to use their financial resources more 
effectively. The accountability systems States have been required to 
implement under NCLB focus exclusively on improving student test scores 
and closing achievement gaps without considering whether school 
districts and schools accomplish those goals in a cost-effective way. 
Accountability programs' inattention to inputs, combined with the 
complexity of State school finance systems, makes accurate information 
on school spending difficult for the public to obtain. It is no 
surprise, then, that surveys have repeatedly shown that Americans lack 
vastly underestimate per-pupil spending levels in their local school 
district. Alaska's decision to post per-pupil revenues online is a 
positive step toward greater transparency, but this information appears 
to be independent from its district and school report cards and to be 
limited to the district level, rather than broken down for individual 
schools. School-level financial reporting is important as there are 
often wide disparities in spending between schools within the same 
district.
                             senator bennet
    Question 1. Dr. West, can you explain why you think ``Using average 
test scores from a single year to judge school quality is . . . 
unacceptable from'' as you put it ``a fairness and equity 
perspective?''
    Answer 1. Using any level-based measure of student achievement on 
its own to judge school quality, whether it be average test scores or 
proficiency rates, is unfair because of the strong role that out-of-
school factors play in shaping student achievement. For example, 
students from economically disadvantaged families tend to enter 
kindergarten with far lower academic and behavioral skills than their 
more advantaged peers. Under a level-based accountability system, 
schools that serve many disadvantaged students are therefore at risk of 
being identified as underperforming even when their students are making 
more rapid academic progress than students elsewhere. This is exactly 
what has occurred under NCLB, which requires States to determine 
whether a school has made Adequate Yearly Progress primarily based on a 
level-based measure of student achievement: the percentage of students 
who are proficient in math and reading. Basing accountability systems 
instead on how much student test scores improve from 1 year to the next 
would provide fairer and more accurate information on schools' 
performance.
    At the same time, some advocates have criticized proposals to judge 
schools based solely on growth measures, as doing so could allow 
schools serving disadvantaged students to avoid sanction even if their 
students' academic progress over time is insufficient to close 
achievement gaps. This is a legitimate concern, and State policymakers 
may want to strike a balance between average scores and growth when 
deciding where to focus improvement efforts. However, absent annual 
tests required to produce measures of the growth in student test scores 
over time, it is impossible to distinguish those schools where students 
achieve at low levels because they are learning very little from those 
schools that perform well despite difficult circumstances.

    Question 2. Dr. West, what role should student achievement play in 
identifying under-performing schools? I think it shouldn't be the only 
factor, but I do think it matters and that its weighting matters.
    Answer 2. In my view, student achievement--in particular, the 
growth in student achievement from 1 year to the next--should be the 
predominant factor in identifying under-performing schools. Scores that 
students receive on standardized tests administered in schools are 
strongly predictive of later life outcomes that are of great value to 
those students and the Nation, after controlling for all the other 
observable characteristics of those students that are associated with 
later success. What's more, gains in test scores that result from 
interventions such as being assigned to a particularly effective 
teacher or attending a school facing accountability pressure also 
predict improvements in adult outcomes. Of course, teachers and schools 
also contribute to student outcomes in ways that are not captured by 
test scores and therefore harder to measure. States and districts may 
therefore want to incorporate additional sources of evidence into their 
systems for evaluating school performance. However, any system for 
identifying under-performing schools that is not based primarily on 
information on student learning as measured by tests that are 
comparable statewide would be badly compromised.

    Question 3. Dr. West, you recommend we require districts to report 
comparable measures of per-pupil spending at the school level. Why 
don't districts publish this information already? Why is having this 
data important?
    Answer 3. I can only speculate as to why many districts do not 
currently report comparable measures of per-pupil spending at the 
school level. In many cases, however, districts are simply unable to 
provide accurate school-level spending information because their 
internal data systems make it very difficult to produce this 
information. In particular, when school budgets are based on staff 
positions and the average cost of those positions district-wide, rather 
than the salaries of the employees working in each school, school 
budgets do not provide accurate information on school spending. In 
other cases, district officials may not want to provide this level of 
transparency.
    Requiring transparency about per-pupil spending at the school level 
is important both to encourage the effective use of resources and to 
highlight within-district disparities in spending. While many States 
have made considerable progress toward equalizing spending across 
districts, there are often large disparities in what is spent across 
schools within the same district. A common source of these disparities 
is the gradual migration of more experienced teachers with higher 
salaries to schools that serve more advantaged students. Requiring 
districts to publish accurate school-level spending information would, 
at a minimum, ensure that citizens are informed of these patterns and 
could create pressure on districts to address the policies and contract 
provisions that drive them.
                           senator whitehouse
    Question 1. I am intrigued by the idea of an accountability system 
where the more progress a district or State makes for all students and 
student subgroups, the more autonomy that district or State receives. 
Conversely, if a district or State struggles to make progress or has 
persistent inequities it would have less autonomy and increased 
oversight. What would be the best way to create an accountability 
system where districts or States could ``earn'' their way toward 
greater autonomy, perhaps by being relieved of the requirement of 
annual testing, through actual student academic success and outcomes?
    Answer 1. The ``earned autonomy'' concept you suggest is attractive 
and could be implemented by granting greater autonomy to States and 
districts in which students are achieving at high levels and 
demonstrating strong growth in achievement over time, overall and 
within student subgroups. Yet I would suggest that such an approach 
should not entail relief from the requirement to administer annual 
tests that are comparable statewide, as the data from those tests would 
be essential to know whether the granting of autonomy has been a 
success. Rather, the autonomy should take the form of greater 
flexibility with respect to such matters as curricula, staffing 
arrangements, and any consequences for schools based on student test 
results.

    Question 2. Some argue that over-testing is the result of States 
and districts supplementing the NCLB requirements (17 tests throughout 
K-12) with additional layers of assessment. If we were to keep annual 
testing in place, what would be the best ways to reduce the overall 
testing burden?
    Answer 2. Although we lack comprehensive evidence on the extent of 
over-testing and the factors contributing to it, emerging data does 
suggest that over-testing often results from States and districts 
overlaying their own testing programs on top of the 17 tests required 
under NCLB. It is important to note, however, many of these additional 
tests may stem directly or indirectly from related Federal policies. 
For example, many States have recently increased testing in order to 
include teachers in previously non-tested grades and subjects in the 
teacher evaluation systems required under ESEA waivers. The unrealistic 
expectations for the pace of school improvement embedded in the NCLB 
accountability system may also have increased the extent of testing, as 
many districts have introduced various interim assessment systems 
throughout the school year to gauge whether students are on progress to 
perform well on required State tests. Although this may be an effective 
educational strategy in some districts, in others it may in fact 
constitute over-testing. By giving States greater control over their 
school accountability and teacher evaluation systems, the Federal 
Government could therefore ensure that it is not contributing to the 
problem of over-testing.
    Chief State school officers should then work with district 
superintendents to investigate the extent of testing and how various 
tests are used within their own States. For example, Florida 
Commissioner of Education Pam Stewart recently asked her State's 
district superintendents to catalogue the various standardized tests 
they administer, the amount of time the required, and the purpose they 
serve. This enabled her to make concrete recommendations to reduce the 
testing burden on teachers and students. Although the States are best 
positioned to scrutinize and make decisions about the appropriate level 
of testing in their schools, the Federal Government could encourage 
their efforts by explicitly allowing State educational agencies to use 
ESEA administrative funds for this purpose.

    Question 3. One way to reduce the testing burden could be to 
decrease the number of questions we use to assess students. If the 
number of questions were sufficiently reduced, those questions might 
then be embedded in existing, annual exams such as the PSAT. Would 
streamlining or consolidating assessments be a viable approach to 
reducing the testing burden? Why or why not?
    Answer 3. There is often a tension in test design between the 
number of items and the test's ability to cover the knowledge and 
skills it is intended to assess and to provide sufficiently reliable 
information to support decisions about student or school performance. 
Streamlining tests may be a good strategy for reducing the testing 
burden in some circumstances. However, it is important to ensure that 
any streamlining does not undermine the quality of the information 
provided such that the test no longer provides information that is 
valid for the purposes for which it is being used.
      Response to Questions of Senator Murkowski, Senator Baldwin 
                   and Senator Bennet by Paul Leather
                    questions from senator murkowski
    Question 1. Standards based teaching, testing, and grading requires 
a great deal of work to promote buy-in by teachers and parents. Can you 
talk briefly about the steps you took to ensure that all stakeholders 
were completely on board with this new way of delivering education and 
reporting student results?
    Answer 1. The Senator is correct that moving to standards based 
teaching, testing, and grading requires a great deal of work to promote 
buy-in by teachers and parents. To complicate matters in New Hampshire, 
there has long been a very strong tradition where curriculum and 
instruction are locally controlled. For this reason, the NH State 
Department of Education (NHDOE) has gone about a process that enlists 
local educators and parents in the process. This methodology started as 
far back as 1996, when NHDOE held a series of regional forums around 
the State with educators and students, asking what will education look 
like in 5 years. Students identified personalized, student-centered 
learning and educators identified standards-based learning. Upon 
analysis of this data, NH started its work in competency education, 
where standards are ``owned'' by students, and they can pursue 
personalized learning models to demonstrate their mastery of 
competencies, i.e. standards. NHDOE developed this approach via a 
series of grants to networks of schools and districts. The research 
results from these grants led the NH State Board of Education to launch 
a process of amending the NH School Approval Standards so that a system 
of identifying student mastery of competencies would take the place of 
the Carnegie unit (seat time) for the attainment of high school credit. 
The Board went through a formal rulemaking process, holding over 10 
hearings in Concord and across the State, engaging educators and 
parents in the discussion. These rules were approved in July, 2005, 
with an effective date of July, 2008, giving districts and schools 3 
years to implement.
    Subsequently, the NHDOE provided guidance, continued establishing 
cohorts of schools/districts to further develop the model, and 
identified key partners in-State and nationally to support the work. 
Our research data was shared publicly through a series of State and 
regional meetings with school boards, parents and educators. In 2010, 
the NHDOE received a grant from the Nellie Mae Education Foundation 
(NMEF) to develop an accountability system for State and Federal 
purposes that would be more aligned with the work done statewide in 
competency education. This grant, and subsequent grants from NMEF and 
from the William J. and Flora Hewlett Foundation, has assisted in 
supporting cohorts of educators from schools across the State in 
Quality Performance Assessment professional development and in the 
creation of the Performance Assessment for Competency Education, or 
PACE model. In 2011, the NHDOE received the first of two grants from 
the National Governor's Association to communicate broadly the work 
done with educators and parents on standards-based learning and 
competency education. This resulted in new State legislation in 2012, 
identifying competency education as a preferred outcome of public 
education in New Hampshire. Also in 2012, the NHDOE identified moving 
to a new model of accountability in its first ESEA Flexibility Waiver 
submission, and went through the public vetting process with many 
groups of stakeholders across the State. In 2014, the NHDOE completed a 
2-year long review of the NH School Approval Standards, where 
competency education was put in place K-12, effective July, 2017. To 
sum up, the NHDOE approached the engagement and development of this new 
system through public engagement processes for citizens and parents and 
through cohorts of professional development and implementation for 
educators. We also highly publicized new components of the change as 
they developed, such as new assessments and new grading systems and 
encouraged sharing across districts among leaders and professional 
networks. New Hampshire is a small State and the word has gotten out 
quickly. With this said, we do want to note that this has been an 18-
year journey to date, and we continue to develop the system going 
forward.

    Question 2. How much has it cost New Hampshire to develop, 
implement, and evaluate your pilot PACE program? How much do you 
estimate it would cost to expand it to all of your districts?
    Answer 2. To date, it has cost the State approximately $1 million 
to develop, implement, and evaluate the PACE Pilot. These costs have 
largely been borne by two grants from the Nellie Mae Education 
Foundation (totaling $600,000) and one from the Hewlett Foundation, 
(totaling $400,000). Much of the development work is now completed. NH 
has a performance assessment bank, and a calibration and moderation 
process. The NH Technical Advisory Committee (NHTAC) is currently 
evaluating the systems, and will evaluate results as they come forward 
this spring. Eight districts have been involved in the process, four 
implementing and four in a planning mode. They make up approximately 10 
percent of the 80+ Supervisory Unions across New Hampshire. We estimate 
that full implementation of PACE will cost approximately $6.725 million 
over a multi-year period, broken down broadly as follows:

    Training and Coaching: (Center for Collaborative Education and 
contracted consultants) 400,000 x 5 yrs. = $2,000,000--Statewide and 
regional and content meetings; in-school coaching; attendance at policy 
and management meetings; consultation for DOE leadership;
    Technical Quality and Accountability: (NCIEA) 100,000 x 5 yrs. = 
$500,000--Direct development of materials, protocols, policies, and 
procedures; consultation for DOE leadership and project management; 
management of NHTAC; attendance at policy and management meetings;
    Task Bank development and maintenance: (in conjunction with the 
Center for Collaborative Education and Stanford University) $325,000 
(yr 1 & 2 = 100,000; yr 2&4 = 50,000; yr 5 = 25,000)--Review and 
organization of task bank submissions, uploading, management, and 
development of task bank site; recruitment of and coaching on task 
development;
    Local development: (teacher leaders and local implementation PD) 
1,500,000 x 2 = $3,000,000 (80 SAUs x 18,750 per first 2 years, scaled 
to size of districts and staffing ratios)--Stipends for teacher leaders 
to pay for their extra training and out of school time; local PD 
materials such as books; workshops or trainers deemed necessary to the 
development of staff or leadership, substitutes to allow attendance at 
statewide meetings and trainings either as presenters or as attendees; 
local content coaches for the classroom implementation of performance 
tasks and assessments; coaching for leadership.
    Statewide Public Communications Strategy: $100,000--Payments for 
transcription; translation; web-based roll-out; and articles and papers 
about the effort, with an update of NH Story of Transformation;
    Statewide Rollout: (summits, legislative presentations, workshops, 
etc.) 100,000 x 5 yrs = $500,000--To include one state-wide conference, 
one summer institute, and 5 regional meetings annually; and
    Statewide Recording and Reporting: $300,000 (Development first 2 
years @ 70,000; i4see maintenance $32,000 x 5 yrs = 160,000)--To 
further develop a statewide Student Information System (SIS) platform, 
and to assist schools and districts in implementing Learning Management 
Systems, (LMS). This also includes on-going support to pay for adapting 
and maintaining the i4see system for uploading accountability data.
                            senator baldwin
    Question. Educational experts in Wisconsin have stated that the 
turnaround time for the results of the tests required under NCLB is a 
significant issue, sometimes leaving students, parents, teachers and 
administrators waiting for those test scores long past the time when 
they are most (or at all) useful for instruction or transparency. For 
example, if a teacher is unable to get a student's test results from 
the prior academic year before he begins planning for the next school 
year, it is difficult for him to prepare for the specific educational 
needs of that child or at least have baseline knowledge of his academic 
needs.
    Please describe what you believe the ideal timeframe would be for 
teachers to receive the results of annual assessments, as well as the 
current timeframe for the dissemination of the results of annual 
assessments in your individual school, district or State.
    Answer. We agree with the Wisconsin experts. Ideally, the results 
of a State assessment should be actionable in terms of curriculum and 
instruction. For example, if a good percentage of students ``miss'' 
questions on the math assessment as it pertains to multiplicative 
reasoning and operations, then educators can adjust and augment the 
curriculum to address this shortfall. When such data is not available 
in a timely way, educators find themselves in a place where they will 
use another test with a more rapid turnaround for formative purposes. 
For this reason, we believe that an immediate turnaround time of 1-2 
weeks is ideal for a summative assessment that is also used for 
formative purposes, but that in the worst case, it should take no more 
than 1-2 months.
                             senator bennet
    Question 1. Commissioner Leather, competency-based education and 
more personalized learning is absolutely something we need to do. 
Technology has made that more possible than ever before. Much more goes 
into creating a competency-based education system than the assessment 
components you spoke about in your testimony.
    Can you tell us more about how this transformation in learning has 
taken place in New Hampshire classrooms? What does it mean practically 
speaking to eliminate the Carnegie Unit?
    Answer 1. For the first question, I am including much of the answer 
that I provided to Senator Murkowski, with some augmentation. The 
Senator is correct that there are more moving parts to a competency 
education system than I gave in my testimony. To complicate matters in 
New Hampshire, there has long been a very strong tradition where 
curriculum and instruction are locally controlled. For this reason, the 
NH State Department of Education (NHDOE) has gone about a process that 
enlists local educators and parents in the process. This methodology 
started as far back as 1996, when NHDOE held a series of regional 
forums around the State with educators and students, asking what will 
education look like in 5 years. Students identified personalized, 
student-centered learning and educators identified standards-based 
learning. Upon analysis of this data, NH started its work in competency 
education, where standards are ``owned'' by students, and they can 
pursue personalized learning models to demonstrate their mastery of 
competencies, i.e. standards.
    Here are two sets of frameworks, the traditional framework and the 
new CBE framework, as developed by Rose Colby, NH's nationally 
recognized Competency Education Consultant:
                       the traditional framework
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         the new cbe framework
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As can be seen above, really a great deal changes in a CBE 
classroom. Learning progressions ideally move across multiple years, 
and are mapped to a trajectory and taxonomy of competencies. Learning 
is more project based, with an emphasis on greater depth of knowledge. 
Assessment is embedded into the projects and aligned, again through a 
K-12 taxonomy, to the standards and competencies. Students work against 
personal learning plans, with systems of supports both in-person and 
on-line. Grading is focused on demonstrating mastery of competencies 
and standards. Work study practices, or dispositions, are also measured 
along trajectories, but disaggregated from content mastery. It is 
important to know what a student has learned and can do, not just how 
hard she or he tried. It is also important to recognize the student's 
development in problem solving strategies, communication, creativity, 
and collaboration.
    When we look at delivery and classrooms, here are two more 
pictures, the first of a traditional HS course model, the second for a 
competency based HS:

    School is traditionally set up in courses that deliver content 
sequentially rather than based on relevant pairings and opportunities 
for more authentic learning acress subjects.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As can be seen above, courses become more project based, and more 
inter-disciplinary, however, the learning is still disaggregated and 
captured so that we know where on the trajectory a student is, say in 
math or science, because we are collecting mastery of competencies that 
are aligned to the standards.
    NHDOE has developed this approach via a series of grants to 
networks of schools and districts. The research results from these 
grants led the NH State Board of Education to launch a process of 
amending the NH School Approval Standards so that a system of 
identifying student mastery of competencies would take the place of the 
Carnegie unit (seat time) for the attainment of high school credit. The 
Board went through a formal rulemaking process, holding over 10 
hearings in Concord and across the State, engaging educators and 
parents in the discussion. These rules were approved in July, 2005, 
with an effective date of July, 2008, giving districts and schools 3 
years to implement.
    Subsequently, the NHDOE provided guidance, continued establishing 
cohorts of schools/districts to further develop the model, and 
identified key partners in-State and nationally to support the work. 
Our research data was shared publicly through a series of State and 
regional meetings with school boards, parents and educators. In 2010, 
the NHDOE received a grant from the Nellie Mae Education Foundation 
(NMEF) to develop an accountability system for State and Federal 
purposes that would be more aligned with the work done statewide in 
competency education. This grant, and subsequent grants from NMEF and 
from the William J. and Flora Hewlett Foundation, has assisted in 
supporting cohorts of educators from schools across the State in 
Quality Performance Assessment professional development and in the 
creation of the Performance Assessment for Competency Education, or 
PACE model. In 2011, the NHDOE received the first of two grants from 
the National Governor's Association to communicate broadly the work 
done with educators and parents on standards-based learning and 
competency education. This resulted in new State legislation in 2012, 
identifying competency education as a preferred outcome of public 
education in New Hampshire. Also in 2012, the NHDOE identified moving 
to a new model of accountability in its first ESEA Flexibility Waiver 
submission, and went through the public vetting process with many 
groups of stakeholders across the State. In 2014, the NHDOE completed a 
2-year long review of the NH School Approval Standards, where 
competency education was put in place K-12, effective July, 2017. To 
sum up, the NHDOE approached the engagement and development of this new 
system through public engagement processes for citizens and parents and 
through cohorts of professional development and implementation for 
educators. We also highly publicized new components of the change as 
they developed, such as new assessments and new grading systems and 
encouraged sharing across districts among leaders and professional 
networks. New Hampshire is a small State and the word has gotten out 
quickly. With this said, we do want to note that this has been an 18-
year journey to date, and we continue to develop the system going 
forward.
    Practically speaking, eliminating the Carnegie Unit means that a 
student can demonstrate the learning for a competency and thus for a 
course or credit, before, during, or after when the course is 
delivered. This way, a student's trajectory of learning is honored, and 
the student is not hampered by the annual delivery of courses. It 
requires a more flexible approach on the part of educators and for the 
system as a whole. Assessments need to be available, not simply tied to 
units of study through the year. There are many examples of schools 
across the country now approaching this, including in Adams 50 in 
Colorado.

    Question 2. Commissioner Leather, you spoke about the need for 
space in ESEA to innovate. Beyond assessment, are there other areas in 
the law that we should be looking for innovation? Places to have small 
pilots or incentive grant programs? What's next, in New Hampshire and 
across the country?
    Answer 2. We believe that in all of the areas of Curriculum, 
Instruction, Assessment, and Accountability there is a need to 
innovate. Since ESEA does not regulate curriculum and instruction, but 
does in assessment and accountability, we believe this is where the 
attention should mostly lie in reauthorization.
    With that said, as was stated in the first question, there is much 
that is not yet known about the interaction between technology and 
instruction, technology and assessment, and how learning is incented in 
a blended environment. This is one area where much will occur over the 
next 10 years. One could take the position that government should stay 
out of the way and let the innovation occur. The problem, in this case, 
is one of access. Those educational systems that choose to invest in 
1:1 environments, that have strong Internet access, that have 
enlightened leadership and adequate resources to invest, those 
communities will prosper in this arena. Those without the basic 
technology, or leadership, or ability or will to invest, will fall 
behind.
                           senator whitehouse
    Question. I have heard concerns that locally developed assessments 
could lead to disparities in the quality of assessments from district 
to district, and could lead to further educational inequity within a 
State (where wealthier districts develop high-quality state-of-the-art 
assessments and low-income districts are left behind.) What would be 
the best way to create and implement locally developed assessments in a 
way that is fair, comparable, and equal across all districts?
    Answer. We agree with this argument. If guardrails are not imposed 
into the process, disparities from one district to another will occur. 
For this reason, we believe a fully developed accountability system 
will have certain components that have been described in the 51st State 
Paper authored by Linda Darling-Hammond, Gene Wilhoit, and Linda 
Pittinger, (submitted with my original testimony). Specifically, the 
design of the system should have the following, as shown on this 
schematic:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Such a system should have a clearly defined system of State and 
local assessments, and indications as to how student status and growth 
will be measured, collected, and disaggregated. There should be a base 
of common assessments, (in PACE, there is a system of common 
assessments, Smarter Balanced AND Common Performance Assessments). 
There should also be a School Quality Review process, where expert 
reviewers along with teams of peers review school and district 
performance and the overall system to assure that there is calibration 
and moderation of assessment, that the results are reliable and valid. 
We also believe that there should be an expectation of reciprocal 
resource accountability, where the State should assure equity between 
districts, and that districts should assure equity between schools and 
neighborhoods, and that principals should assure equity from classroom 
to classroom. We look for these assurances and include this information 
as part of our school quality reviews. Additionally, we look for a 
coherent system of educator accountability, and a system of supports 
and conditions for educators, schools, and districts. We believe the 
Federal law should also have such supports and conditions for States as 
well, as they apply for greater flexibility. Such a system, at the very 
least, should account for the following requirements among districts:

    <bullet> Focused on college and/or career outcomes and promotes 
deeper learning for all students.
    <bullet> A clear commitment toward improving the achievement of 
educationally-disadvantaged students.
    <bullet> A clearly described internal accountability process 
supported by the local board of education.
    <bullet> Commitment of resources necessary to ensure the plan's 
success.
    <bullet> Leadership and educator capacity to design, implement, 
support, and sustain the system.

    Attached, please also find the CCSSO description of guardrails for 
States, which we helped development and to which we subscribe.
    To develop a system of local assessments that would meet all of 
these requirements, we recommend that Senator Whitehouse look to the 
PACE Pilot model, where, a cohort of schools and districts have worked 
together to design a system that is coherent, comparable, and, we 
believe, equitable.
       Attachment--CCSSO (Council of Chief State School Officers)
piloting new models of assessment and accountability: state commitments
    Over the past several years, States have significantly advanced 
accountability systems grounded in college- and career-readiness for 
all students. Since the release of CCSSO's 2011 Principles for Next-
Generation State Accountability Systems,\1\ States have used the 
Principles as a framework to develop stronger systems that better 
support schools and districts to advance student learning. As States 
reflect on their accountability systems and continue to improve them, 
they remain committed to these Principles.
---------------------------------------------------------------------------
    \1\ http://www.ccsso.org/Documents/2011/
Principles%20and%20Processes%20for%20State
%20Leadership%20on%20Next-
Generation%20Accountability%20Systems%20(Final)%20(2).
pdf.
---------------------------------------------------------------------------
    While fully upholding their commitment to implementing the 
Principles, some States have gained interest in piloting new models for 
assessment and accountability intended to measure more robust 
dimensions of college and career ready knowledge, skills, and 
abilities; and to provide information on student progress in more 
frequent and actionable ways. Through carefully monitored pilot 
initiatives, interested States seek to develop and continuously improve 
models of authentic and meaningful assessment and accountability that 
can scale to statewide transformation.
    States remain committed to making annual determinations of student 
progress for all students; the innovation they seek is in developing 
better methods for assessing and supporting that progress, while still 
ensuring equity and transparency.

Box 1: Raising the Bar While Staying Committed

    1. States are raising the bar on how they assess student learning 
while maintaining the ability to make annual accountability 
determinations that result in more useful data to inform teaching and 
learning. These innovative approaches to assessment and accountability 
will allow for:

    <bullet> More timely and useful data.
    <bullet> More valid and reicher measures of student learning.
    <bullet> Assessment of a broader set of skills.
    <bullet> Advancing shifts toward personalized learning.

    2. States remain committee to ensuring there are valid and rigorous 
measures of student performance for every school and comparisons can be 
made across schools and districts.
    3. States remain committed to ensuring all students are progressing 
and remain focused on closing achievement gaps.
    4. States remain committed to transparancy and engaging 
stakeholders, including parents and students.
    5. States will engage in a rogourous evaluation process to 
determine what is working well and where improvement is needed 
throughout the first serveral years of implementation.

    In order to pilot these new models successfully, interested States 
are committing to a series of readiness efforts that must be undertaken 
by both the interested State and its pilot districts. These commitments 
represent the application of the Principles to the unique circumstances 
that surround a pilot initiative. Further, while the commitments remain 
consistent across States, the way in which they are executed may vary 
based on each State's unique context.
    Ultimately these pilot districts will create scalable proof points 
for reimagined assessment and accountability systems that better 
advance our collective goal to ensure all students are prepared for 
college and careers.
State Commitments for Assessment and Accountability Pilots
    1. Alignment of performance goals to college- and career-ready 
standards. The performance goals underlying the State's accountability 
system, and the design of the accountability pilot, will continue to be 
aligned with the State's goals for college- and career-readiness in 
order to promote continuous growth for every student toward that 
performance level and beyond.

        Additional pilot State commitments:

          <bullet> Comparable Student Expectations: The State has a 
        clearly articulated plan for ensuring that districts 
        participating in the pilot demonstrate the alignment and 
        comparability of their student learning expectations and 
        proposed system of assessments to state-adopted college- and 
        career-readiness definitions, standards, and assessments.

    2. Annual determinations for each school and district. The State 
will continue to make annual accountability determinations for all 
publicly funded schools and districts.

        Additional pilot State commitment: Capacity to make annual 
        determinations. The State has a clearly articulated plan for 
        ensuring that the proper assessment data and data analysis and 
        reporting capacities will be in place to ensure that annual 
        determinations can be made based on the pilot district's new 
        assessments.

    3. Focus on student outcomes. The State will continue to make 
accountability determinations that focus on student outcomes, including 
both status and growth toward college- and career-readiness.

        Additional pilot State commitments:

          <bullet> Assessment quality review: The State has a clearly 
        articulated plan for how pilot districts will demonstrate that 
        the assessments they elect to use meet State review 
        requirements for validity and reliability. The State will have 
        a well-defined process for reviewing and validating the 
        district's proposed assessments and the success of their 
        implementation. Each pilot district will also agree to 
        administer the statewide summative assessment at agreed upon 
        times as check-points.

    4. Continued Commitment to Disaggregation. The State will continue 
to support public reporting of disaggregated student data for all 
districts to ensure that the needs of particular subgroups are not 
masked by aggregate student achievement.

        Additional pilot State commitment: Equity: The State commits to 
        ensuring pilot assessment systems are fair and accessible, and 
        that disaggregated student data factors into pilot district 
        quality review processes.

    5. Reporting of timely, actionable, and accessible data. Data 
related to school and district performance will continue to be reported 
in a manner that is timely, actionable, and accessible--to improve 
teaching and learning and support policy improvements at all levels.

        Additional pilot State commitment: Data and reporting: The 
        State has a clearly articulated plan for ensuring that the 
        proper assessment data, data analysis, and reporting capacities 
        will be in place so that annual determinations can be made 
        based on the pilot district's system of assessments. In 
        addition, the State has a clearly articulated plan to work with 
        each pilot district to ensure meaningful data is being reported 
        to parents and other stakeholders on at least an annual basis. 
        Last, the State will have a clearly articulated process for how 
        to develop and implement valid and reliable ways to measure 
        student growth in the pilot districts.

    6. Deeper diagnostic reviews. Each State will continue to include, 
as appropriate, deeper analysis and diagnostic reviews of school and 
district performance, particularly for low-performing schools, to 
create a tighter link between initial accountability determinations and 
appropriate supports and interventions.
    7. Building school and district capacity. Each State will continue 
to focus on building district and school capacity for significant and 
sustained improvement in student achievement toward college- and 
career-ready performance goals.

        Additional pilot State commitments:

          <bullet> Supports for district capacity: The State has a 
        clearly articulated plan for providing technical assistance to 
        districts as they design and implement new approaches to 
        assessment to ensure they are high-quality, comparable, and 
        successfully implemented (for example, the State or its 
        external partners may develop: State model performance tasks or 
        other assessments and/or an open online bank of approved and 
        validated assessments; technical criteria for locally designed 
        assessments; assessment implementation guidance; and common 
        definitions of ``mastery'' or ``proficiency,'' etc.).
          <bullet> Supports for educator capacity: The State has a 
        clearly articulated plan to support districts in providing 
        educator training and professional development to ensure new 
        systems of assessments are successfully implemented and 
        reliably scored (for example, the State or its external 
        partners could support the development of local assessment 
        experts, provide live training and professional support for 
        teachers and leaders, such as in-person and/or virtual 
        professional development institutes, organize regional task 
        validation sessions, regional scoring sessions, etc.).
          <bullet> Supports and interventions for students with special 
        needs: The State has developed and implemented systems to 
        ensure that the progress of students with special needs (for 
        example, special education students, English language learners, 
        or students in poverty) will be monitored, and appropriate 
        interventions will be given.
          <bullet> Plans for scaling: To ensure that the pilot 
        initiative produces scalable models--and to avoid creating a 
        permanently bifurcated system of pilot and non-pilot 
        districts--the State has a clearly articulated plan for scaling 
        the pilot initiative if it successfully improves student 
        outcomes for all students. This plan should include how 
        districts that currently lack capacity to pilot will be 
        developed, and how the State will eventually bring along 
        districts which currently have little interest in 
        participation.

    8. Targeting lowest performing schools. The State remains committed 
to targeting significant interventions on at least the lowest 
performing 5 percent of schools and their districts and those districts 
with the largest achievement gaps.
    9. Innovation, evaluation, and continuous improvement. The State's 
accountability system will continue to drive innovation and itself be 
dynamic--promoting innovative accountability approaches with rigorous 
evaluation to drive continuous improvement over time.

        Additional pilot State commitments:

          <bullet> District requirements for participation: The State 
        has a clearly articulated set of requirements for districts to 
        demonstrate readiness to participate in the pilot initiative. 
        As part of this, the State will establish initial threshold 
        levels of performance (for example, districts that include 
        focus or priority schools will not be able to participate), 
        based on reported data, below which districts or schools will 
        not be allowed to participate in the pilot initiative.
          <bullet> Stakeholder engagement and community involvement: 
        The State has developed and implemented mechanisms for engaging 
        system and community stakeholders in both the development and 
        ongoing review of the pilot initiative.
          <bullet> Pilot evaluation process: The State has a clearly 
        articulated plan to work with each pilot district to develop a 
        quality review process throughout the first few years of 
        implementation, so that mid-course adjustments can be made as 
        necessary and to support continuous improvement.

    Through their continued implementation of CCSSO's 2011 Principles 
for Next-Generation State Accountability Systems and their commitments 
to the above readiness efforts, interested States affirm the need to 
maintain accountability for student learning at all levels, while at 
the same time pursuing innovations in assessment and accountability 
that drive continuous improvement of their education systems toward 
college and career ready outcomes for all students.
    Response to Questions of Senator Bennet and Senator Whitehouse 
                          by Wade J. Henderson
            The Leadership Conference on Civil and 
                                      Human Rights,
                                      Washington, DC 20006,
                                                     March 4, 2015.
Hon. Lamar Alexander, Chairman,
Hon. Patty Murray, Ranking Member,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: Thank you for 
the opportunity to testify before the Senate Health, Education, Labor 
and Pensions Committee's hearing, ``Fixing No Child Left Behind: 
Testing and Accountability'' in January. In response to questions 
submitted for the record by your colleagues, I have included answers 
below.
                             senator bennet
    Question 1. Mr. Henderson, can you talk about the history of 
education in the country, specifically as it relates to minority 
students and students from low-income families? Why did President Bush 
call education ``the great civil rights issue of our time?''
    Answer 1. Senator Bennet, in our education system, a deal is made 
with students and their families. If you come to school, do your 
homework and listen to your teacher, the school will make sure that you 
are ready for college, career and a family sustaining wage job. 
Unfortunately, the system is failing to hold up its end of the bargain 
far, far too often. Moreover, the children most likely to be left 
behind by our education system are low-income children, children of 
color, those with disabilities, those who speak English as a second 
language, children in Native communities, and migrant, foster or 
homeless youth.
    Despite the progress we have made since Brown v. Board of 
Education, it is impossible to claim that we have fully realized its 
promise--that all children have access to a quality education. Let's 
consider these simple and inescapable facts:

    <bullet> Educational inequalities begin in early childhood, and by 
age 3, children growing up in poverty have heard 30 million fewer words 
than their more advantaged peers. Without quality pre-K programs and 
other early interventions, these children will start kindergarten far 
behind those from more fortunate families.
    <bullet> As they grow older, the least fortunate African-American 
and Latino children attend schools that are increasingly segregated and 
highly unequal. Six decades after Brown, millions of black and brown 
young people have been offered little better than a school system that 
is separate, unequal and inadequate to meet the demands of a 21st 
century economy. The recent release of the Department of Education's 
Civil Rights Data Collection (CRDC) brings this reality into sharp 
focus.
    <bullet> Black, Latino, American Indian, and Native Alaskan 
students attend schools with higher concentrations of first-year 
teachers at a higher rate than White students.
    <bullet> Black students are more than four times as likely to 
attend schools with a high concentration of uncertified and unlicensed 
teachers as White students. Latino students are twice as likely to 
attend these schools.
    <bullet> Black and Latino students represent just 26 percent of 
students enrolled in gifted and talented education programs despite 
making up 40 percent of the students attending schools that offer these 
programs.
    <bullet> A quarter of high schools with the highest percentage of 
Black and Latino students do not offer Algebra II. A third of these 
schools do not offer chemistry. Perhaps as startling as these data for 
Black and Latino students are the findings that nationwide, half of all 
high schools do not offer calculus, two-thirds do not offer physics, 
and a quarter do not offer chemistry.

    Education has become the ``great civil rights issue of our time'' 
because 50 years ago, when President Johnson signed the ESEA, there 
were good-paying, family supporting jobs for workers without formal 
educational credentials. The era of pick-and-shovel jobs is long gone. 
Those who would support themselves in the 21st century need a high 
school diploma and more: career training, an associate degree or, 
ideally, a 4-year college degree.
    At the same time, we cannot deny the lesson of generations of 
people who made it out of poverty--education can and should be the 
great equalizer. Minority children continue to face gross inequity in a 
nation where equal protection is a constitutionally based promise. Our 
civil rights agenda for an ESEA that truly advances equity in the way 
envisioned by President Johnson and Senator Robert Kennedy in 1965 says 
that no child is too poor to be educated or too far gone to be written 
off. We must do more for our children than any of our systems currently 
allow--meeting their health, mental health, nutritional, housing, and 
security needs.

    Question 2. Mr. Henderson, I am very concerned about the growing 
income inequality in our country. I am concerned about the persistently 
low achievement of minority students and students from low-income 
families. In your testimony you cited a recent report from the Southern 
Education Foundation, which found that for the first time, the majority 
of students in our public schools are eligible for free or reduced 
price lunch. That majority is our future. It's our future workforce and 
economy.
    Answer 2. Education is one of the most powerful forces to break the 
poverty cycle. As Congress works on ESEA reauthorization, how we can 
ensure that we're giving the majority of students the chance to succeed 
in life?
    Public education must enable all children to reach their potential, 
exercise their full social, political and economic rights, and be 
prepared for a global economy. Given the heartbreaking realities of 
poverty in this great Nation, we must serve as the voice for the 
voiceless.
    Working with more than 40 national organizations, all of whom have 
signed our shared Civil Rights Principles document, The Leadership 
Conference seeks to advance an ESEA agenda that builds on the historic 
intent of that law: to foster greater equity in education. We can 
ensure that we're giving all students the opportunity to succeed in 
life by maintaining:

    1. Accountability for equity in student opportunity;
    2. Accountability for equity in student outcomes;
    3. Targeted Federal funding; and
    4. A strong Federal role to enforce the law and protect the most 
vulnerable children.
                           senator whitehouse
    Question 1. I am intrigued by the idea of an accountability system 
where the more progress a district or State makes for all students and 
student subgroups, the more autonomy that district or State receives. 
Conversely, if a district or State struggles to make progress or has 
persistent inequities it would have less autonomy and increased 
oversight. What would be the best way to create an accountability 
system where districts or States could ``earn'' their way toward 
greater autonomy, perhaps by being relieved of the requirement of 
annual testing, through actual student academic success and outcomes?
    Answer 1. Senator Whitehouse, in the debate about reauthorizing the 
law, some have complained that secretarial oversight is an unwarranted 
intrusion by the Federal Government into State and local control of 
schools. Perhaps it is an intrusion, but sometimes, intrusions are 
warranted. The Civil Rights Act of 1964 was an intrusion on State and 
local Jim Crow laws. The Voting Rights Act of 1965 was an intrusion on 
State poll taxes. Brown v. Board of Education was an enormous Federal 
intrusion into so-called ``local rights.'' As someone who started 
public school in the 1950s right here in the District of Columbia, in 
schools that had been segregated before Brown, I can tell you that it 
was a very welcome intrusion.
    There are those who critique the current version of ESEA and its 
emphasis on assessment and accountability. I understand that this 
current regime is seen as a blunt instrument instead of a refined tool. 
I agree. We should refine the regime. To abandon accountability, to go 
back to a time when we had no idea how students were progressing in 
school, is to accept the status quo of inequity in student outcomes. To 
bury our heads in the sand and believe that the problem is 
accountability and not what a lack of accountability has shown us, is 
to resign ourselves to a system in which only some children can learn 
and only some children have the chance to be great. When a test tells 
us that an eighth grader is illiterate, we should be outraged and fight 
back--against the illiteracy. We should wrap this student in supports 
and effective, accelerated instruction, not dismiss the tool that shows 
us what is going on. While we are certainly open to innovative 
strategies that would improve our schools, to step in only when a 
school has also let down so many students is extremely problematic. The 
greater autonomy can be had while still ensuring that all schools are 
accountable for the performance of all students.
    We owe our kids at least a system in which they have a meaningful 
and equitable opportunity to learn, in which the system is held 
accountable for their achievement, and where the Federal Government 
provides targeted resources and sufficient oversight to help them 
overcome the barriers to their success. This has been the legacy of 
civil rights in education and this is our responsibility in this next 
reauthorization.

    Question 2. One way to reduce the testing burden could be to 
decrease the number of questions we use to assess students. If the 
number of questions were sufficiently reduced, those questions might 
then be embedded in existing, annual exams such as the PSAT. Would 
streamlining and consolidating assessments be a viable approach to 
reducing the testing burden? Why or why not?
    Answer 2. One of the most important ways to be sure students are 
learning is through valid, reliable, comparable, and annual statewide 
assessments. Without annual assessments, many students in our schools 
would fall through the cracks. While I certainly understand the concern 
about the burden associated with ``over-testing'' and ``teaching to the 
test,'' we need to have a comprehensive method of evaluating student 
performance. Assessments are the cornerstone of accountability systems, 
and they ensure the most vulnerable students' achievement is not hidden 
within larger groups. Annual assessments provide a common way of 
measuring student progress on State standards across classrooms, 
schools, and districts.
    It is important to shift the conversation from the aversion to 
testing overall, to the importance of annual testing to gauge what 
students are learning. While tests do not tell the entire story of 
student performance and teacher efficacy, there is tremendous value in 
comparable and valid markers. While it is certainly worth seeking 
innovative strategies to reduce the amount of class time lost to 
assessments, undermining the validity and reliability of those 
assessments would only do more harm than good. We should make sure that 
students are only taking assessments that are valid and reliable for 
the purpose for which they're given and that the information is used to 
improve the instructional program.
    I look forward to continuing to work with you to advance an ESEA 
reauthorization that protects the core civil rights functions of the 
law and advances educational equity for the Nation's students. Please 
do not hesitate to contact me or Liz King, Senior Policy Analyst and 
Director of Education Policy, if we can be of further assistance.
            Sincerely,
                                         Wade J. Henderson,
                                                   President & CEO.

           Response to Question of Senator Baldwin by Jai Lee

    Question. Educational experts in Wisconsin have stated that 
the turnaround time for the results of the tests required under 
NCLB is a significant issue, sometimes leaving students, 
parents, teachers and administrators waiting for those test 
scores long past the time when they are most (or at all) useful 
for instruction or transparency. For example, if a teacher is 
unable to get a student's test results from the prior academic 
year before he begins planning for the next school year, it is 
difficult for him to prepare for the specific educational needs 
of that child or at least have baseline knowledge of his 
academic needs.
    Please describe what you believe the ideal timeframe would 
be for teachers to receive the results of annual assessments, 
as well as the current timeframe for the dissemination of the 
results of annual assessments in your individual school, 
district or State.
    Answer. Thank you for your question. This is a very 
important issue since the availability of assessment results is 
fundamental to our practice as educators. In order for any 
assessment to be useful, it needs to be available to the 
teachers and students, even parents on a timely basis. The big 
problem in the State of New York, as well as, every State that 
now uses these tests for evaluative purposes, is that we don't 
get to see the tests at all, nor are we able to see how 
students answered on open response items. It is considered a 
security issue.
    I can remember a time, when the tests were not used to 
evaluate us. We received the test booklets in boxes, and I 
would go over them and see how my students responded. Even 
then, by the time they arrived, students made progress since 
the testing period. On many occasions, I could see that 
students often had more background knowledge than the question 
required and were docked points for adding more of their ideas. 
For example, one year students had to read a non fiction 
passage about the life cycle of frogs, and because we studied 
the effects of various factors on the growth and viability of 
tadpoles, one of my students became very excited and added a 
bit more information to the response, while answering the 
question. He was docked two points since it did not fall into 
the norms of the rubric. I would be disappointed when this 
would occur, but it was not a huge deal. More importantly, in 
my classroom, I was able to facilitate and watch him grow to 
develop inquiry, research and critical thinking skills that 
cannot be reflected in the standardized tests. 
    These tests do not provide any kind of useful information 
that would inform our instruction. Teachers no longer have 
access to the tests, and scores arrive at the end of the year, 
around June, when the summer is about to begin. We no longer 
have the ability to know how our students answered, let alone 
have the ability to engage in any kind of meaningful dialog 
around the items. They are useless for the purposes of teaching 
and learning. That is because they are not meant to be 
diagnostic.
    Diagnostic exams in schools can be thought of as akin to 
those used in medicine. Various tools are used to assess a 
patient's condition, and physicians often use more than one 
tool to synthesize the outcomes, in order to provide a 
comprehensive diagnosis that suggests a path for treatment. The 
information is immediate and informs professional judgment 
about the patient's condition and possible ways of treating 
them. Imagine if the results of X-rays were not made available 
to doctors or their patients until months later, and the 
results came in the form of a 4, 3, 2 or 1. Anyone would say 
this type of practice is medically useless, if not dangerous.
    To continue with this analogy, imagine the X-rays were then 
viewed by a minimally trained temp hired by a major corporation 
with other financial interests in this field, which then 
determines the score as an indicator of the doctor's ability to 
practice medicine. It is a danger to both patient and doctor.
    The kind of information that is useful to us, as educators 
is available in our daily work with our students. Each day, 
students work in small groups and individually to discuss and 
deepen their understandings of theme, author's purpose, the use 
of figurative language and to make connections between texts, 
as well as, to the world. In math, it is very similar. Students 
work in ``math congresses'' to express their thinking and 
strategizing around problem solving. They notice patterns and 
share this information with each other. I use all of this 
information, in real time, to inform my instruction day to day, 
week to week, month to month.
    I hope this is helpful. Please feel free to contact me with 
further questions about this response or any other topic.
    Response to Questions of Senator Baldwin and Senator Whitehouse 
                            by Stephen Lazar
                            senator baldwin
    Question. Educational experts in Wisconsin have stated that the 
turnaround time for the results of the tests required under NCLB is a 
significant issue, sometimes leaving students, parents, teachers and 
administrators waiting for those test scores long past the time when 
they are most (or at all) useful for instruction or transparency. For 
example, if a teacher is unable to get a student's test results from 
the prior academic year before he begins planning for the next school 
year, it is difficult for him to prepare for the specific educational 
needs of that child or at least have baseline knowledge of his academic 
needs.
    Please describe what you believe the ideal timeframe would be for 
teachers to receive the results of annual assessments, as well as the 
current timeframe for the dissemination of the results of annual 
assessments in your individual school, district or State.
    Answer. Senator Baldwin identifies a key point: in many cases right 
now, it is months before students and schools receive test results, 
which greatly limits the use of this data for instructional purposes. 
This is the case for the third to eighth grade tests in New York; the 
results of the spring's assessments are not released until August. 
However, this is not the case for New York's high school Regents exams. 
Students and schools receive these scores within a week. I cannot 
account for this difference, but if we are serious about using 
assessments to help increase learning, as opposed to primarily being a 
means of punishment and reward, then best practices of feedback need to 
be followed: feedback needs to be specific and timely. Whatever allows 
New York's Regents exams to be scored in a timely fashion should be the 
case for all assessments.
                           senator whitehouse
    Question. I believe that the most effective schools are driven 
primarily by teachers and school leaders. However, I also understand 
that the Federal role in education is to maintain an important backstop 
for quality and equity. When I talk with teachers and school leaders in 
Rhode Island, what I hear is that Federal requirements, and the State 
bureaucracies that are necessary to help implement them, have far too 
significant a footprint in the day-to-day operation of schools. Do you 
agree with this assessment, and what would be the best ways to reduce 
that footprint without unduly sacrificing the Federal purposes?
    Answer. Senator Whitehouse also identifies a key inefficiency in 
schools: the large, and sometimes unnecessary, footprint of Federal and 
State bureaucracy. This impact seems to vary not only from State-to-
State, but even within schools in a district like New York City. With 
the exception of the significant and overly burdensome documentation 
requirements imposed for students with special education needs by IDEA, 
my school does not feel much of a footprint. The schools that do feel 
it the most in my district are the ones that are most struggling. When 
schools are deemed to be in need of improvement under ESEA, a range of 
consequences are triggered, all of which put more of a burden on 
schools and teachers and often prevent an accurate and actionable 
diagnosis of the schools' needs. I cannot offer a solution to this 
problem beyond reducing the footprint, as I agree with Senator 
Whitehouse's assertion that the most effective schools are driven by 
their teachers and school leaders. When intervention becomes necessary, 
they need to be specific to individual schools, and need to empower 
school leaders and teachers to better accomplish their jobs, rather 
than place additional burdens and layers of accountability on them that 
distract from the school's core work with students.
    I would be remiss though if I did not add a note about the burden 
placed on schools by IDEA. While the objectives of IDEA's focus on 
students with special education needs is worthy and significant, these 
goals could be accomplished without the burdensome reporting 
requirements that force school psychologists, social workers, and 
special education teachers to spend a significant amount of their time 
completing paperwork rather than working with students. The thinking 
that has already been done by Senator Alexander and Senator Bennet's in 
proposing to greatly simplify the FAFSA form without changing its goals 
is needed throughout our education system, and I do not believe there 
would be a more impactful place to continue that work than with IDEA 
reporting requirements.

    [Whereupon, at 11:54 a.m., the hearing was adjourned.]

                                   

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
